No. -20XXXX

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
KANE COUNTY, UTAH, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
(VOLUME 2)

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
EDWIN S. KNEEDLER
Deputy Solicitor General
JONATHAN D. BRIGHTBILL
ERIC GRANT
Deputy Assistant Attorneys
General
ANTHONY A. YANG
Assistant to the Solicitor
General
WILLIAM B. LAZARUS
ANDREW C. MERGEN
JAMES A. MAYSONETT
SOMMER ENGELS
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
Volume 1
Appendix A – Court of appeals opinion
(June 25, 2019) ............................................ 1a
Appendix B – District court order (Aug. 21, 2018) ...... 52a
Appendix C – Court of appeals opinion
(Dec. 2, 2014) ........................................ 61a
Appendix D – Court of appeals opinion
(Mar. 8, 2010) ............................................ 96a
Appendix E – Memorandum decision and order
(Apr. 6, 2009) .......................................... 111a
Appendix F – Court of appeals order denying
rehearing (Feb. 27, 2020) ...................... 119a
Volume 2
Appendix G – Kane County’s First Amended
Complaint (Feb. 20, 2009) ..................... 149a
Appendix H – United States’ Answer
(Nov. 13, 2009) ........................................ 229a
Appendix I – State of Utah’s Complaint in
Intervention (Apr. 29, 2010) ................. 311a
Appendix J – United States’ Answer to Complaint
in Intervention (Aug. 16, 2010) ............ 374a
Appendix K – Southern Utah Wilderness Association Motion to Intervene (Dec. 27,
2017) ......................................................... 432a
Exhibit A – Proposed Answer to First
Amended Complaint ............................ 453a
Exhibit B – Proposed Answer to Complaint in
Intervention .......................................... 477a
Exhibit C – Declaration of Ray Bloxham
(dated Dec. 21, 2017) ............................ 497a

(I)

II
Exhibit D – Declaration of Kay Marienfeld
(dated Dec. 20, 2017) ............................ 508a
Exhibit F – Letter (dated Nov. 30, 2017) ............... 513a
Exhibit H – Draft Letter (dated Apr. 2017)........... 517a
Appendix L – Statutory provisions and rules ............. 524a

149a
APPENDIX G
UNITED STATES JUDICIAL DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-CV-315 CW
KANE COUNTY, UTAH A UTAH POLITICAL SUBDIVISION,
PLAINTIFF

v.
UNITED STATES OF AMERICA, DEFENDANT
Filed:

Feb. 20, 2009

FIRST AMENDED COMPLAINT

Kane County, Utah (“Kane County”), a Utah political
subdivision, for its First Amended Complaint against
the United States of America, hereby alleges as follows:
JURISDICTION AND VENUE

1. The claims asserted herein arise under the Quiet
Title Act. 28 U.S.C. § 2409a.
2. This Court has subject matter jurisdiction under
28 U.S.C. § 2409a (quiet title) and 28 U.S.C. § 1346(f )
(quiet title), as this case involves Kane County’s claim to
ownership of public highway rights-of-way crossing
lands owned by the United States of America.
3. Venue is proper in this Court under 28 U.S.C.
§ 1391(e), as the lands which are the subject of this lawsuit are located in Kane County, State of Utah.

150a
4. A case or controversy has arisen over Kane
County’s ownership of the public highway rights-of-way
described herein.
PARTIES AND INTEREST

5. Kane County is a local political subdivision of the
State of Utah, duly authorized to maintain this action.
See Utah Code Ann. § 17-50-302(2).
6. Kane County owns title to, and has statutory duties regarding, public roads and rights-of-way for such
public roads within Kane County, Utah, inter alia,
pursuant to Utah Code Ann. §§ 17-50-309, 72-3-103,
72-5-103-105, and 72-5-302.
7. Defendant United States of America is the fee
owner of the lands traversed by and subject to the roads
and rights-of-way claimed in this action.
CONGRESSIONAL GRANT OF RIGHTS-OF-WAY
FOR PUBLIC HIGHWAYS CROSSING PUBLIC LAND

8. Section 8 of the Mining Law of 1866, 14 Stat. 253,
later codified as Revised Statute 2477, and later as 43
U.S.C. § 932 (repealed) (hereinafter “R.S. 2477”), provides: “And be it further enacted, That the right of way
for the construction of highways over public lands, not
reserved for public uses, is hereby granted.”
9. R.S. 2477 was an open congressional grant in
praesenti of public highway rights-of-way for the benefit
of miners, ranchers, homesteaders and members of the
public who had need to travel across public lands.
10. Acceptance and vesting of R.S. 2477 rights-ofway required no administrative formalities: no entry,
no application, no license, no patent, and no deed on the
federal side; no formal act of public acceptance on the

151a
part of the states or localities in whom the right was
vested. See SUWA v. BLM, 425 F.3d 735, 741 (10th
Cir. 2005). R.S. 2477 operated as standing offer of a
right-of-way over the public domain, and the grant may
be accepted without formal action by public authorities.
Id.
11. As a matter of federal law, R.S. 2477 borrows
from state law relating to acceptance and scope of such
rights-of-way.
12. During the operation of the grant, R.S. 2477
rights-of-way vested by acts of the public or governmental entities evidencing the acceptance of such rights-ofway for public highways, including the construction or
establishment of public highways across unreserved
public lands according to the requirements of state law.
Acts manifesting acceptance of the grant include public
use of a road sufficient to confirm acceptance of the public highway right-of-way or acts of the government entity with jurisdiction of the road evidencing acceptance
of the road and right-of-way as a public highway.
13. Congressionally granted R.S. 2477 public highway rights-of-way are property interests, sometimes
considered a species of easement. As a congressional
grant of property for public purposes, the grant of such
rights-of-way includes the right of use, enjoyment and
the right to cross public land to access and use the property interest granted.
14. The scope of an R.S. 2477 right-of-way includes
the course and location of the public highway so established, accepted and used, and that which is reasonable
and necessary under the specific circumstances of the
road for which the right-of-way serves.

152a
15. A vested R.S. 2477 right-of-way is not restricted
to the beaten path and includes reasonable progression
of the uses to which it has been put as long as such are
reasonable and necessary under the circumstances.
16. The scope of an R.S. 2477 right-of-way includes
the physical boundaries of the public highway right-ofway accepted and used, and that which is reasonable and
necessary to accommodate the exigencies of the uses to
which it has been put according to sound engineering
practices that protect the safety of the travelling public,
the features of the road, and that prevent undue degradation of adjacent lands.
17. The congressional grant of public highway
rights-of-way embodied by R.S. 2477 operated on public
lands, while not reserved for public uses, for 110 years
until it was repealed on October 21, 1976 by the Federal
Land Policy and Management Act (“FLPMA”), 43 U.S.C.
§ 1701 et seq.
18. In repealing R.S. 2477, Congress preserved
vested R.S. 2477 rights-of-way as valid existing rights
and expressly directed the United States and its subordinate agencies to manage federal lands subject to these
valid existing rights. FLPMA Section 701(h) provides:
“All actions by the Secretary concerned under this Act
shall be subject to valid existing rights.” 43 U.S.C.
§ 1701, note. See also 43 U.S.C. § 1769(a) (“Nothing in
this subchapter shall have the effect of terminating any
right-of-way or right of use heretofore issued, granted
or permitted.”).
19. In Utah, vested R.S. 2477 public highway rightsof-way remain as valid existing property rights until
abandoned by formal action of the governmental owner.

153a
20. R.S. 2477 public highway rights-of-way serve to
benefit the public and accomplish the congressional intent of promoting the public good through securing safe
and efficient means of travel across public lands.
LONG-STANDING DEPARTMENT OF INTERIOR
INTERPRETATION OF R.S. 2477

21. The United States Department of Interior has
long agreed that State law governs the acceptance and
scope of R.S. 2477 rights-of-way.
22. Across the years the Department of Interior
adopted numerous regulations and policies interpreting
the congressional grant of R.S. 2477 rights-of-way.
These regulations and policies served to ensure Department of Interior’s compliance with its statutory duty to
manage the public lands subject to valid existing rights.
23. As of and following 1939, R.S. 2477 interpretive
regulations found at 43 C.F.R. § 244.55 (1939) stated:
[R.S. 2477] becomes effective upon the construction
or establishing of highways, in accordance with the
State laws, over public lands not reserved for public
uses. No application should be filed under said R.S.
2477 as no action on the part of the Federal Government is necessary.
24. As of and following 1963, R.S. 2477 interpretive
regulations found at 43 C.F.R. § 244.58 (1963) stated:
Grants of [R.S. 2477 rights-of-way] become effective
upon the construction or establishment of highways,
in accordance with the State laws, over public lands,
not reserved for public uses. No application should
be filed under R.S. 2477, as no action on the part of
the Government is necessary.

154a
25. As of and following 1974, R.S. 2477 interpretive
regulations found at 43 C.F.R. §§ 2822.1-2 & 2822.2-1
(1974) stated:
No application should be filed under R.S. 2477, as no
action on the part of the Government is necessary.
. . . Grants of [R.S. 2477 rights-of-way] become effective upon the construction or establishment of
highways, in accordance with the State laws, over
public lands, not reserved for public uses.
26. As of and following 1986, R.S. 2477 interpretive
policies stated in Bureau of Land Management (“BLM”)
Manual, R.2-229 stated:
When public funds have been spent on the road it
shall be considered a public road. When the history
of the road is unknown or questionable, its existence
in a condition suitable for public use is evidence that
construction sufficient to cause a grant under RS
2477 has taken place.
27. R.S. 2477 case law and long-standing United
States Department of Interior interpretation establish
the scope of the R.S. 2477 rights-of-way claimed herein
to be that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road.
Applicable law, historical practice, and sound engineering confirm that an R.S. 2477 right-of-way, as distinguished from the physical surface of the road, includes
a minimum 66 foot right-of-way (33 feet from the centerline descriptions provided herein), and any cuts, slopes
and fill areas necessary to ensure a safe travel surface
as reasonable and necessary under the circumstances.
28. The scope of an R.S 2477 right-of-way for a
county public highway is not limited to the beaten path,

155a
but includes that which is reasonable and necessary to
accommodate two lanes of travel according to safe highway engineering practice.
ACCEPTANCE AND SCOPE OF KANE COUNTY’S
R.S. 2477 RIGHTS-OF-WAY

29. After 1866 and prior to the repeal of R.S. 2477
on October 21, 1976, Kane County, by and on behalf of
the public, accepted R.S. 2477 rights-of-way for the Mill
Creek, Bald Knoll, Skutumpah, Sand Dune, Hancock,
Swallow Park/Park Wash, North Swag, Nipple Lake,
and the four Cave Lakes roads described herein on public lands not reserved for public uses. As public land
grants, the owner of these rights-of-way has the right to
access and use these property interests.
30. At the relevant times herein State law provided
that a public highway right-of-way was dedicated and
accepted under the jurisdiction and control of the local
highway authority (Kane County) by designating the
road as a county highway and expending public funds to
construct and maintain the road. See Utah Code Ann.
§ 72-3-103 (prior law in accord); see also Utah Code Ann.
§ 27-12-22 (1963).
31. As shown herein, the R.S. 2477 public highway
rights-of-way for the Mill Creek Bald Knoll, Skutumpah,
Sand Dune, Hancock, Nipple Lake, and portions of the
Swallow Park/Park Wash roads were accepted by Kane
County’s designation of these roads as county highways
and expending public funds to construct and maintain
these roads prior to October 21, 1976.
32. At the relevant times herein State law provided
that a public highway right-of-way is “dedicated and

156a
abandoned to the use of the public when it has been continuously used as a public thoroughfare for a period of
ten years.” Utah Code Ann. § 72-5-104 (prior law in accord).
33. As shown herein, the R.S. 2477 public highway
rights-of-way for the Mill Creek Bald Knoll, Skutumpah,
Sand Dune, Hancock, Swallow Park/Park Wash, North
Swag, Nipple Lake, and the four Cave Lakes roads were
accepted by continuous use as public thoroughfares for
a period in excess of ten years prior to October 21, 1976.
34. Kane County’s vested public highway rights-ofway for the Mill Creek, Bald Knoll, Skutumpah, Sand
Dune, Hancock, Swallow Park/Park Wash, North Swag,
Nipple Lake, and the four Cave Lakes roads continue as
valid existing rights until abandoned by Kane County as
the local highway authority having jurisdiction. See
Utah Code Ann. §§ 72-5-103-105.
35. Kane County has not abandoned the public highway rights-of-way for the Mill Creek, Bald Knoll, Skutumpah, Sand Dune, Hancock, Swallow Park/Park Wash,
North Swag, Nipple Lake, and the four Cave Lakes roads
claimed herein.
THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE AND
CAVE LAKES ROADS

36. The Mill Creek and Bald Knoll roads are located
in western Kane County, Utah.
37. The Mill Creek and Bald Knoll roads cross private and public lands within Townships 40 and 41 South,
Range 4.5 and 5 West, S.L.M. The course and location

157a
of the Mill Creek and Bald Knoll roads are shown on Exhibit 1A attached and incorporated herein.
38. The Skutumpah road is located in western Kane
County.
39. The Skutumpah road crosses private and public
lands within Townships 38, 39, 40 and 41 South, Range
2, 3, 4, 4.5 and 5, S.L.M. The course and location of the
Skutumpah road is shown on Attachment 1 of Exhibit 2
attached and incorporated herein.
40. The Sand Dune road is located in southwestern
Kane County.
41. The Sand Dune road crosses private, Utah
School and Institutional Trust Land Administration
(“SITLA”), and public lands with Township 42, 43, and
44 South, Range 7, 8, and 9 West, S.L.M. The course
and location of the Sand Dune road is shown on Attachment 1 of Exhibit 3 attached and incorporated herein.
42. The Hancock road is located in southwestern
Kane County.
43. The Hancock road crosses public lands within
Township 42 and 43 South, Range 6, 7, and 8 West,
S.L.M. The course and location of the Hancock road is
shown on Attachment 1 of Exhibit 4 attached and incorporated herein.
44. The Swallow Park/Park Wash road, North Swag
road, and Nipple Lake roads are located in western
Kane County.
45. The Swallow Park/Park Wash road crosses private and public lands within Township 39 and 40 South,
Range 2 West, S.L.M., The North Swag road and the
Nipple Lake roads cross public lands within Township

158a
40 South, Range 2 and 3 West, S.L.M. The course and
location of the Swallow Park/Park Wash road and the
North Swag road are shown on Exhibit 5A attached and
incorporated herein. The course and location of the
Nipple Lake road is shown on Attachment 1 to Exhibit
6 attached and incorporated herein.
46. The four Cave Lakes roads are located in southwestern Kane County.
47. The four Cave Lakes roads cross public lands
within Township 42 South, Range 7 West, S.L.M. The
course and location of the four Cave Lakes roads are
shown on Exhibit 7A attached and incorporated herein.
As shown in Exhibit 7A, these roads are also designated
RD130016, RD130017, RD131143 and RD121144.
48. The surveyed centerline of the Bald Knoll, Mill
Creek, Swallow Park/Park Wash, North Swag and Cave
Lakes roads are shown on maps of each road attached
as Exhibits 1A, 5A and 7A, respectively, and were plotted using NAD83 mapping grade Global Positioning
Survey (“GPS”) data collected by Kane County road
personnel. This centerline data has been verified, confirmed by on the ground inspection and reference to pre1976 aerial photography, and overlaid upon United States
Geological Survey topographic maps.
49. The surveyed centerline of the Skutumpah, Sand
Dune, Hancock, and Nipple Lake roads are shown on
maps of each road attached as Attachment 1 to Exhibits
2 (Skutumpah), 3 (Sand Dune), 4 (Hancock), and 6 (Nipple Lake). The information and documentation relevant to the Skutumpah, Sand Dune, Hancock, and Nipple Lake roads was collected by Kane County personnel

159a
and compiled by the State of Utah pursuant to Utah
Code Ann. § 72-5-309—310.
50. The road segments claimed herein for the Bald
Knoll, Mill Creek, Skutumpah, Sand Dune, and Swallow
Park/Park Wash and described in the GPS data, attached hereto as Exhibits 1A (Mill Creek and Bald
Knoll), 2 (Skutumpah), 3 (Sand Dune), and 5B (Swallow
Park/Park Wash), include only those portions of the
roads crossing public lands. The segments of these
roads crossing private or SITLA lands are not at issue,
are not contested, and are not claimed herein.
THE CASE OR CONTROVERSY
The Mill Creek And Bald Knoll Roads

51. On or about June 16, 2006, the Kane County
Commission notified the BLM of its objection to the
United State’s [sic] intent to issue a permit to a third
party to authorize rerouting and modification of Kane
County’s Mill Creek and Bald Knoll roads without consulting Kane County.
52. On or about June 16, 2006, the Kane County
Commission notified the BLM of Kane County’s intent
to make the needed improvements to the Mill Creek and
Bald Knoll roads to meet the safety and transportation
needs of the public.
53. As the lawful owner and government entity
vested with jurisdiction of these public highway rightsof-way, Kane County has the legal right and duty to ensure the Mill Creek and Bald Knoll roads are properly
constructed, maintained, and operated as part of the
county’s transportation system.

160a
54. Kane County’s proposed improvements to the
Mill Creek and Bald Knoll roads were developed by an
engineer and in compliance with applicable standards of
the American Association of State Highway and Transportation Officials (AASHTO).
55. Kane County’s proposed improvements to the
Mill Creek and Bald Knoll roads are reasonable and necessary to promote public safety, to prevent undue degradation of adjacent public lands, and to serve the needs
and uses of the roads for the public and the project.
56. Kane County’s proposed improvements to the
Bald Knoll road are reasonable and necessary and
within the scope of the existing public highway right-ofway. Initially, Kane County must install new culverts
and widen blind corners on the Bald Knoll road. A
copy of Kane County’s initial proposed improvements to
the Bald Knoll road, which conform to AASHTO standards, is attached as Exhibit 8 and incorporated herein.
57. Due to the topography of the land near the intersection of the Bald Knoll and Mill Creek roads, rerouting this intersection will promote public safety and will
secure a more readily maintainable road.
58. Kane County supported the BLM’s proposal to
reroute the easternmost one half mile of the Bald Knoll
road.
59. Accordingly, Kane County requested a FLPMA
Title V permit to reroute the easternmost one half mile
of the Bald Knoll road to an intersection with the Mill
Creek road.
60. The BLM promptly issued this permit on or
about March 6, 2007. A copy of this FLPMA Title V

161a
right-of-way, Serial Number UTU-82147 is attached
hereto as Exhibit 9 and incorporated herein.
61. This FLPMA Title V permit granted a right-ofway of 66 feet wide for the rerouted section of the Bald
Knoll road. See Exhibit 9, p. 2.
62. This FLPMA Title V permit adopted and incorporated many of Kane County’s initial and long term
proposed improvements to the Bald Knoll road within
its terms. See Exhibit 9, pp. 7-9 (Exhibits A and B to
UTU-82147). See also “Proposed New Road” designated by yellow line in Exhibit 8.
63. Kane County currently holds another FLPMA
Title V right-of-way near the southwestern end of the
Bald Knoll road. Kane County intends to take the appropriate action to direct public travel across these
FLPMA Title V rights-of-way for so long as they remain
in effect and provide for Kane County’s and the public’s
transportation needs.
64. Kane County’s proposed improvements to the
Mill Creek road are reasonable and necessary and
within the scope of the existing public highway right-ofway. Initially, Kane County must install new culverts,
widen cattle guards, and widen blind corners on the Mill
Creek road. A copy of Kane County’s initial proposed
improvements to the Mill Creek road, which conform to
AASHTO standards, is attached as Exhibit 10.
65. Over time and as county funding allows, Kane
County must improve the entire length of the Mill Creek
and Bald Knoll roads to provide a safe and reliable
travel surface according to AASHTO standards. The
description of these improvements is provided in Kane
County’s engineer report attached and incorporated in

162a
the FLPMA Title V issued by the United States Bureau
of Land Management for the rerouted portion of the
Bald Knoll road. See Exhibit 9, pp. 8-9. Kane County
intends to improve the Mill Creek and Bald Knoll roads
to conform to the applicable AASHTO standards, which
are the standards the BLM adopted for the rerouted
portion of the Bald Knoll road.
66. On or about June 16, 2006, the Kane County
Commission requested the BLM to make an initial determination of whether the proposed improvements to
the Mill Creek and Bald Knoll roads were within the
scope of Kane County’s public highway rights-of-way.
67. Over a year later in July of 2007, the BLM published a preliminary determination for the Bald Knoll
road agreeing that Kane County owns an R.S. 2477 public highway right-of-way for the Bald Knoll road.
68. The BLM has not completed this initial determination.
69. Upon information and belief, the BLM has not
taken any action regarding the initial determination for
the Mill Creek road.
70. Over two years have passed since Kane County
notified the BLM of its intent to make these needed improvements to the Mill Creek and Bald Knoll roads.
71. Over two years have passed since Kane County
requested the BLM to make an initial determination
that these improvements are within the scope of Kane
County’s congressionally granted public highway rightsof-way.

163a
72. The BLM has not identified any problems or
concerns with respect to the proposed improvements as
affecting the adjacent public lands.
73. The BLM is under an affirmative legal duty to
ensure that its actions are subject to and consistent with
valid existing rights.
74. In making an initial determination of whether
proposed improvements fall within the scope of a public
highway right-of-way, the BLM has an obligation to render its decision in a timely and expeditious manner.
75. In making an initial determination of whether
proposed improvements fall within the scope of a public
highway right-of-way, the BLM may not use its authority to delay or impair valid existing public highway rightsof-way.
76. The BLM’s two year delay in responding to Kane
County’s request constitutes unreasonable delay and has
impaired Kane County’s valid existing rights.
77. On October 31, 2008, the BLM adopted its final
Resource Management Plan (“RMP”) for the public
lands managed by the Kanab Field Office in Kane
County. The RMP and its Map 10 Route Designations
purport to authorize and regulate motor vehicle (including unlicensed and all-terrain vehicle) travel on Kane
County’s Mill Creek and Bald Knoll roads, including
their respective segments crossing public lands—except
for the Old Leach Ranch segment. The RMP’s Map 9
and Map 10 purport to close the Old Leach Ranch segment of the Bald Knoll road. The BLM’s purported
regulation of public travel on Kane County’s Mill Creek

164a
and Bald Knoll roads constitutes an unlawful impairment of Kane County’s property interests and regulatory authority.
78. On December 20, 2006, the Utah State Office of
the BLM directed its land use planners, including those
in the Kanab Field Office, to avoid considering R.S. 2477
rights-of-way in developing RMP’s. Recognizing that
this directive would necessarily result in litigation, the
Utah State Office of the BLM informed its land use planners to confirm that “nothing in the RMP extinguishes
any valid right-of-way, or alters the legal rights the
state and counties have to assert and protect R.S. 2477
rights or to challenge in Federal court or other appropriate venue any use restrictions imposed by the RMP
that they believe inconsistent with their rights.” This
BLM policy was put into effect on October 31, 2008 in
the RMP.
79. The BLM’s failure to respond to Kane County’s
June 16, 2006 request to improve the Mill Creek and
Bald Knoll roads created a case or controversy. The
BLM’s purported regulation and closure of Kane County’s
Bald Knoll and Mill Creek roads creates a case or controversy. Title to these rights-of-way is necessary to
authorize Kane County to maintain and construct these
roads, to receive funding to pay for their maintenance,
and to exercise regulatory jurisdiction of these roads
where they cross public land.
The Skutumpah Road

80. The BLM has previously determined that the
Skutumpah road crosses a Kane County R.S. 2477 public
highway right-of-way. See SUWA v. BLM, 425 F.3d at

165a
743. Indeed, the Tenth Circuit remanded the underlying trespass case for review of “whether Kane County
exceeded the scope of its right-of-way with respect to
the Skutumpah Road.” Id. at 788.
81. On May 16, 2008, the United States District
Court, District of Utah issued a decision in The Wilderness Society v. Kane County, Case No. 2:05-CV-0854
TC, Dkt. No. 202 (hereinafter, the “TWS Decision”) 1 ,
stating that Kane County does not own an R.S. 2477
right-of-way for the Skutumpah road. See TWS Decision, p. 21.
82. In the TWS Decision, the district court held that
“despite the County’s asserted R.S. 2477 rights-of-way,
the validity of which have not been adjudicated in a court
of law (that is, there are no “valid existing rights” to consider here).” TWS Decision, pp. 20-21. The district
court held that Kane County does not own an R.S. 2477
right-of-way unless and until it is adjudicated in a court
of law. Id. at 21.
83. The Skutumpah road crosses private land, general public land, and lands within the Grand StaircaseEscalante National Monument (“Monument”). Effective as of February of 2000, the BLM adopted its Final
Management Plan for the Grand Staircase-Escalante
National Monument (“Plan”). The Plan purports to
adopt a transportation plan for roads within the Monument as depicted the Plan’s Map 2.
84. The Plan expressly states that it will be administered subject to valid existing rights and that it will
The TWS Decision has been appealed to the Tenth Circuit Court
of Appeals. See The Wilderness Society v. Kane County, App. No.
08-4090.
1

166a
respect R.S. 2477 rights-of-way within the Monument
“in the event of legal decisions on R.S. 2477 assertions.
. . . ” Nevertheless, the Plan purports to restrict
Kane County’s regulation, use and maintenance of the
Skutumpah road within the Monument.
85. On October 31, 2008, the BLM adopted the RMP
for the public lands managed by the Kanab Field Office
in Kane County. The RMP limits motor vehicle travel
on public lands within Kane County, including along the
Skutumpah road, to designated routes. The RMP’s
Map 10 Route Designations fails to show whether the
Skutumpah road is open or closed to motor vehicle use.
The United States’ failure to designate Kane County’s
Skutumpah road as open leaves Kane County subject to
another lawsuit identical to that reflected in the TWS
Decision.
86. On December 20, 2006, the Utah State Office of
the BLM directed its land use planners, including those
in the Kanab Field Office, to avoid considering R.S. 2477
rights-of-way in developing RMP’s. Recognizing that
this directive would necessarily result in litigation, the
Utah State Office of the BLM informed its land use planners to confirm that “nothing in the RMP extinguishes
any valid right-of-way, or alters the legal rights the
state and counties have to assert and protect R.S. 2477
rights or to challenge in Federal court or other appropriate venue any use restrictions imposed by the RMP
that they believe inconsistent with their rights.” This
BLM policy was put into effect against Kane County on
October 31, 2008 in the RMP.
87. Since 2005, representatives of the Department
of Interior provided assistance to the plaintiffs in the
TWS Decision and have stated that Kane County does

167a
not now have an R.S. 2477 right-of-way for the Skutumpah road. These statements include the direct
statement that the Tenth Circuit was wrong to suggest
that Kane County currently owns a right-of-way for the
Skutumpah road (see ¶ 80, supra), that Kane County’s
historic maintenance activities on the Skutumpah road
were solely part of a symbiotic governmental relationship, but not conducted upon a Kane County right-ofway, and that Kane County must first quiet title to the
right-of-way for the Skutumpah road to have any grounds
to complain of the United States’ restrictions on this
Kane County road.
88. Title to this right-of-way is necessary to authorize Kane County to maintain the road, to receive funding
to pay for its maintenance, and to exercise regulatory
jurisdiction of the road where it crosses public land, including within the Monument.
89. Kane County’s Skutumpah road is a heavily travelled, higher speed public highway. The Skutumpah
road requires significant routine maintenance to provide
for public safety, and even in the few short months since
the TWS Decision, the Skutumpah road has deteriorated and is in need of maintenance and repair.
90. The Department of Interior’s recent assertion
that Kane County has no R.S. 2477 right-of-way, including for the Skutumpah road, and adverse management
restrictions, have created a case or controversy regarding the ownership of the right-of-way for the Skutumpah
road.
The Sand Dune and Hancock Roads

91. The Sand Dune and Hancock roads are paved
major thoroughfares that provide access to locations,

168a
such as the Coral Pink Sand Dunes State Park and connect to highways within the State of Utah and the State
of Arizona.
92. Kane County’s authority to construct, maintain
and regulate these roads as they cross public land exists
pursuant to R.S. 2477 rights-of-way.
93. On October 31, 2008, the BLM adopted the RMP
for the public lands managed by the Kanab Field Office
in Kane County. The RMP limits motor vehicle travel
on public lands within Kane County, including along the
Sand Dune and Hancock roads, to designated routes.
The RMP’s Map 10 Route Designations fails to show the
paved Sand Dune road as being open to any motor vehicle use. The RMP’s Map 10 appears not to show the
Hancock road as being open to any motor vehicle use.
If one or more short portions of the Sand Dune and Hancock roads are shown (which is uncertain due to map
scale imprecision), the RMP purports to unlawfully authorize and regulate public travel on Kane County’s
Sand Dune and Hancock roads.
94. On December 20, 2006, the Utah State Office of
the BLM directed its land use planners, including those
in the Kanab Field Office, to avoid considering R.S. 2477
rights-of-way in developing RMP’s. Recognizing that
this directive would necessarily result in litigation, the
Utah State Office of the BLM informed its land use planners to confirm that “nothing in the RMP extinguishes
any valid right-of-way, or alters the legal rights the
state and counties have to assert and protect R.S. 2477
rights or to challenge in Federal court or other appropriate venue any use restrictions imposed by the RMP
that they believe inconsistent with their rights.” This

169a
BLM policy was put into effect against Kane County on
October 31, 2008 in the RMP.
95. The United States’ failure to address Kane
County’s valid existing public highway right-of-way for
the Sand Dune and Hancock roads leaves Kane County
subject to another lawsuit identical to that reflected in
the TWS Decision.
96. The BLM’s purported regulation and closure of
Kane County’s Sand Dune and Hancock roads creates a
case or controversy. Title to these rights-of-way is
necessary to authorize Kane County to maintain these
roads, to receive funding to pay for their maintenance,
and to exercise regulatory jurisdiction of these roads
where they cross public land.
97. Following the TWS Decision, a representative of
the Department of Interior stated that Kane County
does not have any R.S. 2477 rights-of-way that would authorize Kane County to construct, maintain or exercise
regulatory jurisdiction of the Sand Dune and Hancock
roads where they cross public land.
98. The Department of Interior’s recent assertion
that Kane County has no R.S. 2477 right-of-way, including for the Sand Dune and Hancock roads, has created
a case or controversy regarding the ownership of the
rights-of-way for these roads. The BLM’s purported
regulation and closure of Kane County’s Sand Dune and
Hancock roads has created a case or controversy.
The Swallow Park/Park Wash, North Swag, and Nipple
Lake Roads

99. The Swallow Park/Park Wash and North Swag
roads provide access from the Skutumpah road to the

170a
Kitchen Corral road, which itself connects to Highway
89 in western Kane County.
100. The Nipple Lake road provides access from the
Kitchen Corral road to a ranch in western Kane County.
101. The Nipple Lake road and portions of the Swallow Park/Park Wash roads are Kane County Class B
roads that received routine maintenance and have improved travel surfaces constructed by Kane County.
102. Portions of the Swallow Park/Park Wash road,
and the North Swag road are Kane County Class D
roads with unimproved traveling surfaces.
103. These roads, as they cross public lands, lie within
the Monument. Effective as of February of 2000, the
BLM adopted its Plan for the Monument. The Plan
purports to adopt a transportation plan for roads within
the Monument as depicted the Plan’s Map 2.
104. The Plan expressly states that it will be administered subject to valid existing rights. Nevertheless,
the Plan also represents that roads not shown on Map 2
are considered closed, subject to valid existing rights.
105. By its Map 2, the Plan shows portions of the
Swallow Park/Park Wash road to be restricted to only
BLM administrative uses.
106. By its Map 2, the Plan does not show the remainder of the Swallow Park/Park Wash road, or any
part of the North Swag and Nipple Lake roads as being
public highways.
107. The TWS Decision states that Kane County
cannot own, maintain or manage these roads unless and
until their rights-of-way are adjudicated in a court of
law.

171a
108. Following the TWS Decision, a representative
of the Department of Interior stated that Kane County
does not have any R.S. 2477 rights-of-way that would authorize Kane County to own, maintain or exercise regulatory jurisdiction of the Swallow Park/Park Wash,
North Swag, and Nipple Lake roads where they cross
public land.
109. The Plan and the Department of Interior’s recent assertion that Kane County has no R.S. 2477 rightof-way, including for the Swallow Park/Park Wash,
North Swag, and Nipple Lake roads, has created a case
or controversy regarding the ownership of the rights-ofway for these roads.
The Cave Lakes Roads

110. The Cave Lakes roads provide access from the
Hancock road to private land in western Kane County.
111. On July 25, 2008, the BLM issued FLPMA Title
V rights-of-way to a private entity for improvement,
maintenance and ownership of rights-of-way over the
top of Kane County’s Cave Lakes roads. These FLPMA
Title V rights-of-way bear serial numbers UTU-82998,
UTU-83004, and UTU-82999.
112. These FLPMA Title V rights-of-way expressly
acknowledge that Kane County claims to own public
highway rights-of-way for the roads they affect, and expressly provide that in the event of a federal court decision confirming Kane County’s R.S. 2477 rights-of-way,
they would be superseded and automatically terminate.
113. The BLM’s July 25, 2008 issuance of these
FLPMA Title V rights-of-way over the top of Kane

172a
County’s R.S. 2477 public highway rights-of-way has impaired Kane County’s ability to own, maintain and regulate public travel on its public highways.
114. The BLM’s issuance of the conflicting Title V
rights-of-way, and the Department of Interior’s recent
assertion that Kane County has no R.S. 2477 rights-ofway, including for the four Cave Lakes roads, has created a case or controversy regarding the ownership of
the rights-of-way for these roads.
115. On October 31, 2008, the BLM adopted the
RMP for the public lands managed by the Kanab Field
Office in Kane County. The RMP limits motor vehicle
travel on public lands within Kane County, including
along the Cave Lakes roads, to designated routes. The
RMP’s Map 10 Route Designations purports to authorize motor vehicle (including unlicensed and all-terrain
vehicle) travel on Kane County’s Cave Lakes roads.
The BLM’s purported regulation of public travel on
Kane County’s Cave Lakes roads constitutes an unlawful impairment of Kane County’s property interests and
regulatory authority.
116. On December 20, 2006, the Utah State Office of
the BLM directed its land use planners, including those
in the Kanab Field Office, to avoid considering R.S. 2477
rights-of-way in developing RMP’s. Recognizing that
this directive would necessarily result in litigation, the
Utah State Office of the BLM informed its land use planners to confirm that “nothing in the RMP extinguishes
any valid right-of-way, or alters the legal rights the
state and counties have to assert and protect R.S. 2477
rights or to challenge in Federal court or other appropriate venue any use restrictions imposed by the RMP
that they believe inconsistent with their rights.” This

173a
BLM policy was put into effect against Kane County on
October 31, 2008 in the RMP.
117. In December of 2008, Kane County requested a
meeting with representatives of the Department of Interior (being the managers of the BLM Kanab Field Office, the Monument, and the Glen Canyon Recreation
Area) to coordinate road snow removal responsibilities,
specifically as related to public highways crossing federal lands in Kane County. These representatives did
not meet, have not agreed to a later meeting, and it was
expressed to Kane County that a United States attorney
advised against meeting with Kane County.
118. As shown above, the actions of the United
States and its agencies have, within the last nine years
and more recently, created a case or controversy regarding Kane County’s ownership, maintenance, and regulation of these public highway rights-of-way. The United
States’ deliberate refusal to address Kane County’s public
highway rights-of-way in its management plans has created legal liability for Kane County, clouded its title to
these rights-of-way, impaired its regulatory authority,
and placed the travelling public at risk.
FIRST CAUSE OF ACTION — QUIET TITLE
MILL CREEK ROAD

119. Kane County incorporates herein and realleges
each of the foregoing paragraphs.
Description of Mill Creek Road R.S. 2477 Right-of-Way.

120. The Mill Creek road is designated as Kane
County road number K4400. The Mill Creek road
claimed herein includes segments also known as the
Tenny Creek road K4410 and the Oak Canyon road
K4405. See Exhibit 1A.

174a
121. The south end of the Mill Creek road K4400
commences at its intersection with the Skutumpah road
on private land in the NW quarter of section 5, Township
41 South, Range 4.5 West, S.L.M., and proceeds in a northerly direction a little over six miles to its end at three
gates on private property in the SWSE of section 34,
Township 39 South, Range 4.5 West, in the NWNE of
section 5, Township 40 South, Range 4.5 West, S.L.M.,
and in the SESW of section 6, Township 40 South, Range
4.5 West, S.L.M. See Exhibit 1A.
122. The specific right-of-way for the Mill Creek road
on public lands claimed herein includes:
a. K4400 Segment 1, consisting of .44 miles more or
less commencing in the NESE of section 29, Township 40 South, Range 4.5 West, S.L.M., and ending in
the SENE of section 29, Township 40 South, Range
4.5 West, S.L.M. The NAD83 mapping grade GPS
data plotting the centerline and course of the Mill
Creek road K4400 Segment 1 right-of-way claimed
herein is attached hereto as Exhibit 1B and incorporated by reference.
b. K4400 Segment 2, consisting of 4.01 miles more or
less commencing in the SENE of section 20, Township 40 South Range 4.5 West, S.L.M., proceeding
northerly across sections 20, 17, 8, 5 and 6, and ending
at a gate on private property in the SWSE of section
34, Township 39 South, Range 4.5 West, S.L.M. The
NAD83 mapping grade GPS data plotting the precise
centerline course of the Mill Creek road K4400 Segment 2 right-of-way claimed herein is attached hereto
as Exhibit 1C and incorporated by reference.

175a
c. K4410 Segment 3, also known as the Tenny Creek
road, consisting of .4705 miles more or less commencing at its intersection with the previously described
main Mill Creek road K4400 Segment 2 in the SWSE
of section 5, Township 40 South, Range 4.5 West,
S.L.M., and proceeding north to its end at a gate on
private property in the NWNE of section 5, Township
40 South, Range 4.5 West., S.L.M. The NAD83
mapping grade GPS data plotting the centerline
course of this segment of right-of-way claimed herein
is attached hereto as Exhibit 1D and incorporated by
reference.
d. K4405 Segment 4, also known as the Oak Canyon
road, consisting of .6629 miles more or less commencing at its intersection with the previously described
main Mill Creek road K4400 Segment 2 in the SENE
of section 6, Township 40 South, Range 4.5 West,
S.L.M., and proceeding southwesterly to its end at a
gate on private property in the SESW of section 6,
Township 40 South, Range 4.5 West., S.L.M. The
NAD83 mapping grade GPS data plotting the centerline course of this segment of right-of-way claimed
herein is attached hereto as Exhibit 1E and incorporated by reference.
123. The Mill Creek road K4400 Segment 1 and 2 provide access across public lands and access to private
property that was conveyed into private ownership by
the United States on June 10, 1937.
124. The Mill Creek road K4410 Segment 3, also
known as the Tenny Creek road, provides access across
public lands and access to private property that was conveyed into private ownership by the United States on
March 23, 1923.

176a
125. The Mill Creek road K4405 Segment 4, also
known as the Oak Canyon road, provides access across
public lands and access to private property that was conveyed into private ownership by the United States on
August 8, 1957.
126. The right-of-way for the Mill Creek road claimed
herein includes K4400 Segments 1 and 2, K4410 Segment 3, and K4405 Segment 4 on public lands owned by
the United States. An enhanced detail map plotting
the GPS centerline of the intersection and course of
K4400 Segment 2, K4410 Segment 3, and K4405 Segment 4 is attached as Exhibit 11 and incorporated
herein.
127. The right-of-way for the Mill Creek road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting Mill Creek Road R.S. 2477 Right-of-Way

128. The specific length, course and location of Kane
County’s Mill Creek road has long appeared on United
States Geological Survey (“USGS”) maps.
129. The entire Mill Creek road (including each of
the specific segments claimed herein) has appeared on a
USGS Skutumpah Creek, Utah 7.5 minute quadrangle
map since at least 1966 (as surveyed in 1964). A copy
of this map is attached as Exhibit 12 and incorporated
herein. This attached map includes Kane County’s former road numbering designations for the Mill Creek
road, which are #216, #214, and #546.

177a
130. The northernmost end of the Mill Creek road
further appears on a United States Department of Agriculture Dixie National Forest map dated 1963.
131. Pre-1976 aerial photography confirms the historical existence of the Mill Creek road as located on the
land and following its historical course. More recent
aerial photography continues to show the road as it has
historically existed.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

132. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Mill Creek road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
133. The public highway right-of-way accepted and
perfected for the Mill Creek road includes K4400 Segment 1, K4400 Segment 2, K4410 Segment 3, and K4405
Segment 4 as described herein on lands owned by the
United States.
134. The scope of the public highway right-of-way
accepted and perfected for the Mill Creek road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein). All of Kane County’s
proposed improvements to the Mill Creek road are
within the scope of its public highway right-of-way for
the Mill Creek road.
135. The entire Mill Creek road (including the specific segments claimed herein) was officially designated

178a
as a Kane County highway on Kane County’s General
Highway map in 1965.
136. Segments of the Mill Creek road appear on earlier Kane County General Highway maps, including
those published in 1956. However, the entirety of the
Mill Creek road was designated as county highways on
the 1965 Kane County General Highway map.
137. Kane County’s designation of the Mill Creek
road as a county road in 1965 confirmed that these roads
were accepted “as county roads . . . under the jurisdiction and control of the county commissioners” of
Kane County. Utah Code Ann. § 27-12-22 (1963).
138. Kane County designated and accepted this
county road and the R.S. 2477 right-of-way no later than
1965, and thereafter continued to construct, maintain
and improve the Mill Creek road using public funds pursuant to the governmental authority of the Kane County
Commission.
139. From at least the 1960’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Mill Creek road and installed culverts, water
bars, and cattle guards on them using public funds.
The location of some of these cattle guards and culverts
are shown on Exhibit 1A. From at least the 1960’s and
continuing past 1976, Kane County road crews conducted routine maintenance of this road generally twice
a year and regularly repaired those sections of the road
that are prone to washouts and headcutting.
140. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this road to ensure that
the construction levels met the requirements of State

179a
law for continued appropriations to maintain this road
as a general county road (General Highways) conducive
to regular travel by two-wheel drive vehicles.
141. Kane County’s designation of the Mill Creek
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1965
constituted formal acceptance of the congressional
grant of R.S. 2477 right-of-way for this public highway
pursuant to State law codified in Utah Code Ann.
§ 27-12-22 (1963).
142. In 1977, the United States Bureau of Land
Management and Kane County signed a memorandum
confirming that county roads, including the Mill Creek
road, included a right-of-way width of 66 feet.
143. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Mill Creek road described herein.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

144. The Mill Creek road has long served as a public
highway providing access across public lands and to land
conveyed into private ownership in 1937 (K4400 Segments 1 and 2), 1923 (K4410 Segment 3), and 1957
(K4405 Segment 4).
145. Witnesses with personal knowledge of the history of the Mill Creek road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least the 1940’s consisting
of general public travel for purposes of accessing private
land, mineral exploration, hunting, livestock operations,
wood gathering, camping, and recreation, and continuing through 1976 and to the present.

180a
146. Witnesses with personal knowledge of the history of the Mill Creek road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of car, jeep, 2-ton trucks,
cattle trucks, pickup trucks, team and wagon, and bicycles.
147. Currently known reputation in the community
is that the Mill Creek road has been open for all to come
and go as they please since at least as early as the 1930’s
and continuing through the present.
148. The Mill Creek road was used on a continuous
and nonexclusive basis as public thoroughfare for decades prior to October 21, 1976.
149. The Mill Creek road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
150. Public motor vehicle use of the Mill Creek road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of R.S. 2477 public highway right-of-way for
the Mill Creek road.
151. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Mill Creek road described herein.

181a
SECOND CAUSE OF ACTION — QUIET TITLE
BALD KNOLL ROAD

152. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of Bald Knoll Road R.S. 2477 Right-of-Way

153. The Bald Knoll road is designated as Kane
County road K3935. See Exhibit 1A.
154. The Bald Knoll road has at times been referred
to as the “Coal Road” or mislabeled as the “Thompson
Creek Road”. The west end of the Bald Knoll road
commences in the NENW of section 3, Township 41
South, Range 5 West, S.L.M., at the boundary of private
land and proceeds northwesterly across public lands to
the intersection of the main Bald Knoll road in the
SWSE of section 34, Township 40 South, Range 5 West,
S.L.M. From this intersection, the Bald Knoll road
travels northerly and then easterly to its end at an intersection with the Mill Creek road K4400 Segment 2 in
the NENE of section 17, Township 40 South, Range 4.5
West, S.L.M. The total length of the Bald Knoll road
is a little over nine miles. See Exhibit 1A.
155. The specific right-of-way for the Bald Knoll
road K3935 on public lands claimed herein includes:
a. K3930A Segment 1 (also known as the Old Leach
Ranch Segment), consisting of .36 miles more or less
commencing in the NENW of section 3, Township 41
South, Range 5 West, S.L.M., at the boundary of private land and ending at an intersection in the SESW
of section 34, Township 40 South, Range 5 West,
S.L.M. The NAD83 mapping grade GPS data plotting the centerline course of this segment of right-of-

182a
way claimed herein is attached hereto as Exhibit 1F
and incorporated by reference.
b. K3935 Segment 2 consisting of 3.29 miles more or
less commencing at an intersection in the SESW of
section 34, Township 40 South, Range 5 West, S.L.M.,
and ending at the boundary of private property in the
NWNE of section 22, Township 40 South, Range 5
West, S.L.M. The NAD83 mapping grade GPS data
plotting the centerline course of this segment of
right-of-way claimed herein is attached hereto as Exhibit 1G and incorporated by reference.
c. K3935 Segment 3 consisting of .24 miles more or
less commencing at the boundary of private property
in the NENE of section 22, Township 40 South,
Range 5 West, S.L.M., and ending at the boundary of
private property in the SESE of section 15, Township
40 South, Range 5 West, S.L.M. The NAD83 mapping
grade GPS data plotting the centerline course of this
segment of right-of-way claimed herein is attached
hereto as Exhibit 1H and incorporated by reference.
d. K3935 Segment 4 consisting of 5.15 miles more or
less commencing at the boundary of private property
in the SWSW of section 14, Township 40 South,
Range 5 West, S.L.M., and ending at its intersection
with the Mill Creek road K4400 Segment 2 in the
NENE of section 17, Township 40 South, Range 4.5
West, S.L.M. The NAD83 mapping grade GPS data
plotting the centerline course of this segment of
right-of-way claimed herein is attached hereto as Exhibit 1J and incorporated by reference.
156. The parcel of private property accessed by Bald
Knoll road K3935 Segments 2 and 3, and from which

183a
K3935 Segment 4 departs, was conveyed into private
ownership by the United States on October 23, 1928.
157. The right-of-way for the Bald Knoll road
claimed herein includes K3930A Segment 1, K3935 Segment 2, K3935 Segment 3, and K3935 Segment 4 on public lands owned by the United States.
158. The right-of-way for the Bald Knoll road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Bald Knoll Road R.S. 2477 Right-ofWay

159. The specific length, course and location of Kane
County’s Bald Knoll road has long appeared on USGS
maps.
160. The entire Bald Knoll road (including each of
the specific segments claimed herein) has appeared on
the Skutumpah Creek map (Exhibit 12) and on the
USGS Bald Knoll, Utah 7.5 minute quadrangle map
since at least 1966 (as surveyed in 1964). A copy of the
Bald Knoll map is attached as Exhibit 13 and incorporated herein. The attached map includes Kane County’s
former road numbering designations for the Bald Knoll
road, which are #500, #515, #514 and #513.
161. Of particular note, the 1966 Bald Knoll map
(Exhibit 13) specifically shows the historical existence
and course of K3930A Segment 1 (also known as the Old
Leach Ranch Segment), as commencing in section 3,
Township 41 South, Range 5 West, S.L.M., and proceeding northwesterly as former Kane County road number

184a
500 to its intersection with former Kane County road
number 515 in section 34, Township 40 South, Range 5
West, S.L.M.
162. Pre-1976 aerial photography confirms the historical existence of the Bald Knoll road as located on the
land and following its historic course. More recent aerial photography continues to show this road as it has historically existed.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

163. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Bald Knoll road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
164. The public highway right-of-way accepted and
perfected for the Bald Knoll road includes K3930A Segment 1, K3935 Segment 2, K3935 Segment 3, and K3935
Segment 4 on lands owned by the United States.
165. The scope of the public highway right-of-way
accepted and perfected for the Bald Knoll road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein). All of Kane County’s
proposed improvements to the Bald Knoll road are
within the scope of its public highway right-of-way for
the Bald Knoll road
166. The entire Bald Knoll road (including the specific segments claimed herein) was officially designated

185a
as a Kane County general highway on Kane County’s
General Highway map in 1965. 2
167. Kane County’s designation of the Bald Knoll
road as a county road by 1965 confirmed that this road
was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of
Kane County. Utah Code Ann. § 27-12-22 (1963).
168. Kane County designated and accepted this
county road and its R.S. 2477 right-of-way no later than
1965, and thereafter continued to construct, maintain
and improve the Bald Knoll road using public funds pursuant to the governmental authority of the Kane County
Commission.
169. From at least the 1960’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Bald Knoll road and installed culverts, water
bars, and cattle guards on it using public funds. The
location of some of these cattle guards and culverts are
shown on Exhibit 1A. From at least the 1960’s and continuing past 1976, Kane County road crews conducted
routine maintenance of this road generally twice a year
and regularly repaired sections of the road that are
prone to washouts and headcutting.
170. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this road to ensure that
its construction levels met the requirements of State law
for continued appropriations to maintain this road as a
Portions of K3935 Segment 2, 3 and 4 were improperly drawn on
Kane County’s General Highway maps in 1965 as an apparent carryover mapping error from a similar 1956 map. These mapping errors have since been confirmed and corrected.
2

186a
county road (General Highways) conducive to regular
travel by two-wheel drive vehicles.
171. Kane County’s designation of the Bald Knoll
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1965
constituted formal acceptance of the congressional
grant of R.S. 2477 rights-of-way for this public highway
pursuant to State law codified in Utah Code Ann.
§ 27-12-22 (1963).
172. In 1977, the United States Bureau of Land
Management and Kane County signed a memorandum
confirming that county roads, including the Bald Knoll
road (then designated as the Thompson Creek road), included a right-of-way width of 66 feet.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

173. The Bald Knoll road has long served as a public
highway providing access across public lands and to land
conveyed into private ownership in 1928.
174. Witnesses with personal knowledge of the history of the Bald Knoll road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least 1942 consisting of
general public travel for purposes of accessing private
land, mining and mineral exploration, hunting, livestock
operations, wood gathering, camping, and recreation
continuing through 1976 and to the present.
175. Witnesses with personal knowledge of the history of the Bald Knoll road confirm public use of the
road on a continuous basis for more than ten years prior

187a
to October 21, 1976 by means of horse, all terrain vehicle, car, jeep, 2-ton trucks, semi-truck, D-9 Cat, tractor,
cattle truck, and pickup truck.
176. Currently known reputation in the community
is that the Bald Knoll road has been open for all to come
and go as they pleased since at least the early 1900’s and
continuing through the present.
177. The Bald Knoll road was used on a continuous
and nonexclusive basis as public thoroughfare for decades prior to October 21, 1976.
178. The Bald Knoll road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
179. Public motor vehicle use of the Bald Knoll road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of a R.S. 2477 public highway right-of-way for
the Bald Knoll road.
180. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Bald Knoll road described herein.
THIRD CAUSE OF ACTION — QUIET TITLE
SKUTUMPAH ROAD

181. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.

188a
Description of Skutumpah Road R.S. 2477 Right-of-Way

182. The Skutumpah road is designated as Kane
County road number K5000. See Exhibit 2.
183. The Skutumpah road K5000 commences at the
intersection of the Skutumpah road and Kane County
road number K3000 in the NESE of section 11, Township 41 South, Range 5 S.L.M., and proceeds in a northeasterly direction, approximately 32.73 miles, to where
it ends in the SENW of section 6, Township 38 South,
Range 2 West, S.L.M. See Attachment 1 to Exhibit 2.
184. The specific right-of-way for the Skutumpah
road claimed herein includes seven (7) separate segments on public lands, see Attachment 4 of Exhibit 2,
specifically described therein, and as follows:
a. Segment 1 of the Skutumpah road is approximately 2.61 miles;
b. Segment 3 of the Skutumpah road is approximately 7.33 miles;
c. Segment 5 of the Skutumpah road is approximately .27 miles;
d. Segment 7 of the Skutumpah road is approximately 3.73 miles;
e. Segment 9 of the Skutumpah road is approximately 2.01 miles;
f. Segment 11 of the Skutumpah road is approximately 6.84 miles;
g. Segment 13 of the Skutumpah road is approximately 5.43 miles;

189a
185. The right-of-way for the Skutumpah road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Skutumpah Road R.S. 2477 Right-ofWay

186. The specific length, course and location of Kane
County’s Skutumpah road has long appeared on USGS
maps.
187. The southernmost end of the Skutumpah road
has appeared on a USGS Skutumpah Creek, Utah 7.5
minute quadrangle map since at least 1966 (as surveyed
in 1964). (Exhibit 12). This attached map includes
Kane County’s former road numbering designations for
the Skutumpah road, which is #50. The remainder of
the Skutumpah road has appeared on the USGS Deer
Springs Point, Utah 7.5 minute quadrangle map dated
1966, the USGS Rainbow Point, Utah 7.5 minute quadrangle map dated 1966, the USGS Bull Valley Gorge,
Utah 7.5 minute quadrangle map dated 1966, and the
USGS Cannonville, Utah 7.5 minute quadrangle map
dated 1966. A copy of these maps are attached as Exhibits 14-17, respectively, and incorporated herein.
188. The Skutumpah road has appeared on Kane
County General Highway Maps as a county highway
since at least 1950.
189. In addition, the entire Skutumpah road has appeared on the Froiseth’s Territory of Utah Map dated
1878.

190a
190. Pre-1976 aerial photography confirms the historical existence of the Skutumpah road as located on
the land and following their historical courses. More
recent aerial photography continues to show this road
as it has historically existed.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

191. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Skutumpah road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
192. The public highway right-of-way accepted and
perfected for the Skutumpah road includes the seven (7)
segments claimed herein on lands owned by the United
States. See Exhibit 2.
193. The scope of the public highway right-of-way
accepted and perfected for the Skutumpah road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein).
194. The entire Skutumpah road (including the specific segments claimed herein) was officially designated
as a Kane County highway on Kane County’s General
Highway map as early as 1950.
195. Kane County’s designation of the Skutumpah
road as a county road as early as 1950 confirmed that
this road was accepted “as [a] county road[] . . . un-

191a
der the jurisdiction and control of the county commissioners” of Kane County. Utah Code Ann. § 27-12-22
(1963).
196. Kane County designated and accepted the Skutumpah road as a county road and the R.S. 2477 rightof-way no later than 1950, and thereafter continued to
construct, maintain and improve the Skutumpah road
using public funds pursuant to the governmental authority of the Kane County Commission.
197. From at least the 1950’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Skutumpah road and installed culverts, water bars, and cattle guards on it using public funds.
From at least the 1950’s and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road several times each year and regularly repair
sections of the road that become worn, potholed, and
washboarded. Some sections of the Skutumpah road
are prone to washouts that require regular repairs.
198. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this road to ensure that
its construction levels met the requirements of State law
for continued appropriations to maintain this road as a
county road (General Highways) conducive to regular
travel by two-wheel drive vehicles.
199. Kane County’s designation of the Skutumpah
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1950
constituted formal acceptance of the congressional grant

192a
of an R.S. 2477 right-of-way for this public highway pursuant to State law codified in Utah Code Ann. § 27-12-22
(1963).
200. In 1977, the United States Bureau of Land
Management and Kane County signed a memorandum
confirming that county roads, including the Skutumpah
road, included a right-of-way width of 66 feet.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

201. The Skutumpah road has long served as a public highway providing access across public lands and to
land conveyed into private ownership.
202. Witnesses with personal knowledge of the history of the Skutumpah road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least 1942 consisting of
general public travel for purposes of general travel, accessing private land, mining and mineral exploration,
hunting, livestock operations, wood gathering, camping,
and recreation continuing through 1976 and to the present.
203. Witnesses with personal knowledge of the history of the Skutumpah road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of car, jeeps and other four
wheel drive vehicles, ATV’s, team & wagon, sheep wagon,
horse back, bicycles, cattle trucks, motor homes, maintenance vehicles, and road graders.
204. Currently known reputation in the community
is that the Skutumpah road has been open for all to come
and go as they pleased since at least as early as the late
1800’s and continuing through the present.

193a
205. The Skutumpah road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
206. The Skutumpah road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
207. Public motor vehicle use of the Skutumpah road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of an R.S. 2477 public highway right-of-way
for the Skutumpah road.
208. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Skutumpah road described herein.
FOURTH CAUSE OF ACTION — QUIET TITLE
SAND DUNE ROAD

209. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of Sand Dune Road R.S. 2477 Right-of-Way

210. The Sand Dune road is designated as Kane
County road number K1000. See Exhibit 3.
211. The Sand Dune road K1000 commences at the
southern border of the State of Utah near the SWNW of
section 9, Township 44 South, Range 9, S.L.M., and proceeds in a northeasterly direction, approximately 19.96
miles, to where it ends upon intersecting with Utah

194a
State Highway 89 in the NWSE of section 5, Township
42 South, Range 7 West, S.L.M. See Attachment 1 to
Exhibit 3.
212. The specific right-of-way for the Sand Dune
road claimed herein includes ten (10) separate segments
on public lands, see Attachment 4 of Exhibit 3, specifically described therein, and as follows:
a.

Segment 1 of the Sand Dune road is approximately 2.41 miles;

b.

Segment 3 of the Sand Dune road is approximately .15 miles;

c.

Segment 5 of the Sand Dune road is approximately .99 miles;

d.

Segment 7 of the Sand Dune road is approximately .81 miles;

e.

Segment 9 of the Sand Dune road is approximately .04 miles;

f.

Segment 11 of the Sand Dune road is approximately .06 miles;

g.

Segment 13 of the Sand Dune road is approximately 2.57 miles;

h.

Segment 15 of the Sand Dune road is approximately 6.33 miles;

i.

Segment 16 of the Sand Dune road is approximately .19 miles; and

j.

Segment 17 of the Sand Dune road is approximately .29 miles.

213. The right-of-way for the Sand Dune road claimed
herein on public lands includes that which is reasonable

195a
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Sand Dune Road R.S. 2477 Right-ofWay

214. The specific length, course and location of Kane
County’s Sand Dune road has long appeared on USGS
maps.
215. The northernmost portions of the Sand Dune
road has appeared on a USGS Kanab, Utah 15 minute
topographic map since at least 1957. A copy of this
map is attached as Exhibit 18 and incorporated herein.
In addition, the center portion of the Sand Dune road
has also appeared on USGS Yellowjacket Canyon, UtahAriz. 7.5 minute quadrangle map since at least 1985. A
copy of this map is attached as Exhibit 19 and incorporated herein. The southernmost section of the Sand
Dune road has appeared on USGS Elephant Butte, Utah
7.5 quadrangle map since at least 1980. A copy of this
map is attached as Exhibit 20 and incorporated herein.
These USGS maps include Kane County’s former road
numbering designation for the Sand Dune Road, which
is #740.
216. The Sand Dune road has appeared on a Kane
County General Highway map as early as 1950 as a
county highway.
217. Pre-1976 aerial photography confirms the historical existence of the Sand Dune road as located on the
land and substantially following its historical course.
More recent aerial photography continues to show this
road as it has historically existed.

196a
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

218. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Sand Dune road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
219. The public highway right-of-way accepted and
perfected for the Sand Dune road includes the road as
claimed herein. See Exhibit 3.
220. The scope of the public highway right-of-way
accepted and perfected for the Sand Dune road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
minimum right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
221. The entire Sand Dune road was officially designated as a Kane County highway on Kane County’s General Highway map as early as 1950.
222. Kane County’s designation of the Sand Dune
road as a county road as early as 1950 confirmed that
this road was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of Kane County. Utah Code Ann. § 27-12-22
(1963).
223. Kane County designated and accepted the Sand
Dune road as a county road and its R.S. 2477 right-ofway no later than 1950, and thereafter continued to construct, maintain and improve the Sand Dune road using
public funds pursuant to the governmental authority of
the Kane County Commission.

197a
224. From at least the 1950’s and prior to 1976, Kane
County road personnel constructed, maintained, and improved the Sand Dune road and installed culverts, water
bars, and cattle guards on it using public funds. From
at least the 1950’s, Kane County road crews conducted
routine maintenance of this road generally twice a year
and regularly repaired sections of the road. In the
1960’s, Kane County paved the northern half of the Sand
Dune road, and later paved the entire length of this
road. The Sand Dune road continues to serve as a high
speed Kane County public highway.
225. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this road to ensure that
its construction levels met the requirements of State law
for continued appropriations to maintain this road as a
county road (General Highways) conducive to regular
travel by two-wheel drive vehicles.
226. Kane County’s designation of the Sand Dune
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1950
constituted formal acceptance of the congressional grant
of an R.S. 2477 right-of-way for this public highway pursuant to State law codified in Utah Code Ann. § 27-12-22
(1963).
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

227. The Sand Dune road has long served as a public
highway providing access across public lands, to other
Kane County roads, to the State of Arizona, and to land
conveyed into private ownership.

198a
228. Witnesses with personal knowledge of the history of the Sand Dune road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back as early as the early 1950’s consisting of general public travel and for purposes of mining and mineral exploration, hunting, livestock operations, wood gathering, post cutting, camping, tourism,
movie production and recreation continuing through
1976 and to the present.
229. Witnesses with personal knowledge of the history of the Sand Dune road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of jeeps, ATV’s, automobiles, trucks, cattle trucks, semi-trucks, maintenance
vehicles, commercial vehicles, motorcycles, road maintenance vehicles, sheep wagons, horse and cattle, and
drilling rigs.
230. Currently known reputation in the community
is that the Sand Dune road has been open for all to come
and go as they pleased since at least as early as the late
1800’s and continuing through the present.
231. The Sand Dune road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
232. The Sand Dune road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.

199a
233. Public motor vehicle use of the Sand Dune road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of R.S. 2477 public highway rights-of-way for
the Sand Dune road.
234. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Sand Dune road described herein.
FIFTH CAUSE OF ACTION — QUIET TITLE
HANCOCK ROAD

235. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of Hancock Road R.S. 2477 Right-of-Way

236. The Hancock road is designated as Kane County
road number K1100. See Exhibit 4.
237. The Hancock road K1100 commences where it
intersects the Sand Dune road in the SENE of section
14, Township 43 South, Range 8 West, S.L.M., and proceeds in a northeasterly direction, approximately 9.43
miles, to where it ends upon intersecting with Utah
State Highway 89 in the SENW of section 19, Township
42 South, Range 6 West, S.L.M. See Attachments 1
and 3 of Exhibit 4.
238. The specific right-of-way for the Hancock road
on public lands claimed herein is fully described in Attachment 4 of Exhibit 4, as well as Appendix A to Attachment 4.
239. The right-of-way for the Hancock road claimed
herein on public lands includes that which is reasonable

200a
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Hancock Road R.S. 2477 Right-ofWay

240. The specific length, course and location of Kane
County’s Hancock road has long appeared on USGS
maps.
241. The northernmost portions of the Hancock road
has [sic] appeared on a USGS Kanab, Utah 15 minute
topographic map since at least 1957. See Exhibit 18. In
addition, the southern portion of the Hancock road has
also appeared on USGS Yellowjacket Canyon, UtahAriz. 7.5 minute quadrangle map since at least 1985.
See Exhibit 19. These attached maps include Kane
County’s former road numbering designation for the
Hancock road, which is #788.
242. All but the most southern portion of the Hancock road, where it intersects the Sand Dune road, has
appeared on a Kane County General Highway map as
early as 1950 as a county highway.
243. The entire Hancock road has appeared on a
Kane County General Highway map as early as 1965 as
a county highway.
244. Pre-1976 aerial photography confirms the historical existence of the Hancock road as located on the
land and following its historical course. More recent
aerial photography continues to show this road as it has
historically existed.

201a
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
Prior to October 21, 1976.

245. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Hancock road on unreserved public lands as set forth herein. This grant of
a right-of-way includes access to the road.
246. The public highway right-of-way accepted and
perfected for the Hancock road includes the road as
claimed herein. See Exhibit 4.
247. The scope of the public highway right-of-way
accepted and perfected for the Hancock road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
minimum right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
248. The entire Hancock road was officially designated as a Kane County highway on Kane County’s General Highway map as early as 1965.
249. Kane County’s designation of the Hancock road
as a county road as early as 1965 confirmed that this
road was accepted “as [a] county road[] . . . under
the jurisdiction and control of the county commissioners” of Kane County. Utah Code Ann. § 27-12-22
(1963).
250. Kane County designated and accepted the Hancock road as a county road crossing an R.S. 2477 rightof-way no later than 1965, and thereafter continued to
construct, maintain and improve the Hancock road using public funds pursuant to the governmental authority
of the Kane County Commission.

202a
251. From at least the mid-1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the Hancock road using public funds.
From at least the 1960’s and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road generally twice a year and regularly repaired
sections of the road that wore down or became damaged.
In the 1990’s, Kane County paved the entire length of
the Hancock road.
252. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this road to ensure that
its construction levels met the requirements of State law
for continued appropriations to maintain this road as a
county road (General Highways) conducive to regular
travel by two-wheel drive vehicles.
253. Kane County’s designation of the Hancock road
as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1965 constituted formal acceptance of the congressional grant of
an R.S. 2477 right-of-way for this public highway pursuant to State law codified in Utah Code Ann. § 27-12-22
(1963).
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
By Public Use Prior to 1976.

254. The Hancock road has long served as a public
highway providing access across public lands, to other
Kane County roads, and to private property and the
State of Arizona.
255. Witnesses with personal knowledge of the history of the Hancock road confirm public use on a continuous basis for more than ten years prior to October 21,

203a
1976 and dating back as early as the early 1960’s consisting of general public travel for purposes of road
maintenance, hunting, livestock operations, rock hounding, sightseeing, camping, and recreation continuing
through 1976 and to the present. The road was also
traveled by government employees.
256. Witnesses with personal knowledge of the history of the Hancock road confirm public use of the road
on a continuous basis for more than ten years prior to
October 21, 1976 by means of automobiles, jeeps, ATV’s,
motor homes, maintenance vehicles, commercial trucks,
pickup trucks, cattle trucks, Kane County road equipment, i.e. trucks and graders.
257. Currently known reputation in the community
is that the Hancock road has been open for all to come
and go as they pleased since at least the early 1900’s and
continuing through the present.
258. The Hancock road was used on a continuous and
nonexclusive basis as a public thoroughfare for decades
prior to October 21, 1976.
259. The Hancock road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
260. Public motor vehicle use of the Hancock road as
a public thoroughfare traversing unreserved public lands
on a continuous basis for a period in excess of ten years
prior to October 21, 1976 confirms acceptance of the

204a
grant of an R.S. 2477 public highway right-of-way for
the Hancock road.
261. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Hancock road described herein.
SIXTH CAUSE OF ACTION — QUIET TITLE
SWALLOW PARK/PARK WASH ROAD

262. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of Swallow Park/Park Wash Road R.S. 2477
Right-of-Way

263. The Swallow Park/Park Wash road is designated
as Kane County road number K4360. See Exhibit 5A.
264. The Swallow Park/Park Wash road K4360 commences at the intersection of the Swallow Park/Park
Wash road and the North Swag road in the NE of section 9, Township 40 South, Range 3 West, S.L.M., and
proceeds in a northwesterly direction to where it ends
upon intersecting the Skutumpah road in the center of
section 19, Township 39 South, Range 3 West, S.L.M.
See Exhibit 5A.
265. The specific right-of-way for the Swallow Park/
Park Wash road claimed herein includes three separate
segments on public lands. These three segments of the
Swallow Park/Park Wash road are shown in red on the
centerline map of the Swallow Park/Park Wash and
North Swag road. See Exhibit 5A. (The Swallow Park/
Park Wash road is the northern section of the road,
RD130624, shown on Exhibit 5A.) The specific NAD83
mapping grade GPS data used to plot the centerline and
course of the three segments of the Swallow Park/Park

205a
Wash road is attached as Exhibit 5B and incorporated
herein. The general location of each segment is as follows:
a. The southern, and longest, segment of the Swallow Park/Park Wash road commences at the intersection of the Swallow Park/Park Wash road with the
North Swag road in the NE quarter section of section
9, Township 40 South, Range 3 West, S.L.M. This
segment of the Swallow Park/Park wash road ends in
the NE corner of section 32 and the NW corner of
Section 31, Township 39 South, Range 3 West, S.L.M.
b. The middle segment of the Swallow Park/Park
Wash road is approximately 400 feet in length and
commences and ends in the center of the NE section
of section 30, Township 39 South, Range 3 West,
S.L.M.
c. The final segment of the Swallow Park/Park
Wash road commences in the SWSE section 19,
Township 39 South, Range 3 West, S.L.M.
266. The right-of-way for the Swallow Park/Park
Wash road claimed herein on public lands includes that
which is reasonable and necessary to ensure safe travel
and passage of vehicles on a two lane road, and including
a width of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Swallow Park/Park Wash R.S. 2477
Right-of-Way

267. The specific length, course and location of Kane
County’s Swallow Park/Park Wash road has long appeared on USGS maps.

206a
268. The Swallow Park/Park Wash road has appeared on a USGS Deer Spring Point, Utah 7.5 minute
quadrangle map since at least 1966. See Exhibit 14.
This attached map includes Kane County’s former road
numbering designations for the Swallow Park/Park
Wash road, which is #236.
269. The northernmost section of the Swallow Park/
Park Wash road has appeared on a Kane County General Highway map dated 1965 as a county highway.
270. Pre-1976 aerial photography confirms the historical existence of the Swallow Park/Park Wash road
as located on the land and following its historical course.
More recent aerial photography continues to show this
road as it has historically existed.
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way Prior to October 21, 1976.

271. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Swallow Park/Park
Wash road on unreserved public lands as set forth
herein. This grant of a right-of-way includes access to
the road.
272. The public highway right-of-way accepted and
perfected for the Swallow Park/Park Wash road includes
the road as claimed herein. See Exhibit 5A.
273. The scope of the public highway right-of-way
accepted and perfected for the Swallow Park/Park Wash
road includes that which is reasonable and necessary to
ensure safe travel and passage of vehicles on a two lane
road according to applicable AASHTO standards. This
includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).

207a
274. The northernmost portion of the Swallow Park/
Park Wash road was officially designated as a Kane
County highway on Kane County’s General Highway
map as early as 1965.
275. Kane County’s designation of the northernmost
portion of the Swallow Park/Park Wash road as a county
road as early as 1965 confirmed that this segment of the
road was accepted “as [a] county road[] . . . under
the jurisdiction and control of the county commissioners” of Kane County. Utah Code Ann. § 27-12-22
(1963).
276. Kane County designated and accepted the
northernmost segment of the Swallow Park/Park Wash
road as a county road and its R.S. 2477 right-of-way no
later than 1965, and thereafter continued to construct,
maintain and improve that portion of the Swallow Park/
Park Wash road using public funds pursuant to the governmental authority of the Kane County Commission.
277. From at least the mid-1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the northernmost segment of the Swallow
Park/Park Wash road using public funds. From at
least the mid-1960’s and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road segment generally twice a year.
278. Upon information and belief, at various times
prior to 1976 and thereafter, Utah Department of Transportation personnel inspected this northernmost segment of road to ensure that its construction levels met
the requirements of State law for continued appropriations to maintain this road as a county road (General

208a
Highways) conducive to regular travel by two-wheel
drive vehicles.
279. Kane County’s designation of the Swallow
Park/Park Wash road as a Kane County road (General
Highways) and expenditure of public funds on this road
on or before 1965 constituted formal acceptance of the
congressional grant of R.S. 2477 rights-of-way for this
public highway pursuant to State law codified in Utah
Code Ann. § 27-12-22 (1963).
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way By Public Use Prior to 1976.

280. The entire length of the Swallow Park/Park
Wash road has long served as a public highway providing access across public lands and to land conveyed into
private ownership.
281. Witnesses with personal knowledge of the history of the Swallow Park/Park Wash road confirm public
use on a continuous basis for more than ten years prior
to October 21, 1976 and dating back as early as the late
1940’s consisting of general public travel for purposes of
road maintenance, hiking, hunting, to access private property, installation and maintenance of a water pipeline,
livestock operations, logging, wood gathering, trapping,
post cutting, sightseeing, camping, and recreation.
The road was also traveled by government employees.
282. Witnesses with personal knowledge of the history of the Swallow Park/Park Wash road confirm public
use of the road on a continuous basis for more than ten
years prior to October 21, 1976 by means of mountain
bikes, horse, truck, camping trailers, logging equip-

209a
ment, road maintenance equipment, recreational vehicles, automobiles, pickup trucks, cattle trucks, Kane
County road equipment, i.e. trucks and graders.
283. Currently known reputation in the community
is that the Swallow Park/Park Wash road was open for
all to come and go as they pleased since as early as the
1900’s. Upon information and belief, public travel on
this road continued or continues, despite this road being
designated as a road available for BLM administrative
purposes in the Plan in 2000.
284. The Swallow Park/Park Wash road was used on
a continuous and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
285. The Swallow Park/Park Wash road traverses a
valid and perfected R.S.2477 public highway right-ofway sufficient in scope for vehicle travel and includes
that which is reasonable and necessary to meet the exigencies of these types of travel according to safe engineering practices that protect the public, the road, and
prevent undue degradation of the adjacent land.
286. Public motor vehicle use of the Swallow Park/
Park Wash road as a public thoroughfare traversing unreserved public lands on a continuous basis for a period
in excess of ten years prior to October 21, 1976 confirms
acceptance of the grant of an R.S. 2477 public highway
right-of-way for the Swallow Park/Park Wash road.
287. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Swallow Park/Park Wash road described herein.

210a
SEVENTH CAUSE OF ACTION — QUIET TITLE
NORTH SWAG ROAD

288. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of North Swag Road R.S. 2477 Right-of-Way

289. The North Swag road is designated as Kane
County road number K4370.
290. The North Swag road K4370 commences at the
intersection of the Kitchen Corral road, Kane County
road number 4200, in the SWNW section 30, Township
40 South, Range 2 West, S.L.M., and proceeds in a
northwesterly direction to where it ends upon intersecting the Swallow Park/Park Wash road in the NE of section 10, Township 40 South, Range 3 West, S.L.M.
291. The specific right-of-way for the North Swag
road claimed herein is shown in red on the centerline
map of the Swallow Park/Park Wash and North Swag
road [sic]. See Exhibit 5A. (The North Swag road is
the southern section of the road, RD130626, shown on
Exhibit 5A.) The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the North
Swag road is attached hereto as Exhibit 5C.
292. The right-of-way for the North Swag road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).

211a
Maps Depicting the North Swag Road R.S. 2477 Right-ofWay

293. The specific length, course and location of Kane
County’s North Swag road has long appeared on USGS
maps.
294. The North Swag road has appeared on a USGS
Deer Range Point, Utah 7.5 minute quadrangle map
since at least 1966. A copy of this map is attached as Exhibit 21 and incorporated herein. This attached map
includes Kane County’s former road numbering designations for the North Swag road, which is #236.
295. Pre-1976 aerial photography confirms the historical existence of the North Swag road as located on
the land and following its historical course. More recent aerial photography continues to show this road as
it has historically existed.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

296. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the North Swag road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
297. The public highway right-of-way accepted and
perfected for the North Swag road includes the road as
claimed herein. See Exhibits 5A and 5C.
298. The scope of the public highway right-of-way
accepted and perfected for the North Swag road includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road

212a
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
299. From at least the late 1940’s and prior to 1976,
the North Swag road received periodic mechanical construction and maintenance by bulldozer and grader.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

300. The North Swag road has long served as a public highway providing access across public lands, to provide access to other Kane County roads, and to access
land conveyed into private ownership.
301. Witnesses with personal knowledge of the history of the North Swag road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back as early as the late 1940’s consisting of general public travel for purposes of road
maintenance, hiking, hunting, to access private property,
installation and maintenance of a water pipeline, livestock operations, logging, wood gathering, trapping,
post cutting, sightseeing, camping, and recreation continuing through 1976. The road was also traveled by government employees. Upon information and belief, several of these uses continue through the present even
though this road does no appear on Map 2 of the Plan.
302. Witnesses with personal knowledge of the history of the North Swag road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of mountain bikes, horse,
truck, camping trailers, logging equipment, road maintenance equipment, recreational vehicles, automobiles,
and pickup trucks.

213a
303. Currently known reputation in the community
is that the North Swag road has been open for all to
come and go as they pleased since as early as the 1900’s
and continuing through the present.
304. The North Swag road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
305. The North Swag road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
306. Public motor vehicle use of the North Swag
road as a public thoroughfare traversing unreserved
public lands on a continuous basis for a period in excess
of ten years prior to October 21, 1976 confirms acceptance of the grant of an R.S. 2477 public highway rightof-way for the North Swag road.
307. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the North Swag road described herein.
EIGHTH CAUSE OF ACTION — QUIET TITLE
NIPPLE LAKE ROAD

308. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of the Nipple Lake Road R.S. 2477 Right-ofWay

309. The Nipple Lake road is designated as Kane
County road number K4290. See Exhibit 6.

214a
310. The Nipple Lake road K4290 commences in the
NESW of section 30, Township 40 South, Range 2 West,
S.L.M., and proceeds in a northeasterly direction, approximately .4 miles, to where it ends at the intersection
of the North Swag road and Kane County’s Kitchen Corral road (K4200) in the SWNW section 30, Township 40
South, Range 2 West, S.L.M. See Attachment 1, 3 and
4 of Exhibit 6.
311. The specific right-of-way for the Nipple Lake
road on public lands claimed herein is fully described in
Appendix A to Attachment 4 of Exhibit 6.
312. The right-of-way for the Nipple Lake road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Nipple Lake Road R.S. 2477 Right-ofWay

313. The specific length, course and location of Kane
County’s Nipple Lake road has long appeared on USGS
maps.
314. The Nipple Lake roads has appeared on a USGS
Deer Range Point, Utah 7.5 minute quadrangle map
since at least 1966. See Exhibit 21. This attached map
includes Kane County’s former road numbering designation for the Nipple Lake road, which is #610.
315. The Nipple Lake road has also appeared on a
Kane County General Highway map dated 1975 as a
county highway.

215a
316. Pre-1976 aerial photography confirms the historical existence of the Nipple Lake road as located on
the land and following its historical course. More recent aerial photography continues to show this road as
it has historically existed.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

317. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Nipple Lake road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
318. The public highway right-of-way accepted and
perfected for the Nipple lake road includes the road as
claimed herein. See Exhibit 6.
319. The scope of the public highway right-of-way
accepted and perfected for the Nipple Lake road includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
320. The entire Nipple Lake road was officially designated as a Kane County highway on Kane County’s
General Highway map as early as 1975.
321. Kane County’s designation of the Nipple Lake
road as a county road as early as 1975 confirmed that
this road was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of Kane County. See e.g. Utah Code Ann.
§ 27-12-22 (1963).

216a
322. Kane County designated and accepted the Nipple Lake road as a county road and the R.S. 2477 rightof-way no later than 1975, and thereafter continued to
construct, maintain and improve the Nipple Lake road
using public funds pursuant to the governmental authority of the Kane County Commission.
323. From at least the late 1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the Nipple Lake road using public funds.
From at least 1975 and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road.
324. Upon information and belief, at various times
after 1976, Utah Department of Transportation personnel inspected this road to ensure that its construction
levels met the requirements of State law for continued
appropriations to maintain this road as a county roads
(General Highways) conducive to regular travel by twowheel drive vehicles.
325. Kane County’s designation of the Nipple Lake
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1975
constituted formal acceptance of the congressional
grant of R.S. 2477 rights-of-way for these public highways pursuant to State law. See e.g. Utah Code Ann.
§ 27-12-22 (1963).
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

326. The Nipple Lake road has long served as a public highway providing access across public lands and to
land conveyed into private ownership.

217a
327. Witnesses with personal knowledge of the history of the Nipple Lake road confirm public use on a
continuous basis for more than ten years prior to October 21, 1976 and dating back as early as the mid-1960’s
consisting of general public travel for purposes including road maintenance, hunting, livestock operations, and
recreation continuing through 1976 and to the present.
The road was also traveled by government employees.
328. Witnesses with personal knowledge of the history of the Nipple Lake road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of road maintenance equipment, four wheel drive vehicles, ATV’s, trucks, jeeps, recreational vehicles, automobiles, and pickup trucks.
329. Currently known reputation in the community
is that the Nipple Lake road has been open for all to
come and go as they pleased since as early as the early
1900’s and continuing through the present.
330. The Nipple Lake road was used on a continuous
and nonexclusive basis as a public thoroughfare for
more than ten years prior to October 21, 1976.
331. The Nipple Lake road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
332. Public motor vehicle use of the Nipple Lake road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of

218a
the grant of an R.S. 2477 public highway right-of-way
for the Nipple Lake road.
333. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
right-of-way for the Nipple Lake road described herein.
NINTH CAUSE OF ACTION — QUIET TITLE
CAVE LAKES ROADS

334. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 118.
Description of the Cave Lakes Roads R.S. 2477 Rights-ofWay

335. The Cave Lakes roads are designated as Kane
County road numbers K1070, K1075, K1087 and K1088.
See Exhibit 7A.
336. The Cave Lakes road K1070 commences at the
NWNE of section 2, Township 43 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the
SENE of section 34, Township 42 South, Range 7 West,
S.L.M.
337. The specific right-of-way for the Cave Lakes
K1070 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD130016). See
Exhibit 7A. The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the Cave
Lakes K1070 road is attached hereto as Exhibit 7B.
338. The Cave Lakes road K1075 commences at the
NESE of section 35, Township 42 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the

219a
SENE of section 34, Township 42 South, Range 7 West,
S.L.M.
339. The specific right-of-way for the Cave Lakes
K1075 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD130017). See
Exhibit 7A. The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the Cave
Lakes K1075 road is attached hereto as Exhibit 7C.
340. The Cave Lakes road K1087 commences in the
SESE of section 24, Township 42 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the
NESW of section 34, Township 42 South, Range 7 West,
S.L.M.
341. The specific right-of-way for the Cave Lakes
K1087 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD131143). See
Exhibit 7A. The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the Cave
Lakes K1087 road is attached hereto as Exhibit 7D.
342. The Cave Lakes road K1088 commences in the
SWNE of section 25, Township 42 South, Range 7, S.L.M.,
and proceeds in a northwesterly direction, to where it
ends upon intersecting the Cave Lakes road K1087 in
the SWSE of section 24, Township 42 South, Range 7
West, S.L.M.
343. The specific right-of-way for the Cave Lakes
road K1088 claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD131144). See
Exhibit 7A. The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the Cave
Lakes K1088 road is attached hereto as Exhibit 7E.

220a
344. The right-of-way for the four Cave Lakes road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Cave Lakes Road R.S. 2477 Right-ofWay

345. Portions of Kane County’s Cave Lakes roads
have long appeared on USGS maps.
346. The northernmost segment of Cave Lakes road
K1087 appears on the USGS Kanab, Utah-Ariz. 15 minute topographic map since at least 1957. See Exhibit
18. This attached map includes Kane County’s former
road numbering designations for the Cave Lakes road
K1087, which is #789.
347. The Cave Lakes roads K1070 and K1075 appear
on the USGS Kanab, Utah-Arizona 7.5 minute quadrangle since at least 1985. A copy of the USGS Kanab,
Utah-Ariz. 1985 map is attached as Exhibit 22 and incorporated herein. This attached map includes Kane
County’s former road numbering designations for the
Cave Lakes roads K1070, which is #991, and K1075,
which is #988.
348. Pre-1976 aerial photography confirms the historical existence of the Cave Lakes roads as located on
the land and following their historical courses. More
recent aerial photography continues to show these roads
as they have historically existed.

221a
Acceptance of the Cave Lakes Roads R.S. 2477 Rights-ofWay By Public Use Prior to 1976.

349. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the four Cave Lakes
roads on unreserved public lands as set forth herein.
This grant of a right-of-way includes access to the road.
350. The public highway rights-of-way accepted and
perfected for the Cave Lakes roads includes the four
roads as claimed herein. See Exhibits 7A-7E.
351. The scope of the public highway right-of-way
accepted and perfected for the Cave Lakes roads includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
352. The Cave Lakes roads have long served as public highways providing access across public lands and to
land conveyed into private ownership.
353. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1070 for more
than ten years prior to October 21, 1976, commencing at
least by 1960, consisting of road maintenance and general public travel for purposes of livestock operations,
wood gathering, cutting posts, hunting, sightseeing,
rock hounding, and recreation continuing through 1976
and to the present.
354. Witnesses with personal knowledge of the history of the Cave Lakes road K1070 confirm public use of
the road on a continuous basis for more than ten years

222a
prior to October 21, 1976 by means of horses, jeeps,
four-wheel drive vehicles, and pickup trucks.
355. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1075 for more
than ten years prior to October 21, 1976 and dating back
as early as the 1940’s, consisting of general public travel
for purposes hunting, livestock operations, accessing
water and private land, cutting posts, fence building,
wood gathering, sightseeing, and recreation continuing
through 1976 and to the present.
356. Witnesses with personal knowledge of the history of the Cave Lakes K1075 road confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of horses, sheep
wagon pulled by a pickup truck, jeeps, two-ton cattle
truck, bull dozer, tractor and pickup trucks.
357. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1087 for more
than ten years prior to October 21, 1976 and dating back
as early as 1960, consisting of general public travel for
purposes of hunting and recreation continuing through
1976 and to the present.
358. Witnesses with personal knowledge of the history of the Cave Lakes road K1087 confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of pickup trucks.
359. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1088 for more
than ten years prior to October 21, 1976, consisting of

223a
general public travel for purposes of recreation, ranching and wood cutting continuing through 1976 and to the
present.
360. Witnesses with personal knowledge of the history of the Cave Lakes road K1088 confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of pickup trucks.
361. The Cave Lake roads were used on a continuous
and nonexclusive basis as public thoroughfares for more
than ten years prior to October 21, 1976.
362. The Cave Lake roads cross valid and perfected
R.S.2477 public highway rights-of-way sufficient in
scope for vehicle travel and include that which is reasonable and necessary to meet the exigencies of these types
of travel according to safe engineering practices that
protect the public, the road, and prevent undue degradation of the adjacent land.
363. Public motor vehicle use of the Cave Lakes
roads as public thoroughfares traversing unreserved
public lands on a continuous basis for a period in excess
of ten years prior to October 21, 1976 confirms acceptance
of the grant of R.S. 2477 public highway rights-of-way
for the Cave Lakes roads.
364. Kane County is entitled to an order of this
Court quieting title to its R.S. 2477 public highway
rights-of-way for the Cave Lakes roads described herein.

224a
PRAYER FOR RELIEF

WHEREFORE, Kane County requests relief against
the United States of America as follows:
1. On its First Cause of Action—Mill Creek road, an
order quieting title in and to the R.S. 2477 public highway right-of-way for the Mill Creek road (K4400 Segment 1, K4400 Segment 2, K4410 Segment 3, and K4405
Segment 4, described in Exhibits 1A through 1E) as
pleaded herein;
2. On its Second Cause of Action—Bald Knoll road,
an order quieting title in and to the R.S. 2477 public
highway right-of-way for the Bald Knoll road (K3930A
Segment 1, K3935 Segment 2, K3935 Segment 3, and
K3935 Segment 4, described in Exhibits 1A, and 1F
through 1J) as pleaded herein;
3. On its Third Cause of Action—Skutumpah road,
an order quieting title in and to the R.S. 2477 public
highway right-of-way for the Skutumpah road (Segments 1, 3, 5, 7, 9, 11 & 13, described in Exhibit 2) as
pleaded herein;
4. On its Fourth Cause of Action—Sand Dune road,
an order quieting title in and to the R.S. 2477 public
highway right-of-way for the Sand Dune road (Segments 1, 3, 5, 7, 9, 11, 13, 15, 16, & 17, described in Exhibit 3) as pleaded herein;
5. On its Fifth Cause of Action—Hancock road, an
order quieting title in and to the R.S. 2477 public highway right-of-way for the Hancock road (described in Exhibit 4) as pleaded herein;
6. On its Sixth Cause of Action—Swallow Park/Park
Wash road, an order quieting title in and to the R.S. 2477

225a
public highway right-of-way for the Swallow Park/Park
Wash road (three segments described in Exhibits 5A
and 5B) as pleaded herein;
7. On its Seventh Cause of Action—North Swag
road, an order quieting title in and to the R.S. 2477 public highway right-of-way for the North Swag road (described in Exhibit 5A and 5C) as pleaded herein;
8. On its Eighth Cause of Action—Nipple Lake
road, an order quieting title in and to the R.S. 2477 public highway right-of-way for the Nipple Lake road (described in Exhibit 6) as pleaded herein; and
9. On its Ninth Cause of Action—Cave Lakes roads,
an order quieting title in and to the R.S. 2477 public
highway rights-of way for the four Cave Lakes roads
(described in Exhibits 7A through 7E) as pleaded
herein.
10. An order awarding costs, fees and attorneys fees
to the extent permitted by law; and
11. An order granting such further and other relief
as may be appropriate.
RESPECTFULLY SUBMITTED this 20th day of
Feb., 2009.
HOLME ROBERTS & OWEN LLP
/s/

SHAWN WELCH
SHAWN T. WELCH
HOLME ROBERTS & OWEN LLP
Kendra L. Shirey
Elizabeth B. Harris
Attorneys for Kane County, Utah

226a
Plaintiff ’s Address:

Kane County, Utah
c/o Kane County Commission
76 North Main Street
Kanab, Utah 84741

227a
INDEX TO EXHIBITS

Exhibit 1A — Mill Creek and Bald Knoll Road GPS
Map
Exhibit 1B — Mill Creek K4400 Segment 1
Exhibit 1C — Mill Creek K4400 Segment 2
Exhibit 1D — Mill Creek K4400 Segment 3
Exhibit 1E — Mill Creek K4400 Segment 4
Exhibit 1F — Bald Knoll Segment 1 aka Old Leach
Ranch
Exhibit 1G — Bald Knoll Segment 2
Exhibit 1H — Bald Knoll Segment 3
Exhibit 1J — Bald Knoll Segment 4
Exhibit 2 — Skutumpah Road
Exhibit 3 — Sand Dune Road
Exhibit 4 — Hancock Road
Exhibit 5A — Swallow Park/Park Wash and North
Swag Roads
Exhibit 5B — Swallow Park/Park Wash Road
Exhibit 5C — North Swag Road
Exhibit 6 — Nipple Lake Road
Exhibit 7A — Cave Lakes Roads Map
Exhibit 7B — Cave Lakes Road K1070
Exhibit 7C — Cave Lakes Road K1075
Exhibit 7D — Cave Lakes Road K1087
Exhibit 7E — Cave Lakes Road K1088
Exhibit 8 — Bald Knoll Initial Improvements
Exhibit 9 — Bald Knoll FLPMA Title V Right-ofway
Exhibit 10 — Mill Creek Initial Improvements
Exhibit 11 — K4400, K4405 and K4410 Detail Map
Exhibit 12 — USGS Skutumpah Creek Map dated
1966
Exhibit 13 — USGS Bald Knoll Map dated 1966

228a
Exhibit 14 — USGS Deer Spring Point Map dated
1966
Exhibit 15 — USGS Rainbow Point Map dated 1966
Exhibit 16 — USGS Bull Valley Gorge Map dated
1966
Exhibit 17 — USGS Cannonville Map dated 1966
Exhibit 18 — USGS Kanab Map dated 1957
Exhibit 19 — USGS Yellowjacket Canyon Map dated
1985
Exhibit 20 — USGS Elephant Butte Map dated 1980
Exhibit 21 — USGS Deer Range Point Map dated
1966
Exhibit 22 — USGS Kanab Map dated 1985

229a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, PLAINTIFF
v.
UNITED STATES OF AMERICA, DEFENDANT
Filed:

Nov. 13, 2009

ANSWER OF UNITED STATES TO PLAINTIFF’S
FIRST AMENDED COMPLAINT

Defendant, the United States of America, by and
through its legal counsel, hereby submits its Answer to
Plaintiff ’s First Amended Complaint (“Amended Complaint”), dated and filed February 20, 2008. The numbered paragraphs of the Answer correspond to the numbered paragraphs of the Amended Complaint.
JURISDICTION AND VENUE

1. The allegations of Paragraph 1 are a characterization of Plaintiff ’s action to which no responsive pleading is required.
2. The allegations of Paragraph 2 are legal conclusions based on 28 U.S.C. §§ 2409a and 1346(f ), which
speak for themselves and are the best evidence of their
contents and therefore no responsive pleading is re-

230a
quired. The allegations of Paragraph 2 are also a characterization of Plaintiff ’s action to which no responsive
pleading is required.
3. The United States admits that the lands which
are the subject of this lawsuit are located within Kane
County, State of Utah. The remaining allegations of
Paragraph 3 are legal conclusions based on 28 U.S.C.
§ 1391(e), which speaks for itself and is the best evidence
of its contents, and therefore no responsive pleading is
required.
4. The allegations in Paragraph 4 constitute a legal
conclusion to which no responsive pleading is required.
PARTIES

5. The allegations of Paragraph 5 are legal conclusions based on Utah Code Ann. § 17-50-302(2), which
speaks for itself and is the best evidence of its contents,
and therefore no responsive pleading is required.
6. The allegations of Paragraph 6 are legal conclusions based on Utah Code Ann. §§ 17-50-309, 72-3-103,
72-5-103, and 72-5-302, which speak for themselves and
are the best evidence of their contents and therefore no
responsive pleading is required.
7. The United States admits that it is the owner of
the federal public land underlying all or portions of the
alleged roads and right-of-ways that are the subject of
the Amended Complaint. The United States lacks sufficient information to form a belief as to the truth of the
allegation that its lands are subject to the roads and
rights-of-way claimed in this action, and therefore denies the same.

231a
BACKGROUND ALLEGATIONS

8. The allegations of Paragraph 8 refer to and
quote Revised Statute 2477 (hereinafter, “R.S. 2477”)
which speaks for itself and is the best evidence of its contents and therefore no responsive pleading is required.
9. The allegations of Paragraph 9 are legal conclusions to which no responsive pleading is required.
10. The allegations of Paragraph 10 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from S. Utah Wilderness Alliance v. Bureau
of Land Management, 425 F.3d 735 (10th Cir. 2005),
such decision speaks for itself.
11. The allegations of Paragraph 11 are legal conclusions to which no responsive pleading is required.
12. The allegations of Paragraph 12 are legal conclusions to which no responsive pleading is required.
13. The allegations of Paragraph 13 are legal conclusions to which no responsive pleading is required.
14. The allegations of Paragraph 14 are legal conclusions to which no responsive pleading is required.
15. The allegations of Paragraph 15 are legal conclusions to which no responsive pleading is required.
16. The allegations of Paragraph 16 are legal conclusions to which no responsive pleading is required.
17. The allegations of Paragraph 17 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to describe
the content of provisions of the Federal Land Policy and
Management Act (“FLPMA”), such provisions speak for

232a
themselves and are the best evidence of their contents
and therefore no responsive pleading is required.
18. The allegations of Paragraph 18 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to describe
the content of provisions of the FLPMA, such provisions
speak for themselves and are the best evidence of their
contents, and therefore no responsive pleading is required.
19. The allegations of Paragraph 19 are legal conclusions to which no responsive pleading is required.
20. The allegations of Paragraph 20 are overly broad
and without the context necessary to permit a specific
response.
21. The allegations of Paragraph 21 are overly broad
and without the context necessary to permit a specific
response. The United States admits that the United
States Department of Interior has issued regulations in
the past which address the application of state law to the
granting of a right of way under R.S. 2477.
22. The United States admits that the Department
of the Interior has adopted regulations and policies regarding R.S. 2477. Further, the references to “[a]cross
the years” and “numerous regulations and policies” are
too vague and general to permit a specific response.
The remaining allegations of Paragraph 22 state legal
conclusions to which no responsive pleading is required
and are overly broad and without the context necessary
to permit a specific response.
23. Paragraph 23 purportedly quotes a 1939 Department of the Interior regulation (43 C.F.R. § 244.55)
(1939), which speaks for itself and is the best evidence

233a
of its contents and therefore no responsive pleading is
required.
24. Paragraph 24 purportedly quotes a 1963 Department of the Interior regulation (43 C.F.R. § 244.58)
(1963), which speaks for itself and is the best evidence
of its contents and therefore no responsive pleading is
required.
25. Paragraph 25 purportedly quotes from two 1974
Department of the Interior regulations (43 C.F.R.
§§ 2822.1-1 and 2822.2-1) (1974), which speak for themselves and are the best evidence of their contents and
therefore no responsive pleading is required.
26. Paragraph 26 purportedly quotes from a 1986
version of the BLM Manual (Rel 2-229), which speaks
for itself and is the best evidence of its contents and
therefore no responsive pleading is required.
27. The allegations of Paragraph 27 are legal conclusions to which no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that,
among other things, the scope of the claimed rights of
way, if established, is that which is reasonable and necessary to ensure safe travel and passage of vehicles on a
two lane road, including a 66 foot right of way (33 feet
from the centerline descriptions provided in the Amended
Complaint), and therefore denies the same.
28. The allegations of Paragraph 28 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States denies that the scope of an established right of
way necessarily includes that which is reasonable and

234a
necessary to accommodate two lanes of travel according
to safe highway engineering practice.
29. The allegations of Paragraph 29 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 29 and therefore denies the same.
30. The allegations of Paragraph 30 are legal conclusions based on Utah Code Ann. §§ 72-2-103 (current) and
27-12-22 (1963), which speak for themselves and are the
best evidence of their contents and therefore no responsive pleading is required. The United States further
denies that the cited statutory provisions by their terms
govern the acceptance of a public right of way grant under R.S. 2477.
31. The United States lacks sufficient knowledge regarding whether Kane County designated the so-called
Mill Creek, Bald Knoll, Skutumpah, Sand Dune, Hancock, Nipple Lake, and portions of the Swallow Park/
Park Wash routes or roads as public highways and expended public funds to construct and maintain these
roads prior to October 21, 1976, and therefore denies the
same. The remaining allegations of Paragraph 31 consist of legal conclusions to which no responsive pleading
is required.
32. The allegations of Paragraph 32 are legal conclusions based on Utah Code Ann. § 72-5-104, which speaks
for itself and is the best evidence of its contents and
therefore no responsive pleading is required.
33. The allegations of Paragraph 33 are legal conclusions to which no responsive pleading is required. To

235a
the extent a responsive pleading is required, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 33 and therefore denies the same.
34. The allegations of Paragraph 34 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 34 and therefore denies the same.
35. The allegations of Paragraph 35 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 35 and therefore denies the same.
THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE, AND CAVE
LAKES ROADS

36. The United States admits that the so-called Mill
Creek and Bald Knoll roads, as described in the Amended
Complaint, are located in western Kane County, Utah.
37. The United States denies the first sentence in
Paragraph 37, and admits that the so-called Mill Creek
and Bald Knoll roads collectively cross private and public lands within the following townships: T40S, R4.5W,
SLM; T40S, R5W, SLM; T41S, R4.5W, S.L.M. The
United States admits that Exhibit 1A to the Amended
Complaint purports to show the course and location of
the so-called Mill Creek and Bald Knoll roads, but lacks

236a
sufficient information to form a belief as to whether Exhibit 1A precisely sets forth the course and location of
such roads and, therefore, denies the allegations of the
second sentence of Paragraph 37.
38. The United States admits the allegations in Paragraph 38.
39. The United States denies the allegations of the
first sentence of Paragraph 39 and admits that the Skutumpah Road crosses public and private lands occurring
variously within the following townships: T38S, R2W,
SLM; T38S, R3W, SLM; T39S, R3W, SLM; T39S, R4W,
SLM T40S, R4W, SLM; T40S, R4½W, SLM; T41S,
R4½W, SLM; T41S, R5W, SLM. The United States
admits that Attachment 1 of Exhibit 2 to the Amended
Complaint purports to show the course and location of
the Skutumpah road, but lacks sufficient information to
form a belief as to whether Attachment 1 of Exhibit 2
precisely sets forth the course and location of such road
and, therefore, denies the allegations of the second sentence of Paragraph 39.
40. The United States admits the allegations in Paragraph 40.
41. The United States denies the allegations of the
first sentence of Paragraph 41 and admits that the Sand
Dune road crosses private, Utah School and Institutional Trust Administration (“SITLA”), and public lands
occurring variously within T44S, R9W, SLM; T43S,
R9W, SLM; T43S, R8W, SLM; T43S, R7W, SLM; T42S,
R7W, SLM. The United States admits that Attachment 1 of Exhibit 3 to the Amended Complaint purports
to show the course and location of the Sand Dune road,
but lacks sufficient information to form a belief as to

237a
whether Attachment 1 of Exhibit 3 precisely sets forth
the course and location of such road and, therefore, denies the allegations of the second sentence of Paragraph
41.
42. The United States admits the allegations in Paragraph 42.
43. The United States denies the allegations in Paragraph 43, and admits that the Hancock road crosses
public land occurring within T43S, R8W, SLM; T43S,
R7W, SLM; T42S, R7W, SLM; T42S, R6W, SLM. The
United States admits that Attachment 1 of Exhibit 4 to
the Amended Complaint purports to show the course
and location of the Hancock road, but lacks sufficient information to form a belief as to whether Attachment 1 of
Exhibit 4 precisely sets forth the course and location of
such road and, therefore, denies the allegations of the
second sentence of Paragraph 43.
44. The United States admits that the so-called
Swallow Park/Park Wash, North Swag, and Nipple
Lake routes, as described in the Amended Complaint,
are located in western Kane County, Utah. The United
States denies that such routes constitute roads for some
or all of their course.
45. The United States denies the first sentence of
Paragraph 45 and admits that the so-called Swallow
Park/Park Wash route crosses private and public lands
within Township 39 and 40 South, Range 3 west, S.L.M.
The United States denies the second sentence and admits that the so-called North Swag route, as described
in the Amended Complaint, crosses public lands within
T40S, R3W, S.L.M., and that the so-called Nipple Lake
route, as described in the Amended Complaint, crosses

238a
public lands within T40S, R2W, S.L.M. The United
States admits that Exhibit 5A to the Amended Complaint purports to show the course and location of the socalled Swallow Park/Park Wash and North Swag routes,
but lacks sufficient information to form a belief as to
whether Exhibit 5A precisely sets forth the course and
location of such routes and therefore, denies the allegations of the third sentence of Paragraph 45. The United
States admits that Attachment 1 to Exhibit 6 to the
Amended Complaint purports to show the course and location of the so-called Nipple Lake route, but lacks sufficient information to form a belief as to whether Attachment 1 to Exhibit 6 precisely sets forth the course and
location of such route and, therefore denies the allegations of the fourth sentence of Paragraph 45.
46. The United States admits that the so-called four
Cave Lakes routes, as identified in the Amended Complaint, are located in southwestern Kane County, Utah.
47. The United States denies the first sentence of
Paragraph 47, and admits that the four so-called Cave
Lakes routes, as described in the Amended Complaint,
cross public land in T42S, R7W, S.L.M. The United
States admits that Exhibit 7A to the Amended Complaint purports to show the course and location of the
four so-called Cave Lakes routes, but lacks sufficient information to form a belief as to whether Exhibit 7A precisely sets forth the course and location of such roads
and, therefore, denies the allegations of the second sentence of Paragraph 47. With respect to the third sentence of Paragraph 47, the United States admits that
Exhibit 7A includes the following numbers: RD130016,
RD130017, RD131143, and RD 1311444 (not RD121144
as alleged), and lacks sufficient information to form a

239a
belief as to the truth of the remaining allegations of the
sentence and therefore denies the same.
48. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 48 and therefore denies the same.
49. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 49 and therefore denies the same.
50. The United States lacks sufficient information to
form a belief as to the truth of the allegations in the first
sentence of Paragraph 50 and therefore denies the
same. The second sentence of Paragraph 50 constitutes a characterization of Plaintiff ’s claims, and therefore no responsive pleading is required.
THE MILL CREEK ROAD AND BALD KNOLL ROADS

51. The United States admits that the Kane County
Commission sent a letter dated June 16, 2006 to the
Kanab Field Office, United States Bureau of Land Management (BLM), which letter speaks for itself, is the
best evidence of its contents, and requires no further responsive pleading. The United States denies the remaining allegations of Paragraph 51.
52. The United States admits that the Kane County
Commission sent a letter dated June 16, 2006 to the
Kanab Field Office, BLM, indicating that it proposed to
make certain improvements to the Bald Knoll road.
The letter speaks for itself, is the best evidence of its
contents, and requires no further responsive pleading.
The United States denies the remaining allegations of
Paragraph 52.

240a
53. The allegations of Paragraph 53 are legal conclusions to which no responsive pleading is required.
54. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 54 and therefore denies the same.
55. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 55 and therefore denies the same.
56. The allegations of the first sentence of Paragraph 56 are legal conclusions to which no responsive
pleading is required. To the extent a responsive averment is required, the United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same. The United
States lacks sufficient information to form a belief as to
the truth of the allegations of the second sentence of
Paragraph 56 and therefore denies the same. With respect to the allegations of the third sentence of Paragraph 56, the United States admits that a map providing
indications of various road improvements is attached as
Exhibit 8 to the Amended Complaint. The United States
lacks sufficient information to form a belief as to whether such proposed improvements conform to AASHTO
standards, and therefore denies the same.
57. The allegations of Paragraph 57 concerning “the
topography of the land near the intersection” are too
vague and general and do not provide the context necessary to permit a specific response. To the extent a responsive pleading is required, the United States lacks
sufficient information to form a belief as to the truth
of the allegations and therefore denies the same. The

241a
United States lacks sufficient information to form a belief as to the truth of the remaining allegations of Paragraph 57 and therefore denies the same.
58. The allegations of Paragraph 58 are too vague
and general and do not provide the context necessary to
permit a specific response.
59. The United States admits the allegations in Paragraph 59.
60. The United States admits that it issued Rightof-Way Grant, Serial Number UTU-82147 (“the Grant”),
granting a FLPMA Title V right-of-way, on or about
March 6, 2007 and a copy of such grant is attached to the
Amended Complaint as Exhibit 9.
61. The United States admits the allegations in Paragraph 61, and further states that the Grant speaks for
itself.
62. The allegations of Paragraph 62 are too vague
and general and do not provide the context necessary to
permit a specific response. Further, the United States
avers that the Grant speaks for itself, and therefore denies any allegations that are inconsistent therewith, including any allegation that the Grant acted to “adopt” or
“incorporate” any of Kane County’s proposed improvements for that portion of the Bald Knoll road not covered by the Grant.
63. The United States admits that right-of-way
UTU-45699 was authorized and issued to the Kane County
Road Department on August 15, 1980. The United
States lacks sufficient information to form a belief as to
the truth of the remaining allegations of Paragraph 63
and therefore denies the same.

242a
64. The allegations of the first sentence of Paragraph 64 are legal conclusions to which no responsive
pleading is required. To the extent a responsive averment is required, the United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same. The United
States lacks sufficient information to form a belief as to
the truth of the allegations of the second sentence of
Paragraph 64 and therefore denies the same. With respect to the allegations of the third sentence of Paragraph 64, the United States admits that a map providing
indications of various proposed improvements is attached as Exhibit 10 to the Amended Complaint. The
United States lacks sufficient information to form a belief as to whether such improvements conform to
AASHTO standards and therefore denies the same.
65. The United States lacks sufficient information to
form a belief as to the truth of the allegations of the first
sentence of Paragraph 65 and the allegations concerning
Plaintiff ’s intent in the third sentence of Paragraph 65
and therefore denies the same. The United States admits that an engineer report is attached to the Grant attached to the Amended Complaint as Exhibit 9. Further, the United States avers that the Grant and engineer report speak for themselves, and therefore denies
any allegations that are inconsistent therewith, including any allegation that the Grant acted to “adopt” or “incorporate” any of Kane County’s proposed improvements for that portion of the Bald Knoll road not covered by the Grant or that the Grant adopted the applicable AASHTO standards for the rerouted portion of
the Bald Knoll road.

243a
66. The United States admits that the Kane County
Commission sent a letter dated June 16, 2006 to the
Kanab Field Office, BLM, requesting that BLM management conduct an initial determination of whether
proposed improvements to the Bald Knoll road were
within the scope of the County’s asserted right of way.
The United States avers that the letter speaks for itself,
and is the best evidence of its contents. The United
States denies the remaining allegations of Paragraph
66.
67. The United States admits that in July 2007, the
BLM Utah State Office made a preliminary nonbinding
determination, for its management purposes only, that
the Bald Knoll Road (to the extent identified and referred to in the determination) was a R.S. 2477 right-ofway, which determination it subsequently published.
The preliminary determination speaks for itself. The
United States denies the remaining allegations of Paragraph 67.
68. The United States denies the allegations in Paragraph 68 and admits that BLM has not issued a final
nonbinding determination as to whether the Bald Knoll
road is a R.S. 2477 right of way.
69. The United States denies the allegations of Paragraph 69.
70. The United States admits that Kane County informed BLM that it desired to make improvements on
Bald Knoll road by letter dated June 16, 2006. The
United States admits that Kane County indicated to
BLM by letter dated August 9, 2006, that it desired to
make improvements on the Mill Creek road. The United
States lacks sufficient knowledge regarding whether

244a
Plaintiff ’s proposed improvements were “needed,” and
therefore denies the same.
71. The United States admits that Kane County requested that BLM make an initial determination as to
whether proposed improvements were within the scope
of its asserted R.S. 2477 right of way on Bald Knoll road
by letter dated June 16, 2006. The United States admits that Kane County indicated to BLM by letter dated
August 9, 2006, that it desired to make improvements on
the Mill Creek road, but denies that the letter expressly
requested that BLM make an initial determination regarding the proposed improvements. The allegation
that Kane County holds “congressionally granted public
highway rights-of-way” is a legal conclusion to which no
responsive pleading is required.
72. The United States denies the allegations in Paragraph 72, and admits that BLM has not, to this point,
identified to Kane County any concerns that the proposed improvements may have on the adjacent public
lands.
73. The allegations of Paragraph 73 are legal conclusions to which no responsive pleading is required.
74. The allegations of Paragraph 74 are legal conclusions to which no responsive pleading is required.
75. The allegations of Paragraph 75 are legal conclusions to which no responsive pleading is required.
76. The allegations of Paragraph 76 are legal conclusions to which no responsive pleading is required. To
the extent a responsive averment is required, the United
States denies the allegations in Paragraph 76.

245a
77. The United States admits the allegations in the
first sentence in Paragraph 77. The allegations of the
second and third sentences of Paragraph 77 purport to
characterize the legal effect of the RMP, which speaks
for itself and is the best evidence of its contents, and
therefore no responsive pleading is required. The allegations of the fourth sentence in Paragraph 77 constitute legal conclusions to which no responsive pleading is
required. To the extent a responsive averment is required, the United States denies the allegations of the
fourth sentence of Paragraph 77.
78. The allegations of the first two sentences in Paragraph 78 characterize and purport to quote from a
BLM memorandum dated December 20, 2006, which
speaks for itself, and is the best evidence of its contents,
and to which no responsive pleading is required.
Nonetheless, the United States specifically denies the
allegations of the first and second sentences that purport to characterize the Utah State office’s intent and
directions to its land use planners. The allegations of
the last sentence of Paragraph 78 are too vague and general and do not provide the context necessary to permit
a specific response. To the extent a response is required,
the allegations in the last sentence of Paragraph 78 are
denied.
79. The allegations in Paragraph 79 are legal conclusions to which no responsive pleading is required. To
the extent a response is required, the United States denies the allegations in Paragraph 79.
THE SKUTUMPAH ROAD

80. The United States denies the allegations in the
first sentence of Paragraph 80 and admits that the BLM

246a
completed an administrative determination in January
of 2000 in which it determined that the Skutumpah road
satisfied the applicable requirements for an R.S. 2477
right-of-way. The remaining allegations of Paragraph
78 refer to and are based on S. Utah Wilderness Alliance
v. Bureau of Land Management, 425 F.3d 735 (10th Cir.
2005), which speaks for itself and is the best evidence of
its contents and therefore no responsive pleading is required.
81. With regard to the allegations of Paragraph 81,
the United States admits that the United States District
Court for the District of Utah issued a decision in The
Wilderness Society v. Kane County, Case No. 2:05-CV854-TC, 560 F. Supp. 2d 1147 (D. Utah) on May 16, 2008,
which was affirmed in The Wilderness Society v. Kane
County, 581 F.3d 1198 (10th Cir. 2009). The United
States further states that the district court decision
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required.
82. The allegations of Paragraph 82 refer to, quote
from, and interpret the May 16, 2008 decision in The
Wilderness Society v. Kane County, Case No. 2:05-CV854-TC, 560 F. Supp. 2d 1147 (D. Utah), which speaks
for itself and is the best evidence of its contents and
therefore no responsive pleading is required. However, the United States expressly denies the accuracy of
Plaintiff ’s characterization of the holding set forth in the
decision.
83. The United States admits the allegations in Paragraph 83.
84. The allegations in Paragraph 84 purport to
quote from and characterize the legal effect of the Grand

247a
Staircase-Escalante National Monument Plan (MMP),
which speaks for itself and is the best evidence of its contents, and therefore no further responsive pleading is
required.
85. The United States admits the allegations of the
first sentence in Paragraph 85. The allegations in the
second sentence of Paragraph 85 purport to characterize the legal effect of the RMP, which speaks for itself
and is the best evidence of its contents, and therefore no
responsive pleading is required. The United States admits the allegations of the third sentence of Paragraph
85. The allegations of the fourth sentence of Paragraph 85 are unduly speculative and require no responsive pleading. To the extent a response is required, the
United States denies the allegations of the fourth sentence.
86. The allegations in the first two sentences in Paragraph 86 characterize and purport to quote from a BLM
memorandum dated December 20, 2006, which speaks for
itself, and is the best evidence of its contents. The
United States specifically denies the allegations of the
first and second sentences that purport to characterize
the Utah State office’s intent and directions to its land
use planners. The allegations of the last sentence of
Paragraph 86 are too vague and general and do not provide the context necessary to permit a specific response.
To the extent a response is required, the allegations in
the last sentence of Paragraph 86 are denied.
87. Given the lack of detail in Paragraph 87, the
United States lacks sufficient information to form a belief as to the truth of the allegations of Paragraph 87 and
therefore denies the same.

248a
88. The allegations in Paragraph 88 are legal conclusions to which no responsive pleading is required. To
the extent a response is required, the United States denies the allegations in Paragraph 88.
89. The allegations of Paragraph 89, including the
vague and general descriptions of the Skutumpah road
as being “heavily traveled” and a “higher speed” road
requiring “significant routine maintenance” are overly
broad and without the context necessary to permit a
specific response. To the extent a responsive pleading
is required, the United States lacks sufficient information to form a belief as to the truth of the allegations
and therefore denies the same, except that the United
States admits that the Skutumpah road receives vehicle
use and requires periodic maintenance.
90. The United States denies that the Department
of the Interior has recently asserted that Kane County
has no R.S. 2477 right-of-way, including for the Skutumpah road. The remaining allegations in Paragraph
90 are legal conclusions to which no responsive pleading
is required. To the extent a response is required, the
United States denies the allegations of Paragraph 90.
THE SAND DUNE AND HANCOCK ROADS

91. The United States admits the allegations of Paragraph 91.
92. The allegations of Paragraph 92 are legal conclusions to which no responsive pleading is required.
93. The United States admits the allegations of the
first sentence in Paragraph 93. The allegations in the
second and fifth sentence of Paragraph 93 purport to
characterize the legal effect of the RMP, which speaks
for itself and is the best evidence of its contents, and

249a
therefore no responsive pleading is required. The
United States denies the third and fourth sentences of
Paragraph 93, and admits that the Hancock and Sand
Dune roads are not shown on the RMP’s Map 10.
94. The allegations in the first two sentences in Paragraph 94 characterize and purport to quote from a
BLM memorandum dated December 20, 2006, which
speaks for itself, and is the best evidence of its contents.
The United States specifically denies the allegations of
the first and second sentences that purport to characterize the Utah State office’s intent and directions to its
land use planners. The allegations of the last sentence
of Paragraph 94 are too vague and general and do not
provide the context necessary to permit a specific response. To the extent a response is required, the allegations in the last sentence of Paragraph 94 are denied.
95. The allegations of Paragraph 95 are unduly speculative and require no responsive pleading. To the extent a response is required, the United States denies the
allegations.
96. The allegations of Paragraph 96 are legal conclusions to which no responsive pleading is required. To
the extent a response is required, the United States denies the allegations of Paragraph 96.
97. The United States denies the allegations in Paragraph 97.
98. The United States denies that the Department
of the interior has recently asserted that Kane County
has no R.S. 2477 right-of-way, including for the Sand
Dune and Hancock roads. The remaining allegations
in Paragraph 98 are legal conclusions to which no responsive pleading is required. To the extent a response

250a
is required, the United States denies the remaining allegations of Paragraph 98.
THE SWALLOW PARK/PARK WASH, NORTH SWAG,
AND NIPPLE LAKE ROADS

99. With regard to the allegations in Paragraph 99,
the United States admits that the so-called Swallow
Park/Park Wash route, as described by the Amended
Complaint, connects with the Skutumpah road, and that
the so-called North Swag route, as described by the
Amended Complaint, connects with the so-called Swallow Park/Park Wash route and a road identified as
K4200 (Kitchen Corral Road) which in turn connects to
State Highway 89. The United States lacks sufficient
information to form a belief regarding any “access”
which is provided by the route, and therefore denies
such allegation.
100. With regard to the allegations of Paragraph
100, the United States admits that the so-called Nipple
Lake route, as described by the Amended Complaint,
connects to a road identified as K4200 (Kitchen Corral
Road) on the north and terminates on private land
within section 30, T40S, R2W, SLM, on which a ranch is
located. The United States lacks sufficient information
sufficient to form a belief regarding any “access” to the
ranch which is provided by the route, and therefore denies such allegation.
101. The United States admits that Kane County
records identify the so-called Nipple Lake route and a
portion of the so-called Swallow Park/Park Wash routes
as Kane County Class B roads. The allegations that the
routes “received routine maintenance and have improved
travel surfaces” are vague, and the United States lacks

251a
sufficient information sufficient to form a belief as to the
truth of the remaining allegations of Paragraph 101 and
therefore denies the same.
102. The United States admits that Kane County
records identify portions of the so-called Swallow Park/
Park Wash routes and the so-called North Swag route
as Kane County Class D roads. The remaining allegations relating to “unimproved traveling surfaces” are
vague, and the United States lacks sufficient information to form a belief as to the truth of the remaining allegations of Paragraph 102 and therefore denies the
same.
103. The United States denies the allegations of the
first sentence of Paragraph 103, and admits the Nipple
Lake, Swallow Park/Park Wash, and North Swag routes,
as described by the Amended Complaint, lie with in
the Grand Staircase-Escalante National Monument
(“GSENM”). The United States admits the allegations
of the second sentence of Paragraph 103. The United
States generally admits the allegations of the third sentence, but further states that such allegations refer to
and are based on the MMP, which speaks for itself and
is the best evidence of its contents.
104. The allegations of Paragraph 104 purport to describe the content and effect of the MMP, which speaks
for itself and is the best evidence of its contents, and
therefore no further responsive pleading is required.
105. The United States generally admits the allegations of Paragraph 105, but further states that the allegations refer to and are based on the MMP, which
speaks for itself and is the best evidence of its contents.

252a
106. The allegations of Paragraph 106 are vague and
without context sufficient to allow for a response. The
United States admits that the above-referenced Map 2
does not depict portions of the so-called Swallow Park/
Park Wash route and does not depict the so-called North
Swag and Nipple Lake routes, all as described in the
Amended Complaint. The United States further states
that the MMP speaks for itself and is the best evidence
of its contents.
107. The allegations of Paragraph 107 refer to and
are based on the May 16, 2008 decision in The Wilderness Society v. Kane County, Case No. 2:05-CV-854-TC,
560 F. Supp. 2d 1147 (D. Utah), which speaks for itself
and is the best evidence of its contents and to which no
responsive pleading is required. Nonetheless, the United
States expressly denies the accuracy of Plaintiff ’s characterization of the decision.
108. The United States denies the allegations of Paragraph 108.
109. The United States denies that the Department
of the Interior has recently asserted, that Kane County
has no R.S. 2477 right-of-way, including for the Swallow
Park/Park Wash, North Swag, and Nipple Lake roads,
and further states that the MMP speaks for itself and is
the best evidence of its contents. The remaining allegations in Paragraph 109 are legal conclusions to which
no responsive pleading is required. To the extent a response is required, the United States denies the allegations of Paragraph 109.
THE CAVE LAKE ROADS

110. With regards to the allegations in Paragraph
110, the United States admits that certain of the so-

253a
called Cave Lakes routes, as described in the Amended
Complaint, connect with the Hancock road and terminate on private land. The United States otherwise lacks
sufficient information to form a belief as to the truth of
the allegations of Paragraph 110 and therefore denies
the same.
111. The United States denies the allegations in Paragraph 111 and admits that it issued Right-of-Way
Grants, Serial Numbers UTU-82998, UTU-82999, and
UTU-83004 (“Grants”) granting FLPMA Title V rightof-ways, on or about July 25, 2008 to Cave Lakes Canyon
LLC. The United States further states that the Grants
speak for themselves and are the best evidence of their
contents and to which no responsive pleading is required.
The allegation that such routes are Kane County’s roads
constitutes a legal conclusion to which no response is required.
112. The allegations of Paragraph 112 refer to and
are based on above-referenced Grants, which speak for
themselves and are the best evidence of their contents
and to which no responsive pleading is required. Nonetheless, the United States denies that the Grants expressly acknowledge that Kane County claims to own public highway rights-of-way for the roads they affect.
113. The United States denies the allegations of Paragraph 113.
114. The allegations in Paragraph 114 are legal conclusions to which no responsive pleading is required.
To the extent a response is required, the United States
denies the allegations of Paragraph 114.
115. The United States admits the allegations of the
first sentence in Paragraph 115. The allegations in the

254a
second and third sentences of Paragraph 115 purport to
characterize the legal effect of the RMP, which speaks
for itself and is the best evidence of its contents, and
therefore no responsive pleading is required. The allegations of the fourth sentence of Paragraph 115 constitute a legal conclusion to which no responsive pleading
is required. To the extent a response is required, the
United States denies the allegations of fourth sentence
of Paragraph 115.
116. The allegations in the first two sentences in Paragraph 116 characterize and purport to quote from a BLM
memorandum dated December 20, 2006, which speaks
for itself, and is the best evidence of its contents. The
United States specifically denies the allegations of the
first and second sentences that purport to characterize
the Utah State office’s intent and directions to its land
use planners. The allegations of the last sentence of Paragraph 94 [sic] are too vague and general and do not provide the context necessary to permit a specific response.
To the extent a response is required, the allegations in
the last sentence of Paragraph 94 [sic] are denied.
117. The United States denies the allegations of the
first sentence, and admits that the County sent a letter
dated December 16, 2008 to the Secretary of the Interior
and the managers of the BLM Kanab Field Office, the
Monument, and the Glen Canyon Recreation Area requesting a meeting to “coordinate mutual road maintenance and public safety responsibilities,” which letter
speaks for itself and is the best evidence of its content,
and therefore no further response is required. The
United States denies the allegations of the second sentence of Paragraph 117, and admits that no meeting between the managers of the KFO, GSENM, and Glen

255a
Canon Recreation Area occurred in December 2008 regarding snow removal.
118. The allegations in Paragraph 118 are legal conclusions to which no responsive pleading is required.
To the extent a response is required, the United States
denies the allegations of Paragraph 118.
FIRST CAUSE OF ACTION

[Mill Creek Road]

119. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
120. The United States admits that certain Kane
County records identify the Mill Creek road as Kane
County road number K4400. The United States denies
that the Mill Creek road, the Tenny Creek road, and the
Oak Canyon road constitute a single road.
121. The United States admits that Mill Creek road
commences at its intersection with the Skutumpah Road
on private land in the NW quarter of section 5, Township
41 South, Range 4.5 West, S.L.M, and that it generally
proceeds in a northerly direction. The United States
lacks sufficient information to form a belief as to the terminus of the Mill Creek road, and therefore denies the
remaining allegations of Paragraph 121. The United
States further denies that the Mill Creek road has three
separate termini.
122. Paragraph 122 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 122 and therefore denies the same.

256a
123. With respect to Paragraph 123, the United
States admits that certain private lands, identified as
lots 1, 2 and 3, NE1/4, E1/2SW1/4, N1/2SE1/4, and
SW1/4SE1/4, section 34, T. 39 S., R 4.5 W, S.L.M., were
conveyed out of Federal ownership on June 10, 1937 as
Stock Raising Homestead Patent 1090548. The United
States lacks sufficient information to form a belief as to
the truth of the remaining allegations of Paragraph 123
and therefore denies the same.
124. With respect to Paragraph 124, the United
States admits that certain private lands, identified as lot
2, section 5, T. 40 S., R 4.5 W, S.L.M., were conveyed out
of Federal ownership on May 23, 1923 as Homestead Patent 900384. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations of Paragraph 124 and therefore denies the
same.
125. With respect to Paragraph 125, the United
States admits that certain private lands, identified as
lots 4, 5, 6, and 7, and E1/2SW1/4, section 6, T. 40 S., R.
41/2 W., S.L.M., were conveyed out of Federal ownership on August 8, 1957 as Private Exchange Patent
1173972. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations and therefore denies the same.
126. Paragraph 126 is not a factual allegation but rather constitutes Plaintiff ’s description of the scope of its
claims and of one of its exhibits, and therefore no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the
United States lacks sufficient information to form a belief as to the truth of the allegations of Paragraph 126
and therefore denies the same.

257a
127. The allegations of Paragraph 127 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
128. The use of the phrase “has long appeared” in
the allegations of Paragraph 128 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
129. The United States denies the allegations of the
first sentence in Paragraph 129 and admits that the 1966
Skutumpah Creek, Utah 7.5 minute quadrangle map issued by the United States Geological Survey (“USGS”)
shows unimproved dirt roads in the general vicinity of
the routes described in Paragraphs 121 and 122. As to
the allegations in the second sentence, the United States
admits that a copy of a map entitled “Skutumpah Creek,
Utah,” which appears to be published in its original form
by the USGS, is attached to the Amended Complaint as
Exhibit 12. However, the United States denies that
Exhibit 12 constitutes, in its present form, a true and
correct copy of a USGS map as it contains markings and
notations which appear to have been made by someone
other that the USGS. As to the allegations of the third
sentence, the United States lacks sufficient information

258a
to form a belief as to the truth of such allegations and
therefore denies the same.
130. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 130 and therefore denies the same.
131. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 131 and therefore denies the same.
132. The allegations of Paragraph 132 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
133. The allegations of Paragraph 133 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
134. The allegations of Paragraph 134 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
135. The United States admits that on the 1965 General Highway Map, Kane County, Utah, unnamed roads

259a
appear in the general vicinity of the claimed Mill Creek,
Tenny Creek, and Oak Canyon routes as described in
the Amended Complaint. The United States otherwise
lacks sufficient information to form a belief as to the
truth of the allegations of Paragraph 135, and therefore
denies the same.
136. With regards to the allegations in the first sentence of Paragraph 136, the United States admits that
on the 1956 Kane County General Highway map unnamed roads appear in the general vicinity of the
claimed Mill Creek, Tenny Creek, and Oak Canyon
routes as described in the Amended Complaint. The
United States lacks sufficient information to form a belief as to the truth of the remaining allegations of the
first sentence of Paragraph 136 and therefore denies the
same. With respect to the second sentence of Paragraph 136, the United States admits that on the 1965
General Highway Map, Kane County, Utah, an unnamed
road appears in the general vicinity of the segments of
the Mill Creek road as described in the Amended Complaint. The United States otherwise lacks sufficient information to form a belief as to the truth of the allegations of the second sentence of Paragraph 136, and
therefore denies the same.
137. The allegations of Paragraph 137 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the Mill Creek roads as a county
road in 1965, and therefore denies the same.

260a
138. The allegations of Paragraph 138 that Plaintiff
“accepted this county road” are legal conclusions to which
no responsive pleading is required. Further, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 138 and therefore denies the same.
139. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 139 and therefore denies the same.
140. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 140 and therefore denies the same.
141. The allegations of Paragraph 141 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the Mill Creek road as a Kane
County road (General Highways) and expended public
funds on this road on or before 1965, and therefore denies the same.
142. The United States admits that in July 1977 the
BLM and Plaintiff signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between
The Bureau of Land Management and the Kane County
Commission,” (hereinafter “MOU”) which speaks for itself and is the best evidence of its contents and therefore
no responsive pleading is required. The United States
nonetheless affirmatively denies the allegation that the

261a
MOU confirms that any alleged rights-of-way for the
Mill Creek road included a right-of-way width of 66 feet.
143. The allegations of Paragraph 143 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
144. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 144 and therefore denies the same.
145. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 145 and therefore denies the same.
146. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 146 and therefore denies the same.
147. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 147 and therefore denies the same.
148. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 148 and therefore denies the same.
149. The allegations of Paragraph 149 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering

262a
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
150. The allegations of Paragraph 150 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the Mill Creek
road as a public thoroughfare on a continuous basis for
a period in excess of ten years prior to October 21, 1976,
and therefore denies the same.
151. The allegations of Paragraph 151 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
SECOND CAUSE OF ACTION

[Bald Knoll Road]

152. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
153. The United States admits that certain Kane
County records identify Bald Knoll Road as road K3935.
154. The United States lacks sufficient information
to form a belief as to the truth of the first sentence of
the allegations of Paragraph 154 and therefore denies
the same. The United States denies that the Bald
Knoll road commences in the NENW of section 3, Township 41 South, Range 5 West, S.L.M., at the boundary of
private land, and admits the remaining allegations of the
second sentence of Paragraph 154. The United States

263a
admits the allegations of the third and fourth sentences
of Paragraph 154.
155. Paragraph 155 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 155 and therefore denies the same.
156. With regards to Paragraph 156, the United
States admits that certain private lands, identified as
SE1/4SE1/4, section 15, and NW1/4NE1/4, section 22, T.
40 S., R 5 W, S.L.M., were conveyed out of Federal ownership on October 23, 1928 as Homestead Patent
1020257. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations of Paragraph 156 and therefore denies the
same.
157. Paragraph 157 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 157 and therefore denies the same.
158. The allegations of Paragraph 158 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot

264a
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
159. The use of the phrase “has long appeared” in
the allegations of Paragraph 159 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
160. The United States denies the allegations of the
first sentence of Paragraph 160, and admits that the
1966 Skumtumpah Creek, Utah and Bald Knoll, Utah 7.5
minute quadrangle maps issued by the USGS, together
show unimproved dirt roads in the general vicinity of the
roads described in Paragraphs 154 and 155. As to the
allegations of the second sentence, the United States admits that a map entitled “Bald Knoll, Utah,” which appears to be published in its original form by the USGS,
is attached to the Amended Complaint as Exhibit 13.
However, the United States denies that Exhibit 13 constitutes, in its present form, a true and correct copy of a
USGS map as it contains markings and notations which
appear to have been made by someone other that the
USGS. As to the allegations of the third sentence, the
United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.
161. Given the illegibility of Exhibit 13, and given
the markings and notations on it from some unknown
source, the United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 161 and therefore denies the same.

265a
162. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 162 and therefore denies the same.
163. The allegations of Paragraph 163 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
164. The allegations of Paragraph 164 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
165. The allegations of Paragraph 165 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
166. The United States admits that on the 1965 General Highway Map, Kane County, Utah, an unnamed
road appears in the general vicinity of some of the segments of the Bald Knoll road as described in the Amended
Complaint. The United States otherwise lacks sufficient information to form a belief as to the truth of the
allegations of Paragraph 166, and therefore denies the

266a
same. As to the footnote to Paragraph 166, the United
States lacks knowledge sufficient to form a belief as to
the truth of the allegations of the first sentence and denies the same. The United States denies the allegations of the second sentence in the footnote.
167. The allegations of Paragraph 167 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the Mill Creek road as a county road
in 1965, and therefore denies the same.
168. The allegations of Paragraph 168 that Plaintiff
“accepted this county road” are legal conclusions to which
no responsive pleading is required. Further, the United
States lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 168 and therefore denies the same.
169. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 169 and therefore denies the same.
170. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 170 and therefore denies the same.
171. The allegations of Paragraph 171 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the Bald Knoll road as a Kane County

267a
road (General Highways) and expended public funds on
this road on or before 1965, and therefore denies the
same.
172. The United States admits that in July 1977 the
BLM and Plaintiff signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between The Bureau of Land Management and the Kane
County Commission,” (hereinafter “MOU”) which speaks
for itself and is the best evidence of its contents and therefore no responsive pleading is required. The United
States nonetheless affirmatively denies the allegation
that the MOU confirms that any alleged rights-of-way
for the Bald Knoll road included a right-of-way width of
66 feet. The United States lacks sufficient information
to form a belief as to the truth of the allegation that the
Bald Knoll road was formerly designated the Thompson
Creek road, and therefore denies the same.
173. The use of the phrase “has long served” in the
allegations of Paragraph 173 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 173 and therefore denies the same.
174. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 174 and therefore denies the same.
175. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 175 and therefore denies the same.

268a
176. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 176 and therefore denies the same.
177. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 177 and therefore denies the same.
178. The allegations of Paragraph 178 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
179. The allegations of Paragraph 179 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the Bald Knoll
road as a public thoroughfare on a continuous basis for
a period in excess of ten years prior to October 21, 1976,
and therefore denies the same.
180. The allegations of Paragraph 180 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.

269a
THIRD CAUSE OF ACTION

[Skutumpah Road]

181. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
182. The United States admits that certain Kane
County records identify the Skutumpah road as Road
K5000.
183. Assuming that the reference to “Range 5 S.L.M.”
in the third line of Paragraph 183 is intended to refer to
“Range 5 West,” the United States generally admits the
allegations of the Paragraph, except for the mileage allegation, as the United States lacks sufficient information to form a belief as to the truth of that allegation
and therefore denies the same.
184. Paragraph 184 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 184 and therefore denies the same.
185. The allegations of Paragraph 185 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.

270a
186. The use of the phrase “has long appeared” in
the allegations of Paragraph 186 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
187. With respect to the allegations of the first and
third sentences of Paragraph 187, the United States admits that the 1966 Skutumpah Creek, Utah 7.5 minute
quadrangle map, the 1966 Deer Springs Point, Utah 7.5
minute quadrangle map, the 1966 Bull Valley Gorge,
Utah 7.5 minute quadrangle map, and the 1966 Cannonville, Utah 7.5 minute quadrangle map, issued by the
USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 183. With respect to the allegations of the fourth sentence, the
United States admits that maps entitled “Skumtumpah
Creek, Utah,” “Deer Springs Point, Utah,” “Bull Valley
Gorge, Utah,” and “Cannonville, Utah,” which appear to
be published in their original forms by the USGS, are
attached to the Amended Complaint as Exhibits 12 and
14-17. However, the United States denies that Exhibits 12 and 14-17 constitute, in their present form, true
and correct copies of USGS maps as they contains markings and notations which appear to have been made by
someone other that the USGS. With respect to the allegations of the second sentence of Paragraph 187, the
United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.

271a
188. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 188 and therefore denies the same.
189. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 189 and therefore denies the same.
190. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 190 and therefore denies the same.
191. The allegations of Paragraph 191 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
192. The allegations of Paragraph 192 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
193. The allegations of Paragraph 193 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.

272a
194. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 194 and therefore denies the same.
195. The allegations of Paragraph 195 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the Skutumpah road as a county
road as early as 1950, and therefore denies the same
196. The allegations of Paragraph 196 that Plaintiff
“accepted the Skutumpah road as a county road and the
R.S. 2477 right-of-way” are legal conclusions to which no
responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 196 and
therefore denies the same.
197. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first and second sentences of Paragraph 197 and therefore denies the same. The United States denies the allegations of the third sentence of Paragraph 197, and admits that some sections of the Skutumpah road are prone
to washouts that require periodic repairs.
198. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 198 and therefore denies the same.
199. The allegations of Paragraph 199 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents

273a
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the Skutumpah road as a Kane
County road (General Highways) and expended public
funds on this road on or before 1950, and therefore denies the same.
200. The United States admits that in July 1977 the
BLM and Plaintiff signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between
The Bureau of Land Management and the Kane County
Commission,” (hereinafter “MOU”) which speaks for itself
and is the best evidence of its contents and therefore no
responsive pleading is required. The United States
nonetheless affirmatively denies the allegation that the
MOU confirms that any alleged rights-of-way for the
Skutumpah road included a right-of-way width of 66
feet.
201. The use of the phrase “has long served” in the
allegations of Paragraph 201 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 201 and therefore denies the same.
202. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 202 and therefore denies the same
203. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 203 and therefore denies the same.

274a
204. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 204 and therefore denies the same.
205. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 205 and therefore denies the same.
206. The allegations of Paragraph 206 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
207. The allegations of Paragraph 207 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the Skutumpah
road as a public thoroughfare on a continuous basis for
a period in excess of ten years prior to October 21, 1976,
and therefore denies the same.
208. The allegations of Paragraph 208 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.

275a
FOURTH CAUSE OF ACTION

[Sand Dune road]

209. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
210. The United States admits that certain Kane
County records identify the Sand Dune road as Road
K1000.
211. The United States generally admits the allegations of Paragraph 211, except for the mileage allegation, as the United States lacks sufficient information to
form a belief as to the truth of that allegation and therefore denies the same.
212. Paragraph 212 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 212 and therefore denies the same.
213. The allegations of Paragraph 213 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
214. The use of the phrase “has long appeared” in
the allegations of Paragraph 214 renders the allegations
too vague and general and without the context necessary

276a
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
215. With respect to the allegations of the first,
third, and fifth sentences of Paragraph 215, the United
States admits that the Kanab, Utah 7.5 minute quadrangle map, the Yellowjacket Canyon, Utah 7.5 minute
quadrangle map, and the Elephant Butte, Utah 7.5 minute quadrangle map, issued by the USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 211. With respect to the allegations of the second, fourth, and sixth sentences of Paragraph 215, the United States admits that maps entitled
“Kanab, Utah,” “Yellowjacket Canyon, Utah,” and “Elephant Butte, Utah,” which appear to be published in
their original forms by the USGS, are attached to the
Amended Complaint as Exhibits 18-20. However, the
United States denies that Exhibits 18-20 constitute, in
their present form, true and correct copies of USGS
maps as they contains markings and notations which appear to have been made by someone other that the USGS.
As to the allegations of the seventh sentence of Paragraph 215, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.
216. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 216 and therefore denies the same.
217. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 217 and therefore denies the same.

277a
218. The allegations of Paragraph 218 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
219. The allegations of Paragraph 219 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
220. The allegations of Paragraph 220 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
221. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 221 and therefore denies the same.
222. The allegations of Paragraph 222 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the entire Sand Dune road as a

278a
county road as early as 1950, and therefore denies the
same
223. The allegations of Paragraph 223 that Plaintiff
“accepted the Sand Dune road as a country road and its
R.S. 2477 right-of-way” are legal conclusions to which no
responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 223 and
therefore denies the same.
224. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first, second, and third sentences of Paragraph 224 and
therefore denies the same. The use of the phrase “high
speed” in the allegations of the fourth sentence of Paragraph 224 renders the allegations too vague and general
and without the context necessary to permit a specific
response. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
225. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 225 and therefore denies the same.
226. The allegations of Paragraph 226 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the Sand Dune road as a Kane
County road (General Highways) and expended public

279a
funds on this road on or before 1950, and therefore denies the same.
227. The allegations of Paragraph 227 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
228. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 228 and therefore denies the same
229. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 229 and therefore denies the same.
230. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 230 and therefore denies the same.
231. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 231 and therefore denies the same.
232. The allegations of Paragraph 232 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.

280a
233. The allegations of Paragraph 233 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the Sand Dune
road as a public thoroughfare on a continuous basis for
a period in excess of ten years prior to October 21, 1976,
and therefore denies the same.
234. The allegations of Paragraph 234 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
FIFTH CAUSE OF ACTION

[Hancock road]

235. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
236. The United States admits that certain Kane
County records identify the Hancock road as Road
K1100.
237. The United States generally admits the allegations of Paragraph 237, except for the mileage allegation, as the United States lacks sufficient information to
form a belief as to the truth of that allegation and therefore denies the same.
238. Paragraph 238 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information

281a
to form a belief as to the truth of the allegations of Paragraph 238 and therefore denies the same.
239. The allegations of Paragraph 239 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
240. The use of the phrase “has long appeared” in
the allegations of Paragraph 240 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
241. The United States admits that the Kanab, Utah
7.5 minute quadrangle map, and the Yellowjacket Canyon, Utah 7.5 minute quadrangle map, issued by the
USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 237. The United
States admits that copies of maps entitled “Kanab,
Utah,” and “Yellowjacket Canyon, Utah,” which appears
to have been published in their original form by the
USGS, are attached to the Amended Complaint as Exhibits 18 and 19. However, the United States denies
that Exhibits 18 and 19 constitute, in their present form,
true and correct copies of USGS maps as they contain
markings and notations which appear to have been made
by someone other that the USGS. As to the allegations

282a
of the third sentence of Paragraph 241, the United
States lacks sufficient information to form a belief as to
the truth of such allegations and therefore denies the
same.
242. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 242 and therefore denies the same.
243. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 243 and therefore denies the same.
244. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 244 and therefore denies the same.
245. The allegations of Paragraph 245 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
246. The allegations of Paragraph 246 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
247. The allegations of Paragraph 247 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot

283a
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
248. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 248 and therefore denies the same.
249. The allegations of Paragraph 249 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the Hancock road as a county road
as early as 1965, and therefore denies the same
250. The allegations of Paragraph 250 that Plaintiff
“accepted the Hancock road as a county road crossing
an R.S. 2477 right-of-way” are legal conclusions to which
no responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 250 and
therefore denies the same.
251. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first and second sentences of Paragraph 251 and therefore denies the same. The United States admits the allegations of the third sentence of Paragraph 251.
252. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 252 and therefore denies the same.
253. The allegations of Paragraph 253 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents

284a
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the Hancock road as a Kane County
road (General Highways) and expended public funds on
this road on or before 1965, and therefore denies the
same.
254. The use of the phrase “has long served” in the
allegations of Paragraph 254 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 254 and therefore denies the same.
255. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first sentence of Paragraph 255 and therefore denies the
same. The use of the phrase “government employees”
in the allegations of the second sentence of Paragraph
255 renders the allegations too vague and general and
without the context necessary to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
256. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 256 and therefore denies the same
257. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 257 and therefore denies the same.

285a
258. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 258 and therefore denies the same.
259. The allegations of Paragraph 259 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
260. The allegations of Paragraph 260 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the Hancock
road as a public thoroughfare on a continuous basis for
a period in excess of ten years prior to October 21, 1976,
and therefore denies the same.
261. The allegations of Paragraph 261 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
SIXTH CAUSE OF ACTION

[Swallow Park/Park Wash road]
262. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.

286a
263. The United States admits that certain Kane
County records identify the so-called Swallow Park/
Park Wash route as Road K4360.
264. The United States denies the allegations of Paragraph 264 and admits that the so-called Swallow
Park/Park Wash route, as described in the Amended
Complaint, commences in section 9, T40S, R3W, S.L.M.,
at the intersection of the so-called North Swag route,
and generally proceeds in a northwesterly direction to
section 19, T39S, R3W, S.L.M., at the intersection with
the Skutumpah road.
265. Paragraph 265 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 265 and therefore denies the same.
266. The allegations of Paragraph 266 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
267. The use of the phrase “has long appeared” in
the allegations of Paragraph 267 renders the allegations
too vague and general and without the context necessary

287a
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
268. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 264. The United
States admits that a copy of a map entitled “Deer Spring
Point, Utah,” which appears to have been published in
its original form by the USGS, is attached to the Amended
Complaint as Exhibit 14. However, the United States
denies that Exhibit 14 constitutes, in its present form, a
true and correct copy of a USGS map as it contains
markings and notations which appear to have been made
by someone other that the USGS. As to the allegations
of the second sentence of Paragraph 268, the United
States lacks sufficient information to form a belief as to
the truth of such allegations and therefore denies the
same.
269. The United States denies the allegations in Paragraph 269 and admits that on the 1965 General Highway Map, Kane County, Utah, an unnamed road appears
in the general vicinity of the northernmost portion of the
claimed Swallow Park/Park Wash route as described in
the Amended Complaint.
270. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 270 and therefore denies the same.
271. The allegations of Paragraph 271 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the

288a
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
272. The allegations of Paragraph 272 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
273. The allegations of Paragraph 273 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
274. The United States admits that on the 1965 General Highway Map, Kane County, Utah, an unnamed
road appears in the general vicinity of the northernmost
portion of the claimed Swallow Park/Park Wash route
as described in the Amended Complaint. The United
States otherwise lacks sufficient information to form a
belief as to the truth of the allegations of Paragraph 274,
and therefore denies the same.
275. The allegations of Paragraph 275 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to

289a
form a belief as to the truth of the allegation that Kane
County designated the Swallow Wash/Park Wash road
as a county road as early as 1965, and therefore denies
the same
276. The allegations of Paragraph 276 that Plaintiff
“accepted the northernmost segment of the Swallow
Park/Park Wash road as a county road and its R.S. 2477
right-of-way” are legal conclusions to which no responsive pleading is required. The United States lacks sufficient information to form a belief as to the truth of the
remaining allegations of Paragraph 276 and therefore
denies the same.
277. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 277 and therefore denies the same.
278. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 278 and therefore denies the same.
279. The allegations of Paragraph 279 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the so-called Swallow Park/Park
Wash route as a Kane County road (General Highways)
and expended public funds on this road on or before
1965, and therefore denies the same.
280. The use of the phrase “has long served” in the
allegations of Paragraph 280 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive

290a
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 280 and therefore denies the same.
281. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first sentence of Paragraph 281 and therefore denies the
same. The use of the phrase “government employees”
in the allegations of the second sentence of Paragraph
281 renders the allegations too vague and general and
without the context necessary to permit a specific response. To the extent a responsive pleading is required,
the United States lacks sufficient information to form a
belief as to the truth of the allegations and therefore denies the same.
282. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 282 and therefore denies the same.
283. The United States admits that a portion of the
so-called Swallow Park/Park Wash route has been designated for administrative use only in the MMP. The
United States lacks sufficient information to form a belief as to the truth of the remaining allegations of Paragraph 283 and therefore denies the same.
284. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 284 and therefore denies the same.
285. The allegations of Paragraph 285 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that

291a
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
286. The allegations of Paragraph 286 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the claimed
Swallow Park/Park Wash route as a public thoroughfare
on a continuous basis for a period in excess of ten years
prior to October 21, 1976, and therefore denies the same.
287. The allegations of Paragraph 287 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same
SEVENTH CAUSE OF ACTION

[North Swag road]

288. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
289. The United States admits that certain Kane
County records identify the so-called North Swag route
as Road K4370.
290. The United States denies the allegations of Paragraph 290, and admits that the so-called North Swag
route, as described in the amended complaint, commences
generally in section 30, T40S, R2W, S.L.M., and generally proceeds in a northwesterly direction, but lacks sufficient information to form a belief as to the truth of the

292a
remaining allegations of Paragraph 290 and therefore
denies the same.
291. Paragraph 291 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 291 and therefore denies the same.
292. The allegations of Paragraph 292 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
293. The use of the phrase “has long appeared” in
the allegations of Paragraph 293 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
294. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 290. The
United States admits that a copy of a map, entitled
“Deer Spring Point, Utah,” which appears to have been

293a
published in its original form by the USGS, is attached
to the Amended Complaint as Exhibit 21. However,
the United States denies that Exhibit 21 constitutes, in
its present form, a true and correct copy of a USGS map
as it contains markings and notations which appear to
have been made by someone other that the USGS. As
to the allegations of the third sentence of Paragraph
294, the United States lacks sufficient information to
form a belief as to the truth of such allegations and
therefore denies the same.
295. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 295 and therefore denies the same.
296. The allegations of Paragraph 296 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
297. The allegations of Paragraph 297 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
298. The allegations of Paragraph 298 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that

294a
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
299. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 299 and therefore denies the same.
300. The use of the phrase “has long served” in the
allegations of Paragraph 300 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 300 and therefore denies the same.
301. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first sentence of Paragraph 301 and therefore denies the
same. The use of the phrase “government employees”
in the allegations of the second sentence of Paragraph
301 renders the allegations too vague and general and
without the context necessary to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations of the second sentence of Paragraph 301 and therefore denies the
same. The United States admits the allegations of the
third sentence of Paragraph 301 that the so-called North
Swag route does not appear on Map 2 of the MMP but
lacks sufficient information to form a belief as to the
truth of the remaining allegations of the sentence and
therefore denies the same.

295a
302. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 302 and therefore denies the same.
303. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 303 and therefore denies the same.
304. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 304 and therefore denies the same.
305. The allegations of Paragraph 305 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
306. The allegations of Paragraph 306 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the so-called
North Swag route as a public thoroughfare on a continuous basis for a period in excess of ten years prior to
October 21, 1976, and therefore denies the same.
307. The allegations of Paragraph 307 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the

296a
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
EIGHTH CAUSE OF ACTION

[Nipple Lake road]

308. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
309. The United States admits that certain Kane
County records identify the so-called Nipple Lake
route, as described in the Amended Complaint, as Road
K4290.
310. The United States denies the allegations of Paragraph 310 and admits that the so-called Nipple Lake
route, as described in the Amended Complaint, occurs
in section 30, T40S, R2W.
311. Paragraph 311 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 311 and therefore denies the same.
312. The allegations of Paragraph 312 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.

297a
313. The use of the phrase “has long appeared” in
the allegations of Paragraph 313 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
314. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 310. The
United States admits that a copy of a map entitled “Deer
Spring, Utah,” which appears to have been published in
its original form by the USGS, is attached to the Amended
Complaint as Exhibit 21. However, the United States
denies that Exhibit 21 constitutes, in its present form, a
true and correct copy of a USGS map as it contains
markings and notations which appear to have been made
by someone other that the USGS. As to the allegations
of the second sentence of Paragraph 314, the United
States lacks sufficient information to form a belief as to
the truth of such allegations and therefore denies the
same.
315. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 315 and therefore denies the same.
316. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 316 and therefore denies the same.
317. The allegations of Paragraph 317 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the

298a
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
318. The allegations of Paragraph 318 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
319. The allegations of Paragraph 319 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States lacks sufficient information to form a belief as to
the truth of the allegations and therefore denies the
same. Further, the United States lacks sufficient information to form a belief as to the truth of the allegations that the scope of the claimed right of way, if established, is that reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road, including a 66 foot right of way (33 feet from the centerline
descriptions provided in the Amended Complaint), and
therefore denies the same.
320. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 320 and therefore denies the same.
321. The allegations of Paragraph 321 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegation that Kane
County designated the claimed Nipple Lake road as a

299a
county road as early as 1975, and therefore denies the
same
322. The allegation in Paragraph 322 that Kane
County “accepted the Nipple Lake road as a county road
and the R.S. 2477 right-of-way” is a legal conclusion to
which no responsive pleading is required. The United
States lacks sufficient information to form a belief as to
the truth of the remaining allegations of Paragraph 322
and therefore denies the same.
323. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 323 and therefore denies the same.
324. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 324 and therefore denies the same.
325. The allegations of Paragraph 325 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and therefore no responsive pleading is required. Further, the United States lacks sufficient information to
form a belief as to the truth of the allegations that Kane
County designated the so-called Nipple Lake route as a
Kane County road (General Highways) and expended
public funds on this road on or before 1975, and therefore denies the same.
326. The use of the phrase “has long served” in the
allegations of Paragraph 326 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 326 and therefore denies the same.

300a
327. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first sentence of Paragraph 327 and therefore denies the
same. The use of the phrase “government employees”
in the allegations of the second sentence of Paragraph
327 renders the allegations too vague and general and
without the context necessary to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
328. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 328 and therefore denies the same
329. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 329 and therefore denies the same.
330. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 330 and therefore denies the same.
331. The allegations of Paragraph 331 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.

301a
332. The allegations of Paragraph 332 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the so-called
Nipple Lake route as a public thoroughfare on a continuous basis for a period in excess of ten years prior to
October 21, 1976, and therefore denies the same.
333. The allegations of Paragraph 333 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same
NINTH CAUSE OF ACTION

[Cave Lakes roads]

334. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 118.
335. The United States admits that certain Kane
County records identify the so-called Cave Lake routes
as K1070, K1075, K1087, and K1088.
336. The United States denies the allegations in Paragraph 336, and admits that the so-called Cave Lakes
route identified in certain of Kane County’s records as
K1070, as described in the Amended Complaint, is located generally in sections 34 and 35, T42S, R7W, SLM,
and intersects the Hancock road in section 34, T42S,
R7W, SLM. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations of Paragraph 336 and therefore denies the
same.

302a
337. Paragraph 337 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 337 and therefore denies the same.
338. The United States denies the allegations in Paragraph 338 and admits that the so-called Cave Lakes
route identified in certain of Kane County’s records as
K1075, and as described in the Amended Complaint, is
located generally in sections 34 and 35, T42S, R7W,
SLM, and intersects the Hancock road in section 34,
T42S, R7W, SLM. The United States lacks sufficient
information to form a belief as to the truth of the remaining allegations of Paragraph 338 and therefore denies
the same.
339. Paragraph 339 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 339 and therefore denies the same.
340. The United States admits that the so-called
Cave Lakes route K1087 as described in the Amended
Complaint is located generally in sections 24, T42S,
R7W, SLM, and denies that it connects to Hancock Road
in section 34, T42S, R7W, SLM.
341. Paragraph 341 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the

303a
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 341 and therefore denies the same.
342. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 342 and therefore denies the same.
343. Paragraph 343 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
therefore no responsive pleading is required. To the
extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 343 and therefore denies the same.
344. The allegations of Paragraph 344 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
345. The use of the phrase “has long appeared” in
the allegations of Paragraph 345 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.

304a
346. The United States admits that the Kanab, UtahArizona 7.5 minute quadrangle map issued by the USGS
shows unimproved dirt roads in the general vicinity of
the route described in Paragraph 340. The United
States admits that a copy of a map entitled “Kanab,
Utah-Arizona,” which appears to have been published in
its original form by the USGS, is attached to the Amended
Complaint as part of Exhibit 22. However, the United
States denies that such map constitutes, in its present
form, a true and correct copy of a USGS map as it contains markings and notations which appear to have been
made by someone other that the USGS. As to the allegations of the second sentence of Paragraph 346, the
United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.
347. The United States admits that the Kanab, UtahArizona 7.5 minute quadrangle map issued by the USGS
shows unimproved dirt roads in the general vicinity of
the routes described in Paragraphs 336 and 338. The
United States admits that a copy of a map entitled
“Kanab, Utah-Arizona,” which appears to have been
published in its original form by the USGS, is attached
to the Amended Complaint as part of Exhibit 22. However, the United States denies that such map constitutes, in its present form, a true and correct copy of a
USGS map as it contains markings and notations which
appear to have been made by someone other that the
USGS. As to the allegations of the second sentence of
Paragraph 347, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.

305a
348. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 348 and therefore denies the same.
349. The allegations of Paragraph 349 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
350. The allegations of Paragraph 350 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
351. The allegations of Paragraph 351 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that the
scope of the claimed right of way, if established, is that
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, including a 66 foot
right of way (33 feet from the centerline descriptions
provided in the Amended Complaint), and therefore denies the same.
352. The use of the phrase “has long served” in the
allegations of Paragraph 352 renders the allegations too
vague and general and without the context necessary to
permit a specific response. To the extent a responsive
pleading is required, the United States lacks sufficient
information to form a belief as to the truth of the allegations of Paragraph 352 and therefore denies the same.

306a
353. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 353 and therefore denies the same.
354. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 354 and therefore denies the same
355. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 355 and therefore denies the same.
356. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 356 and therefore denies the same.
357. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 357 and therefore denies the same.
358. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 358 and therefore denies the same
359. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 359 and therefore denies the same.
360. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 360 and therefore denies the same.
361. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 361 and therefore denies the same.
362. The allegations of Paragraph 362 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information

307a
to form a belief as to the truth of the allegations that the
scope of the claimed rights of way, if established, are
sufficient in scope for vehicle travel and include that
which is reasonable and necessary to meet the exigencies of such vehicle travel according to safe engineering
practices that protect the public, the road, and prevent
undue degradation of the adjacent land, and therefore
denies the same.
363. The allegations of Paragraph 363 are legal conclusions to which no responsive pleading is required.
Further, the United States lacks sufficient information
to form a belief as to the truth of the allegations that
there existed public motor vehicle use of the so-called
Cave Lakes routes as public thoroughfares on a continuous basis for a period in excess of ten years prior to
October 21, 1976, and therefore denies the same.
364. The allegations of Paragraph 364 contain legal
conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same.
REQUEST FOR RELIEF

The allegations set forth in paragraphs 1 to 11 of this
section are requests for relief to which no responses are
required.
GENERAL DENIAL

To the extent that any allegations of the Amended
Complaint have not been admitted or specifically responded to, the United States denies such allegations.

308a
FIRST DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff ’s failure to satisfy the “particularity” requirement of the Quiet Title Act and thereby
invoke a waiver of the United States’ sovereign immunity under the Act.
SECOND DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff ’s failure to allege facts sufficient to show that it can satisfy the statute of limitations set forth in the Quiet Title Act.
THIRD DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff ’s failure to allege a justiciable case or controversy between the parties with respect to certain of Plaintiff ’s claims.
FOURTH DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff ’s failure to satisfy the requirement that it demonstrate a disputed title to real
property with respect to certain of Plaintiff ’s claims under the Quiet Title Act and thereby invoke a waiver of
the United States’ sovereign immunity under the Act.
FIFTH DEFENSE

Plaintiff has failed to state a claim upon which relief
can be granted.

309a
SIXTH DEFENSE

Plaintiff has failed to join indispensable parties under
Rule 19 of the Federal Rules of Civil Procedure, including with respect to the claimed rights-of-way that cross
private land.
SEVENTH DEFENSE

Plaintiff ’s claims may be barred by the statute of limitations in the Quiet Title Act.
WHEREFORE, having fully answered, the United
States prays that this action be dismissed, that judgment
be entered for the United States, and that the Court grant
such other and further relief as it may deem just and
appropriate.
RESPECTFULLY SUBMITTED this 13th day of
Nov., 2009.
JOHN C. CRUDEN
Acting Assistant Attorney General
/s/ ROMNEY S. PHILPOTT
ROMNEY S. PHILPOTT
Trial Attorney
U.S. Department of Justice
Environment & Natural Resources Division
Natural Resources Section
BRETT L. TOLMAN
United States Attorney, District of Utah
JOHN K. MANGUM
Assistant United States Attorney
ATTORNEYS FOR THE UNITED STATES

310a
OF COUNSEL:
JAMES E. KARKUT
Attorney/Advisor
Office of the Regional Solicitor
Department of the Interior
125 South State Street, Suite 6201
Salt Lake City, UT 84138

311a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-CV-0315 CW
KANE COUNTY, UTAH, A POLITICAL SUBDIVISION,
PLAINTIFF

v.
UNITED STATES OF AMERICA, DEFENDANTS
STATE OF UTAH, INTERVENOR-PLAINTIFF
Filed:

Apr. 29, 2010

INTERVENOR’S COMPLAINT TO QUIET TITLE

Intervenor-Plaintiff State of Utah (“State”), for claims
against Defendants, alleges as follows:
INTRODUCTION
1. This is an action to quiet title to certain described rights-of-way for highways, including the scope
thereof, under the grant of Section 8 of the Mining Act
of 1866, 14 Stat. 251, 253, later codified as Revised Statutes 2477 and as 43 U.S.C. § 932 (repealed October 21,
1976 with savings provisions recognizing validity of
rights-of-way already established) (hereinafter “R.S.
2477”).

312a
JURISDICTION AND VENUE
2. The Court has subject matter jurisdiction under
28 U.S.C. §§ 1346(f ) and 2409(a) (quiet title to real property in which the United States claims an interest). On
or about June 14, 2000, the State of Utah filed a Notice
of Intent to Sue with the Secretary of Interior over certain R.S. 2477 rights-of-way, including the all of the
roads in this action in Kane County, with the exception
of the Caves Lakes No. 4 road. A copy of this letter is
attached as Exhibit 1. Thus, to the extent a Notice of
Intent to Sue is required for a state to intervene in an
ongoing legal action, the State of Utah has complied
with the Quiet Title Act.
3. Venue is proper under 28 U.S.C. § 1391(e) inasmuch as the lands at issue are located in Utah.
PARTIES
4. The State is one of the fifty sovereign states
forming the United States of America, having been admitted to the Union on January 4, 1896 on an equal footing with the original states. The executive power of the
State is vested in the Governor, who is responsible for
seeing that the laws of the State are faithfully executed.
Utah Const. art. VII, § 5; UTAH CODE ANN. § 67-1-1.
5. The State and the several Utah Counties are
joint owners of R.S. 2477 rights-of-way in Utah. UTAH
CODE ANN. §§ 72-5-302(2) and 72-5-103(2)(b).
6. Defendant United States of America is the federal government and the owner of the servient estate
under and adjacent to the highways relevant to this action, further described below.

313a
BACKGROUND AND ALLEGATIONS
REGARDING R.S. 2477 HIGHWAYS WITHIN
THE STATE OF UTAH
7. R.S. 2477, originally enacted as Section 8 of the
Mining Act of 1866, provides as follows:
And be it further enacted, That the right of way for
the construction of highways over public lands, not
reserved for public uses, is hereby granted.
8. An R.S. 2477 right-of-way is a valid existing
property right—an easement recognized by law as the
dominant estate in the land.
9. Though R.S. 2477 was repealed in 1976, the repealing legislation specifically recognized the continuing validity of R.S. 2477 rights-of-way established as of
1976. FLPMA §§ 509(a), 701(a) and 701(h), codified respectively at 43 U.S.C. §§ 1769(a) and 1701, savings provisions (a) and (h).
10. R.S. 2477 was a congressional and self-executing
grant; ratification or approval by the federal government was not required to perfect an R.S. 2477 right-ofway. SUWA v. BLM, 425 F.3d 735, 741 (10th Cir.
2005); Sierra Club v. Hodel, 848 F. 2d 1068, 1083-84
(10th Cir. 1988).
11. Federal law borrows from state law to determine the perfection and scope of an R.S. 2477 right-ofway. SUWA v. BLM, 425 F.3d 735, 763 (10th Cir.
2005).
12. In Utah, an R.S. 2477 right-of-way may be established (“perfected”) by public use for a period of ten
years without formal action by any public authority
(UTAH CODE ANN. § 72-5-104), or by affirmative non-

314a
federal governmental action indicating an intent to accept the grant, including but not limited to construction
or maintenance of a road.
13. The scope of an R.S. 2477 right-of-way includes
reasonable and necessary uses to which the right-of-way
has been put. Hodel, 846 F.2d at 1083-84 (affirming
the District Court’s “reasonable and necessary” definition); United States v. Garfield County, 122 F. Supp. 2d
1201, 1229-30 (D. Utah 2000) (recognizing the “reasonable and necessary” standard).
14. Such areas along the roadway beyond the actual
beaten path as are reasonable and necessary to provide
safe travel on the road, including lands on which attendant accouterments such as drainage ditches and culverts existed as of the date of the reservation of the subject lands adjacent to the road, or reasonably and necessarily are added after that date to accommodate increased travel for pre-existing uses, are part of the reasonable and necessary use and are therefore within the
scope of each highway right-of-way. Hodel, 846 F.2d.
at 1083-84.
15. The scope of the R.S. 2477 right-of-way includes
the right to conduct reasonable and necessary maintenance within the right-of-way and make reasonable and
necessary improvements within it. Id. at 1083, 1086
n.16.
16. Though R.S. 2477 was repealed on October 21,
1976 by the Federal Land Policy and Management Act
(FLPMA), R.S. 2477 rights-of-way in existence on the
date of FLPMA’s passage are protected under that act.

315a
17. FLPMA section 701(a) provides:
Nothing in this Act, or in any amendment made
by this Act, shall be construed as terminating
any valid lease, permit, patent, right-of-way, or
other land use right or authorization existing on
the date of approval of this act.
18. FLPMA section 701(h) provides:
All actions by the Secretary concerned under
this Act shall be subject to valid existing rights.
19. FLPMA section 509(a) provides:
Nothing in this title [43 U.S.C. §§ 1701-1784]
shall have the effect of terminating any right-ofway or right-of-use heretofore issued, granted
or permitted.
20. In 1939, DOI regulations provided:
[R.S. 2477 (43 U.S.C. 932)] becomes effective
upon the construction or establishing of highways, in accordance with the state laws, over
public lands not reserved for public uses. No
application should be filed under said R.S. 2477
as no action on the part of the Federal Government is necessary. 43 C.F.R. § 244.55 (1939).
21. “Normal Maintenance Activities” as used in this
complaint means routine maintenance involving use of
appropriate equipment to conduct reasonable and necessary activities to maintain the road (Hodel, 846 F.2d
at 1083, 1086 n.16) including, but not limited to reasonable and necessary activities of the following types:
a.

Making minor deviations in the road for safety
purposes;

316a
b.

Grooming the road surface;

c.

Establishing and maintaining the crown with
materials gathered along the road;

d.

Filling ruts;

e.

Spot filling with the same or improved materials;

f.

Leveling or smoothing washboards;

g.

Clearing the roadway of obstructing debris;

h.

Cleaning culverts, if any, including head basins
and outlets;

I.

Resurfacing with the same or improved materials of the same general type;

j.

Maintaining, repairing, replacing and installing
rip rap;

k.

Maintaining drainage;

l.

Maintaining and repairing washes and gullies;

m. Maintaining, repairing, replacing and installing
culverts as necessary to protect the existing surface from erosion; and,
n.

Repairing washouts.

22. Performance of Normal Maintenance Activities
on County roads minimizes degradation of the servient
estate by decreasing erosion, fugitive dust and other impacts on adjacent lands.
23. With the State’s consent, Utah counties have
performed Normal Maintenance Activities on thousands
of miles of roads for decades. These activities are gen-

317a
erally conducted on an “as needed” basis, taking into account the County’s financial resources available for that
purpose.
ACCEPTANCE AND SCOPE OF KANE COUNTY
AND THE STATE OF UTAH’S R.S. 2477
RIGHTS-OF-WAY
24. After 1866 and prior to the repeal of R.S. 2477
on October 21, 1976, Kane County and the State of Utah,
by and on behalf of the public, accepted R.S. 2477 rightsof-way for the Mill Creek, Bald Knoll, Skutumpah, Sand
Dune, Hancock, Swallow Park/Park Wash, North Swag,
Nipple Lake, and the four Cave Lakes roads described
herein on public lands not reserved for public uses. As
public land grants, the owner of these rights-of-way has
the right to access and use these property interests.
25. At the relevant times, State law provided that a
public highway right-of-way was dedicated and accepted
under the jurisdiction and control of the local highway
authority (Kane County and the State of Utah) by designating the road as a county highway and expending
public funds to construct and maintain the road. See
UTAH CODE ANN. § 72-3-103 (prior law in accord); see
also UTAH CODE ANN. § 27-12-22 (1963).
26. As shown herein, the R.S. 2477 public highway
rights-of-way for the Mill Creek Bald Knoll, Skutumpah,
Sand Dune, Hancock, Nipple Lake, and portions of the
Swallow Park/Park Wash roads were accepted by Kane
County and the State of Utah’s designation of these
roads as county highways and expending public funds to
construct and maintain these roads prior to October 21,
1976.

318a
27. At the relevant times herein State law provided
that a public highway right-of-way is “dedicated and
abandoned to the use of the public when it has been continuously used as a public thoroughfare for a period of
ten years.” UTAH CODE ANN. § 72-5-104 (prior law in
accord).
28. As shown herein, the R.S. 2477 public highway
rights-of-way for the Mill Creek Bald Knoll, Skutumpah,
Sand Dune, Hancock, Swallow Park/Park Wash, North
Swag, Nipple Lake, and the four Cave Lakes roads were
accepted by continuous use as public thoroughfares for
period in excess of ten years prior to October 21, 1976.
29. Kane County and the State of Utah’s vested public highway rights-of-way for the Mill Creek, Bald Knoll,
Skutumpah, Sand Dune, Hancock, Swallow Park/Park
Wash, North Swag, Nipple Lake, and the four Cave
Lakes roads continue as valid existing rights until abandoned by Kane County and the State of Utah. See
UTAH CODE ANN. §§ 72-5-103 - 105, 305.
30. Kane County and the State of Utah have not
abandoned the public highway rights-of-way for the Mill
Creek, Bald Knoll, Skutumpah, Sand Dune, Hancock,
Swallow Park/Park Wash, North Swag, Nipple Lake,
and the four Cave Lakes roads claimed herein.
THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE AND CAVE
LAKES ROADS

31. The Mill Creek and Bald Knoll roads are located
in western Kane County, Utah.
32. The Mill Creek and Bald Knoll roads cross private and public lands within Townships 40 and 41 South,

319a
Range 4.5 and 5 West, S.L.M. The course and location
of the Mill Creek and Bald Knoll roads are shown on Exhibit 1A attached and incorporated herein.
33. The Skutumpah road is located in western Kane
County.
34. The Skutumpah road crosses private and public
lands within Townships 38, 39, 40 and 41 South, Range
2, 3, 4, 4.5 and 5, S.L.M. The course and location of the
Skutumpah road is shown on Attachment 1 of Exhibit 2
to Plaintiff ’s Amended Complaint and incorporated
herein.
35. The Sand Dune road is located in southwestern
Kane County.
36. The Sand Dune road crosses private, Utah School
and Institutional Trust Land Administration (“SITLA”),
and public lands with Township 42, 43, and 44 South,
Range 7, 8, and 9 West, S.L.M. The course and location of the Sand Dune road is shown on Attachment 1 of
Exhibit 3 to Plaintiff ’s Amended Complaint and incorporated herein.
37. The Hancock road is located in southwestern
Kane County.
38. The Hancock road crosses public lands within
Township 42 and 43 South, Range 6, 7, and 8 West,
S.L.M. The course and location of the Hancock road
is shown on Attachment 1 of Exhibit 4 to Plaintiff ’s
Amended Complaint and incorporated herein.
39. The Swallow Park/Park Wash road, North Swag
road, and Nipple Lake roads are located in western
Kane County.

320a
40. The Swallow Park/Park Wash road crosses private and public lands within Township 39 and 40 South,
Range 2 West, S.L.M. The North Swag road and the
Nipple Lake roads cross public lands within Township
40 South, Range 2 and 3 West, S.L.M. The course and
location of the Swallow Park/Park Wash road and the
North Swag road are shown on Exhibit 5A attached and
incorporated herein. The course and location of the
Nipple Lake road is shown on Attachment 1 to Exhibit
6 to Plaintiff ’s Amended Complaint and incorporated
herein. The four Cave Lakes roads are located in
southwestern Kane County.
41. The four Cave Lakes roads cross public lands
within Township 42 South, Range 7 West, S.L.M. The
course and location of the four Cave Lakes roads are
shown on Exhibit 7A to Plaintiff ’s Amended Complaint
and incorporated herein. As shown in Exhibit 7A, these
roads are also designated RD130016, RD130017, RD131143
and RD121144.
42. The surveyed centerline of the Bald Knoll, Mill
Creek, Swallow Park/Park Wash, North Swag and Cave
Lakes roads are shown on maps of each road attached
as Exhibits 1A, 5A and 7A, respectively, and were plotted using NAD83 mapping grade Global Positioning
Survey (“GPS”) data collected by Kane County road
personnel. This centerline data has been verified, confirmed by on the ground inspection and reference to pre1976 aerial photography, and overlaid upon United States
Geological Survey topographic maps.
43. The surveyed centerline of the Skutumpah, Sand
Dune, Hancock, and Nipple Lake roads are shown on
maps of each road attached as Attachment 1 to Exhibits

321a
2 (Skutumpah), 3 (Sand Dune), 4 (Hancock), and 6 (Nipple Lake) to Plaintiff ’s Amended Complaint and incorporated herein. The information and documentation
relevant to the Skutumpah, Sand Dune, Hancock, and
Nipple Lake roads was collected by Kane County personnel and compiled by the State of Utah pursuant to
UTAH CODE ANN. § 72-5-309—310.
44. The road segments claimed herein for the Bald
Knoll, Mill Creek, Skutumpah, Sand Dune, and Swallow
Park/Park Wash and described in the GPS data, attached hereto as Exhibits 1A (Mill Creek and Bald
Knoll), 2 (Skutumpah), 3 (Sand Dune), and 5B (Swallow
Park/Park Wash), include only those portions of the
roads crossing public lands. The segments of these
roads crossing private or SITLA lands are not at issue,
are not contested, and are not claimed herein.
FIRST CAUSE OF ACTION — QUIET TITLE
MILL CREEK ROAD

45. The State of Utah incorporates herein and realleges each of the foregoing paragraphs.
Description of Mill Creek Road R.S. 2477 Right-of-Way.

46. The Mill Creek road is designated as Kane County
road number K4400. The Mill Creek road claimed herein
includes segments also known as the Tenny Creek road
K4410 and the Oak Canyon road K4405. See Exhibit
1A. to Plaintiff ’s Amended Complaint and incorporated
herein
47. The south end of the Mill Creek road K4400 commences at its intersection with the Skutumpah road on
private land in the NW quarter of section 5, Township
41 South, Range 4.5 West, S.L.M., and proceeds in a northerly direction a little over six miles to its end at three

322a
gates on private property in the SWSE of section 34,
Township 39 South, Range 4.5 West, in the NWNE of
section 5, Township 40 South, Range 4.5 West, S.L.M.,
and in the SESW of section 6, Township 40 South, Range
4.5 West, S.L.M. See Exhibit 1A to Plaintiff ’s Amended
Complaint and incorporated herein.
48. The specific right-of-way for the Mill Creek road
on public lands claimed herein includes:
a. K4400 Segment 1, consisting of .44 miles more or
less commencing in the NESE of section 29, Township
40 South, Range 4.5 West, S.L.M., and ending in the
SENE of section 29, Township 40 South, Range 4.5
West, S.L.M. The NAD83 mapping grade GPS data
plotting the centerline and course of the Mill Creek road
K4400 Segment 1 right-of-way claimed herein is attached as Exhibit 1B to Plaintiff ’s Amended Complaint
and incorporated herein.
b. K4400 Segment 2, consisting of 4.01 miles more or
less commencing in the SENE of section 20, Township
40 South Range 4.5 West, S.L.M., proceeding northerly
across sections 20, 17, 8, 5 and 6, and ending at a gate on
private property in the SWSE of section 34, Township
39 South, Range 4.5 West, S.L.M. The NAD83 mapping grade GPS data plotting the precise centerline
course of the Mill Creek road K4400 Segment 2 right-ofway claimed herein is attached hereto as Exhibit 1C to
Plaintiff ’s Amended Complaint and incorporated herein.
c. K4410 Segment 3, also known as the Tenny Creek
road, consisting of .4705 miles more or less commencing
at its intersection with the previously described main
Mill Creek road K4400 Segment 2 in the SWSE of section 5, Township 40 South, Range 4.5 West, S.L.M., and

323a
proceeding north to its end at a gate on private property
in the NWNE of section 5, Township 40 South, Range
4.5 West., S.L.M. The NAD83 mapping grade GPS data
plotting the centerline course of this segment of rightof-way claimed herein is attached hereto as Exhibit 1D
to Plaintiff ’s Amended Complaint and incorporated
herein.
d. K4405 Segment 4, also known as the Oak Canyon
road, consisting of .6629 miles more or less commencing
at its intersection with the previously described main
Mill Creek road K4400 Segment 2 in the SENE of section 6, Township 40 South, Range 4.5 West, S.L.M., and
proceeding southwesterly to its end at a gate on private
property in the SESW of section 6, Township 40 South,
Range 4.5 West., S.L.M. The NAD83 mapping grade
GPS data plotting the centerline course of this segment
of right-of-way claimed herein is attached hereto as Exhibit 1E to Plaintiff ’s Amended Complaint and incorporated herein.
49. The Mill Creek road K4400 Segment 1 and 2 provide access across public lands and access to private
property that was conveyed into private ownership by
the United States on June 10, 1937.
50. The Mill Creek road K4410 Segment 3, also
known as the Tenny Creek road, provides access across
public lands and access to private property that was conveyed into private ownership by the United States on
March 23, 1923.
51. The Mill Creek road K4405 Segment 4, also known
as the Oak Canyon road, provides access across public
lands and access to private property that was conveyed

324a
into private ownership by the United States on August
8, 1957.
52. The right-of-way for the Mill Creek road claimed
herein includes K4400 Segments 1 and 2, K4410 Segment 3, and K4405 Segment 4 on public lands owned by
the United States. An enhanced detail map plotting
the GPS centerline of the intersection and course of
K4400 Segment 2, K4410 Segment 3, and K4405 Segment 4 is attached as Exhibit 11 and incorporated
herein.
53. The right-of-way for the Mill Creek road claimed
herein on public lands includes that which is reasonable
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting Mill Creek Road R.S. 2477 Right-of-Way

54. The specific length, course and location of Kane
County’s Mill Creek road have long appeared on United
States Geological Survey (“USGS”) maps.
55. The entire Mill Creek road (including each of the
specific segments claimed herein) has appeared on a
USGS Skutumpah Creek, Utah 7.5 minute quadrangle
map since at least 1966 (as surveyed in 1964). A copy of
this map is attached as Exhibit 12 to Plaintiff ’s Amended
Complaint and incorporated herein. This attached
map includes Kane County’s former road numbering
designations for the Mill Creek road, which are #216,
#214, and #546.
56. The northernmost end of the Mill Creek road
further appears on a United States Department of Agriculture Dixie National Forest map dated 1963.

325a
57. Pre-1976 aerial photography confirms the historical existence of the Mill Creek road as located on the
land and following its historical course. More recent
aerial photography continues to show the road as it has
historically existed.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

58. Prior to October 21, 1976, Kane County, the State
of Utah and the public accepted the congressional grant
of an R.S. 2477 public highway right-of-way for the Mill
Creek road on unreserved public lands as set forth
herein. This grant of a right-of-way includes access to
the road.
59. The public highway right-of-way accepted and
perfected for the Mill Creek road includes K4400 Segment 1, K4400 Segment 2, K4410 Segment 3, and K4405
Segment 4 as described herein on lands owned by the
United States.
60. The scope of the public highway right-of-way accepted and perfected for the Mill Creek road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein). All of Kane County’s
proposed improvements to the Mill Creek road are
within the scope of its public highway right-of-way for
the Mill Creek road.
61. The entire Mill Creek road (including the specific segments claimed herein) was officially designated
as a Kane County highway on Kane County’s General
Highway map in 1965.

326a
62. Segments of the Mill Creek road appear on earlier Kane County General Highway maps, including
those published in 1956. However, the entirety of the
Mill Creek road was first designated as a county highway on the 1965 Kane County General Highway map.
63. Kane County’s designation of the Mill Creek
road as a county road in 1965 confirmed that these roads
were accepted “as county roads . . . under the jurisdiction and control of the county commissioners” of
Kane County. UTAH CODE ANN. § 27-12-22 (1963).
64. Kane County, the State of Utah and the general
public designated and accepted this county road and the
R.S. 2477 right-of-way no later than 1965, and thereafter
continued to construct, maintain and improve the Mill
Creek road using public funds pursuant to the governmental authority of the Kane County Commission.
65. From at least the 1960’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Mill Creek road and installed culverts, water
bars, and cattle guards on them using public funds.
The location of some of these cattle guards and culverts
are shown on Exhibit 1A. From at least the 1960’s and
continuing past 1976, Kane County road crews conducted routine maintenance of this road generally twice
a year and regularly repaired those sections of the road
that are prone to washouts and headcutting.
66. Kane County’s designation of the Mill Creek
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1965
constituted formal acceptance of the congressional grant

327a
of R.S. 2477 right-of-way for this public highway pursuant to State law codified in UTAH CODE ANN. § 27-12-22
(1963).
67. In 1977, the United States Bureau of Land Management and Kane County signed a memorandum confirming that county roads, including the Mill Creek
road, included a right-of-way width of 66 feet.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

68. The Mill Creek road has long served as a public
highway providing access across public lands and to land
conveyed into private ownership in 1937 (K4400 Segments 1 and 2), 1923 (K4410 Segment 3), and 1957
(K4405 Segment 4).
69. Witnesses with personal knowledge of the history of the Mill Creek road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least the 1940’s consisting
of general public travel for purposes of accessing private
land, mineral exploration, hunting, livestock operations,
wood gathering, camping, and recreation, and continuing through 1976 and to the present.
70. Witnesses with personal knowledge of the history of the Mill Creek road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of car, jeep, 2-ton trucks,
cattle trucks, pickup trucks, team and wagon, and bicycles.
71. The reputation in the community is that the Mill
Creek road has been open for all to come and go as they
please since at least as early as the 1930’s and continuing
through the present.

328a
72. The Mill Creek road was used on a continuous
and nonexclusive basis as public thoroughfare for decades prior to October 21, 1976.
73. The Mill Creek road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
74. Public motor vehicle use of the Mill Creek road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of R.S. 2477 public highway right-of-way for
the Mill Creek road.
75. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Mill Creek road described herein.
SECOND CAUSE OF ACTION — QUIET TITLE
BALD KNOLL ROAD

76. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 75.
Description of Bald Knoll Road R.S. 2477 Right-of-Way

77. The Bald Knoll road is designated as Kane County
road K3935. See Exhibit 1A to Plaintiff ’s Amended
Complaint, incorporated herein.
78. The Bald Knoll road has at times been referred
to as the “Coal Road” or mislabeled as the “Thompson
Creek Road”. The west end of the Bald Knoll road

329a
commences in the NENW of section 3, Township 41
South, Range 5 West, S.L.M., at the boundary of private
land and proceeds northwesterly across public lands to
the intersection of the main Bald Knoll road in the
SWSE of section 34, Township 40 South, Range 5 West,
S.L.M. From this intersection, the Bald Knoll road
travels northerly and then easterly to its end at an intersection with the Mill Creek road K4400 Segment 2 in
the NENE of section 17, Township 40 South, Range 4.5
West, S.L.M. The total length of the Bald Knoll road
is a little over nine miles. See Exhibit 1A to Plaintiff ’s
Amended Complaint.
79. The specific right-of-way for the Bald Knoll road
K3935 on public lands claimed herein includes:
a. K3930A Segment 1 (also known as the Old Leach
Ranch Segment), consisting of .36 miles more or less
commencing in the NENW of section 3, Township 41
South, Range 5 West, S.L.M., at the boundary of private
land and ending at an intersection in the SESW of section 34, Township 40 South, Range 5 West, S.L.M. The
NAD83 mapping grade GPS data plotting the centerline
course of this segment of the right-of-way claimed
herein is attached as Exhibit 1F to Plaintiff ’s Amended
Complaint and incorporated by reference.
b. K3935 Segment 2 consisting of 3.29 miles more or
less commencing at an intersection in the SESW of section 34, Township 40 South, Range 5 West, S.L.M., and
ending at the boundary of private property in the
NWNE of section 22, Township 40 South, Range 5 West,
S.L.M. The NAD83 mapping grade GPS data plotting
the centerline course of this segment of the right-of-way
claimed herein is attached as Exhibit 1G to Plaintiff ’s
Amended Complaint and incorporated by reference.

330a
c. K3935 Segment 3 consisting of .24 miles more or
less commencing at the boundary of private property in
the NENE of section 22, Township 40 South, Range 5
West, S.L.M., and ending at the boundary of private
property in the SESE of section 15, Township 40 South,
Range 5 West, S.L.M. The NAD83 mapping grade
GPS data plotting the centerline course of this segment
of the right-of-way claimed herein is attached as Exhibit
1H to Plaintiff ’s Amended Complaint and incorporated
by reference.
d. K3935 Segment 4 consisting of 5.15 miles more or
less commencing at the boundary of private property in
the SWSW of section 14, Township 40 South, Range 5
West, S.L.M., and ending at its intersection with the
Mill Creek road K4400 Segment 2 in the NENE of section 17, Township 40 South, Range 4.5 West, S.L.M.
The NAD83 mapping grade GPS data plotting the centerline course of this segment of the right-of-way claimed
herein is attached as Exhibit 1J to Plaintiff ’s Amended
Complaint and incorporated by reference.
80. The parcel of private property accessed by Bald
Knoll road K3935 Segments 2 and 3, and from which
K3935 Segment 4 departs, was conveyed into private
ownership by the United States on October 23, 1928.
81. The right-of-way for the Bald Knoll road claimed
herein includes K3930A Segment 1, K3935 Segment 2,
K3935 Segment 3, and K3935 Segment 4 on public lands
owned by the United States.
82. The right-of-way for the Bald Knoll road claimed
herein on public lands includes that which is reasonable
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet

331a
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Bald Knoll Road R.S. 2477 Right-ofWay

83. The specific length, course and location of Kane
County’s Bald Knoll road have long appeared on USGS
maps.
84. The entire Bald Knoll road (including each of the
specific segments claimed herein) has appeared on the
Skutumpah Creek map (Exhibit 12 to Plaintiff ’s Amended
Complaint) and on the USGS Bald Knoll, Utah 7.5 minute quadrangle map since at least 1966 (as surveyed in
1964). A copy of the Bald Knoll map is attached as Exhibit 13 to Plaintiff ’s Amended Complaint and incorporated by reference. The Bald Knoll map includes Kane
County’s former road numbering designations for the
Bald Knoll road, which are #500, #515, #514 and #513.
85. Of particular note, the 1966 Bald Knoll map (Exhibit 13) specifically shows the historical existence and
course of K3930A Segment 1 (also known as the Old
Leach Ranch Segment), as commencing in section 3,
Township 41 South, Range 5 West, S.L.M., and proceeding northwesterly as former Kane County road number
500 to its intersection with former Kane County road
number 515 in section 34, Township 40 South, Range 5
West, S.L.M.
86. Pre-1976 aerial photography confirms the historical existence of the Bald Knoll road as located on the
land and following its historic course. More recent aerial photography continues to show this road as it has historically existed.

332a
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

87. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Bald Knoll road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
88. The public highway right-of-way accepted and
perfected for the Bald Knoll road includes K3930A Segment 1, K3935 Segment 2, K3935 Segment 3, and K3935
Segment 4 on lands owned by the United States.
89. The scope of the public highway right-of-way accepted and perfected for the Bald Knoll road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein). All of Kane County’s
proposed improvements to the Bald Knoll road are within
the scope of its public highway right-of-way for the Bald
Knoll road.
90. The entire Bald Knoll road (including the specific segments claimed herein) was officially designated
as a Kane County general highway on Kane County’s
General Highway map in 1965. 1
91. Kane County’s designation of the Bald Knoll road
as a county road by 1965 confirmed that this road was
Portions of K3935 Segment 2, 3 and 4 were improperly drawn on
Kane County’s General Highway maps in 1965 as an apparent carryover mapping error from a similar 1956 map. These mapping errors have since been confirmed and corrected.
1

333a
accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of
Kane County. UTAH CODE ANN. § 27-12-22 (1963).
92. Kane County designated and accepted this county
road and its R.S. 2477 right-of-way no later than 1965,
and thereafter continued to construct, maintain and improve the Bald Knoll road using public funds pursuant
to the governmental authority of the Kane County Commission.
93. From at least the 1960’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Bald Knoll road and installed culverts, water
bars, and cattle guards on it using public funds. The
location of some of these cattle guards and culverts are
shown on Exhibit 1A. From at least the 1960’s and continuing past 1976, Kane County road crews conducted
routine maintenance of this road generally twice a year
and regularly repaired sections of the road that are
prone to washouts and headcutting.
94. Kane County’s designation of the Bald Knoll
road as a Kane County road and expenditure of public
funds on this road on or before 1965 constituted formal
acceptance of the congressional grant of R.S. 2477
rights-of-way for this public highway pursuant to State
law codified in UTAH CODE ANN. § 27-12-22 (1963).
95. In 1977, the United States Bureau of Land Management and Kane County signed a memorandum confirming that county roads, including the Bald Knoll road
(then designated as the Thompson Creek road), included
a right-of-way width of 66 feet.

334a
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

96. The Bald Knoll road has long served as a public
highway providing access across public lands and to land
conveyed into private ownership in 1928.
97. Witnesses with personal knowledge of the history of the Bald Knoll road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least 1942 consisting of
general public travel for purposes of accessing private
land, mining and mineral exploration, hunting, livestock
operations, wood gathering, camping, and recreation continuing through 1976 to the present.
98. Witnesses with personal knowledge of the history of the Bald Knoll road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of horse, all terrain vehicle, car, jeep, 2-ton trucks, semi-truck, D-9 Cat, tractor,
cattle truck, and pickup truck.
99. The reputation in the community is that the Bald
Knoll road has been open for all to come and go as they
please since at least the early 1900’s and continuing
through the present.
100. The Bald Knoll road was used on a continuous
and nonexclusive basis as public thoroughfare for decades prior to October 21, 1976.
101. The Bald Knoll road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices

335a
that protect the public, the road, and prevent undue degradation of the adjacent land.
102. Public motor vehicle use of the Bald Knoll road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of a R.S. 2477 public highway right-of-way for
the Bald Knoll road.
103. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Bald Knoll road described herein.
THIRD CAUSE OF ACTION — QUIET TITLE
SKUTUMPAH ROAD

104. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 103.
Description of Skutumpah Road R.S. 2477 Right-of-Way

105. The Skutumpah road is designated as Kane
County road number K5000. See Exhibit 2 to Plaintiff ’s Amended Complaint, incorporated by reference.
106. The Skutumpah road K5000 commences at the
intersection of the Skutumpah road and Kane County
road number K3000 in the NESE of section 11, Township 41 South, Range 5 S.L.M., and proceeds in a northeasterly direction, approximately 32.73 miles, to where
it ends in the SENW of section 6, Township 38 South,
Range 2 West, S.L.M. See Attachment 1 to Exhibit 2
to Plaintiff ’s Amended Complaint.
107. The specific right-of-way for the Skutumpah
road claimed herein includes seven (7) separate segments on public lands, see Attachment 4 of Exhibit 2 to

336a
Plaintiff ’s Amended Complaint, specifically described
therein, and as follows:
a.

Segment 1 of the Skutumpah road is approximately 2.61 miles;

b.

Segment 3 of the Skutumpah road is approximately 7.33 miles;

c.

Segment 5 of the Skutumpah road is approximately .27 miles;

d.

Segment 7 of the Skutumpah road is approximately 3.73 miles;

e.

Segment 9 of the Skutumpah road is approximately 2.01 miles;

f.

Segment 11 of the Skutumpah road is approximately 6.84 miles;

g.

Segment 13 of the Skutumpah road is approximately 5.43 miles;

108. The right-of-way for the Skutumpah road claimed
herein on public lands includes that which is reasonable
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Skutumpah Road R.S. 2477 Right-ofWay

109. The specific length, course and location of Kane
County’s Skutumpah road have long appeared on USGS
maps.
110. The southernmost end of the Skutumpah road
has appeared on a USGS Skutumpah Creek, Utah 7.5

337a
minute quadrangle map since at least 1966 (as surveyed
in 1964). See Exhibit 12 to Plaintiff ’s Amended Complaint. This attached map includes Kane County’s former road numbering designations for the Skutumpah
road, which is #50. The remainder of the Skutumpah
road has appeared on the USGS Deer Springs Point,
Utah 7.5 minute quadrangle map dated 1966, the USGS
Rainbow Point, Utah 7.5 minute quadrangle map dated
1966, the USGS Bull Valley Gorge, Utah 7.5 minute
quadrangle map dated 1966, and the USGS Cannonville,
Utah 7.5 minute quadrangle map dated 1966. Copies
of these maps are attached as Exhibits 14-17, to Plaintiff ’s Amended Complaint and incorporated by reference.
111. The Skutumpah road has appeared on Kane
County General Highway Maps as a county highway
since at least 1950.
112. In addition, the entire Skutumpah road has appeared on the Froiseth’s Territory of Utah Map dated
1878.
113. Pre-1976 aerial photography confirms the historical existence of the Skutumpah road as located on
the land and following its historical course. More recent aerial photography continues to show this road as
it has historically existed.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

114. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Skutumpah road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.

338a
115. The public highway right-of-way accepted and
perfected for the Skutumpah road includes the seven (7)
segments claimed herein on lands owned by the United
States. See Exhibit 2 to Plaintiff ’s Amended Complaint.
116. The scope of the public highway right-of-way
accepted and perfected for the Skutumpah road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
right-of-way width of 66 feet (33 feet from the centerline
descriptions provided herein).
117. The entire Skutumpah road (including the specific segments claimed herein) was officially designated
as a Kane County highway on Kane County’s General
Highway map as early as 1950.
118. Kane County’s designation of the Skutumpah
road as a county road as early as 1950 confirmed that
this road was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of Kane County. UTAH CODE ANN. § 27-12-22
(1963).
119. Kane County designated and accepted the Skutumpah road as a county road and the R.S. 2477 rightof-way no later than 1950, and thereafter continued to
construct, maintain and improve the Skutumpah road
using public funds pursuant to the governmental authority of the Kane County Commission.
120. From at least the 1950’s and prior to 1976, Kane
County road personnel constructed, maintained and improved the Skutumpah road and installed culverts, water bars, and cattle guards on it using public funds.

339a
From at least the 1950’s and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road several times each year and regularly repair
sections of the road that become worn, potholed, and
washboarded. Some sections of the Skutumpah road
are prone to washouts that require regular repairs.
121. Kane County’s designation of the Skutumpah
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1950
constituted formal acceptance of the congressional grant
of an R.S. 2477 right-of-way for this public highway pursuant to State law codified in UTAH CODE ANN. § 27-1222 (1963).
122. In 1977, the United States Bureau of Land Management and Kane County signed a memorandum confirming that county roads, including the Skutumpah
road, included a right-of-way width of 66 feet.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

123. The Skutumpah road has long served as a public highway providing access across public lands and to
land conveyed into private ownership.
124. Witnesses with personal knowledge of the history of the Skutumpah road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back to at least 1942 consisting of
general public travel for purposes of general travel, accessing private land, mining and mineral exploration,
hunting, livestock operations, wood gathering, camping,
and recreation continuing through 1976 and to the present.

340a
125. Witnesses with personal knowledge of the history of the Skutumpah road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of car, jeeps and other four
wheel drive vehicles, ATV’s, team & wagon, sheep
wagon, horse back, bicycles, cattle trucks, motor homes,
maintenance vehicles, and road graders.
126. The reputation in the community is that the
Skutumpah road has been open for all to come and go as
they please since at least as early as the late 1800’s and
continuing through the present.
127. The Skutumpah road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
128. The Skutumpah road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
129. Public motor vehicle use of the Skutumpah road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of an R.S. 2477 public highway right-of-way
for the Skutumpah road.
130. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Skutumpah road described herein.

341a
FOURTH CAUSE OF ACTION — QUIET TITLE
SAND DUNE ROAD

131. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 130.
Description of Sand Dune Road R.S. 2477 Right-of-Way

132. The Sand Dune road is designated as Kane
County road number K1000. See Exhibit 3 to Plaintiff ’s Amended Complaint and incorporated by reference herein.
133. The Sand Dune road K1000 commences at the
southern border of the State of Utah near the SWNW of
section 9, Township 44 South, Range 9, S.L.M., and proceeds in a northeasterly direction, approximately 19.96
miles, to where it ends upon intersecting with Utah
State Highway 89 in the NWSE of section 5, Township
42 South, Range 7 West, S.L.M. See Attachment 1 to
Exhibit 3 to Plaintiff ’s Amended Complaint.
134. The specific right-of-way for the Sand Dune
road claimed herein includes ten (10) separate segments
on public lands, see Attachment 4 of Exhibit 3 to Plaintiff ’s Amended Complaint, specifically described therein,
and as follows:
a.

Segment 1 of the Sand Dune road is approximately 2.41 miles;

b.

Segment 3 of the Sand Dune road is approximately .15 miles;

c.

Segment 5 of the Sand Dune road is approximately .99 miles;

d.

Segment 7 of the Sand Dune road is approximately .81 miles;

342a
e.

Segment 9 of the Sand Dune road is approximately .04 miles;

f.

Segment 11 of the Sand Dune road is approximately .06 miles;

g.

Segment 13 of the Sand Dune road is approximately 2.57 miles;

h.

Segment 15 of the Sand Dune road is approximately 6.33 miles;

i.

Segment 16 of the Sand Dune road is approximately .19 miles; and

j.

Segment 17 of the Sand Dune road is approximately .29 miles.

135. The right-of-way for the Sand Dune road claimed
herein on public lands includes that which is reasonable
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Sand Dune Road R.S. 2477 Right-ofWay

136. The specific length, course and location of Kane
County’s Sand Dune road have long appeared on USGS
maps.
137. The northernmost portions of the Sand Dune
road have appeared on a USGS Kanab, Utah 15 minute
topographic map since at least 1957. A copy of this
map is attached as Exhibit 18 to Plaintiff ’s Amended
Complaint and incorporated herein. In addition, the
center portion of the Sand Dune road has also appeared
on a USGS Yellowjacket Canyon, Utah-Ariz. 7.5 minute

343a
quadrangle map since at least 1985. A copy of this map
is attached as Exhibit 19 to Plaintiff ’s Amended Complaint and incorporated herein. The southernmost section of the Sand Dune road has appeared on USGS Elephant Butte, Utah 7.5 quadrangle map since at least
1980. A copy of this map is attached as Exhibit 20 to
Plaintiff ’s Amended Complaint and incorporated
herein. These USGS maps include Kane County’s former road numbering designation for the Sand Dune
Road, which is #740.
138. The Sand Dune road has appeared on a Kane
County General Highway map as early as 1950 as a
county highway.
139. Pre-1976 aerial photography confirms the historical existence of the Sand Dune road as located on the
land and substantially following its historical course.
More recent aerial photography continues to show this
road as it historically existed.
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

140. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Sand Dune road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
141. The public highway right-of-way accepted and
perfected for the Sand Dune road includes the road as
claimed herein. See Exhibit 3 to Plaintiff ’s Amended
Complaint.
142. The scope of the public highway right-of-way
accepted and perfected for the Sand Dune road includes
that which is reasonable and necessary to ensure safe

344a
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a
minimum right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
143. The entire Sand Dune road was officially designated as a Kane County highway on Kane County’s General Highway map as early as 1950.
144. Kane County’s designation of the Sand Dune
road as a county road as early as 1950 confirmed that
this road was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of Kane County. UTAH CODE ANN. § 27-12-22
(1963).
145. Kane County designated and accepted the Sand
Dune road as a county road and its R.S. 2477 right-ofway no later than 1950, and thereafter continued to construct, maintain and improve the Sand Dune road using
public funds pursuant to the governmental authority of
the Kane County Commission.
146. From at least the 1950’s and prior to 1976, Kane
County road personnel constructed, maintained, and improved the Sand Dune road and installed culverts, water
bars, and cattle guards on it using public funds. From
at least the 1950’s, Kane County road crews conducted
routine maintenance of this road generally twice a year
and regularly repaired sections of the road. In the
1960’s, Kane County paved the northern half of the Sand
Dune road, and later paved the entire length of this
road. The Sand Dune road continues to serve as a high
speed Kane County public highway.

345a
147. Kane County’s designation of the Sand Dune
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1950
constituted formal acceptance of the congressional
grant of an R.S. 2477 right-of-way for this public highway pursuant to State law codified in UTAH CODE ANN.
§ 27-12-22 (1963).
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

148. The Sand Dune road has long served as a public
highway providing access across public lands, to other
Kane County roads, to the State of Arizona, and to land
conveyed into private ownership.
149. Witnesses with personal knowledge of the history of the Sand Dune road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back as early as the early 1950’s consisting of general public travel and for purposes of mining and mineral exploration, hunting, livestock operations, wood gathering, post cutting, camping, tourism,
movie production and recreation continuing through
1976 and to the present.
150. Witnesses with personal knowledge of the history of the Sand Dune road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of jeeps, ATV’s, automobiles, trucks, cattle trucks, semi-trucks, maintenance vehicles, commercial vehicles, motorcycles, road maintenance
vehicles, sheep wagons, horse and cattle, and drilling
rigs.
151. The reputation in the community is that the
Sand Dune road has been open for all to come and go as

346a
they pleased since at least as early as the late 1800’s and
continuing through the present.
152. The Sand Dune road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
153. The Sand Dune road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
154. Public motor vehicle use of the Sand Dune road
as a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of R.S. 2477 public highway rights-of-way for
the Sand Dune road.
155. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Sand Dune road described herein.
FIFTH CAUSE OF ACTION — QUIET TITLE
HANCOCK ROAD

156. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 155.
Description of Hancock Road R.S. 2477 Right-of-Way

157. The Hancock road is designated as Kane County
road number K1100. See Exhibit 4 to Plaintiff ’s Amended Complaint and incorporated by reference herein.

347a
158. The Hancock road K1100 commences where it
intersects the Sand Dune road in the SENE of section
14, Township 43 South, Range 8 West, S.L.M., and proceeds in a northeasterly direction, approximately 9.43
miles, to where it ends upon intersecting with Utah
State Highway 89 in the SENW of section 19, Township
42 South, Range 6 West, S.L.M. See Attachments 1 and
3 of Exhibit 4 to Plaintiff ’s Amended Complaint.
159. The specific right-of-way for the Hancock road
on public lands claimed herein is fully described in Attachment 4 of Exhibit 4, as well as Appendix A to Attachment 4 to Plaintiff ’s Amended Complaint.
160. The right-of-way for the Hancock road claimed
herein on public lands includes that which is reasonable
and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width of 66 feet
(33 feet from the centerline descriptions provided
herein).
Maps Depicting the Hancock Road R.S. 2477 Right-ofWay

161. The specific length, course and location of Kane
County’s Hancock road have long appeared on USGS
maps.
162. The northernmost portions of the Hancock road
have appeared on a USGS Kanab, Utah 15 minute topographic map since at least 1957. See Exhibit 18 to Plaintiff ’s Amended Complaint, incorporated herein. In addition, the southern portion of the Hancock road has also
appeared on USGS Yellowjacket Canyon, Utah-Ariz. 7.5
minute quadrangle map since at least 1985. See Exhibit 19 to Plaintiff ’s Amended Complaint, incorporated
herein. These attached maps include Kane County’s

348a
former road numbering designation for the Hancock
road, which is #788.
163. All but the most southern portion of the Hancock road, where it intersects the Sand Dune road, has
appeared on a Kane County General Highway map as
early as 1950 as a county highway.
164. The entire Hancock road has appeared on a
Kane County General Highway map as early as 1965 as
a county highway.
165. Pre-1976 aerial photography confirms the historical existence of the Hancock road as located on the
land and following its historical course. More recent
aerial photography continues to show this road as it historically existed.
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
Prior to October 21, 1976.

166. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Hancock road on unreserved public lands as set forth herein. This grant of
a right-of-way includes access to the road.
167. The public highway right-of-way accepted and
perfected for the Hancock road includes the road as
claimed herein. See Exhibit 4 to Plaintiff ’s Amended
Complaint.
168. The scope of the public highway right-of-way
accepted and perfected for the Hancock road includes
that which is reasonable and necessary to ensure safe
travel and passage of vehicles on a two lane road according to applicable AASHTO standards. This includes a

349a
minimum right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
169. The entire Hancock road was officially designated as a Kane County highway on Kane County’s General Highway map as early as 1965.
170. Kane County’s designation of the Hancock road
as a county road as early as 1965 confirmed that this
road was accepted “as [a] county road[] . . . under
the jurisdiction and control of the county commissioners” of Kane County. UTAH CODE ANN. § 27-12-22
(1963).
171. Kane County designated and accepted the Hancock road as a county road crossing an R.S. 2477 rightof-way no later than 1965, and thereafter continued to
construct, maintain and improve the Hancock road using public funds pursuant to the governmental authority
of the Kane County Commission.
172. From at least the mid-1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the Hancock road using public funds.
From at least the 1960’s and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road generally twice a year and regularly repaired
sections of the road that wore down or became damaged.
In the 1990’s, Kane County paved the entire length of
the Hancock road.
173. Kane County’s designation of the Hancock road
as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1965 constituted formal acceptance of the congressional grant of

350a
an R.S. 2477 right-of-way for this public highway pursuant to State law codified in UTAH CODE ANN. § 27-12-22
(1963).
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
By Public Use Prior to 1976.

174. The Hancock road has long served as a public
highway providing access across public lands, to other
Kane County roads, to private property and to the State
of Arizona.
175. Witnesses with personal knowledge of the history of the Hancock road confirm public use on a continuous basis for more than ten years prior to October 21,
1976 and dating back as early as the early 1960’s consisting of general public travel for purposes of road
maintenance, hunting, livestock operations, rock hounding, sightseeing, camping, and recreation continuing
through 1976 to the present. The road was also traveled by government employees.
176. Witnesses with personal knowledge of the history of the Hancock road confirm public use of the road
on a continuous basis for more than ten years prior to
October 21, 1976 by means of automobiles, jeeps, ATV’s,
motor homes, maintenance vehicles, commercial trucks,
pickup trucks, cattle trucks and Kane County road
equipment, i.e. trucks and graders.
177. The reputation in the community is that the
Hancock road has been open for all to come and go as
they pleased since at least the early 1900’s and continuing through the present.
178. The Hancock road was used on a continuous and
nonexclusive basis as a public thoroughfare for decades
prior to October 21, 1976.

351a
179. The Hancock road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
180. Public motor vehicle use of the Hancock road as
a public thoroughfare traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of an R.S. 2477 public highway right-of-way
for the Hancock road.
181. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Hancock road described herein.
SIXTH CAUSE OF ACTION — QUIET TITLE
SWALLOW PARK/PARK WASH ROAD

182. Kane County incorporates herein and realleges
each of the foregoing paragraphs 1 through 181.
Description of Swallow Park/Park Wash Road R.S. 2477
Right-of-Way

183. The Swallow Park/Park Wash road is designated as Kane County road number K4360. See Exhibit 5A to Plaintiff ’s Amended Complaint, incorporated
herein by reference.
184. The Swallow Park/Park Wash road K4360 commences at the intersection of the Swallow Park/Park
Wash road and the North Swag road in the NE of section 9, Township 40 South, Range 3 West, S.L.M., and

352a
proceeds in a northwesterly direction to where it ends
upon intersecting the Skutumpah road in the center of
section 19, Township 39 South, Range 3 West, S.L.M.
See Exhibit 5A to Plaintiff ’s Amended Complaint.
185. The specific right-of-way for the Swallow Park/
Park Wash road claimed herein includes three separate
segments on public lands. These three segments of
the Swallow Park/Park Wash road are shown in red on
the centerline map of the Swallow Park/Park Wash
and North Swag road. See Exhibit 5A of Plaintiff ’s
Amended Complaint (The Swallow Park/Park Wash
road is the northern section of the road, RD130624,
shown on Exhibit 5A). The specific NAD83 mapping
grade GPS data used to plot the centerline and course of
the three segments of the Swallow Park/Park Wash
road is attached as Exhibit 5B to Plaintiff ’s Amended
Complaint and incorporated herein. The general location of each segment is as follows:
a. The southern, and longest, segment of the Swallow
Park/Park Wash road commences at the intersection of
the Swallow Park/Park Wash road with the North Swag
road in the NE quarter section of section 9, Township 40
South, Range 3 West, S.L.M. This segment of the
Swallow Park/Park wash road ends in the NE corner of
section 32 and the NW corner of Section 31, Township
39 South, Range 3 West, S.L.M.
b. The middle segment of the Swallow Park/Park
Wash road is approximately 400 feet in length and commences and ends in the center of the NE section of section 30, Township 39 South, Range 3 West, S.L.M.

353a
c. The final segment of the Swallow Park/Park Wash
road commences in the SWSE section 19, Township 39
South, Range 3 West, S.L.M.
186. The right-of-way for the Swallow Park/Park
Wash road claimed herein on public lands includes that
which is reasonable and necessary to ensure safe travel
and passage of vehicles on a two lane road, and including
a width of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Swallow Park/Park Wash R.S. 2477
Right-of-Way

187. The specific length, course and location of Kane
County’s Swallow Park/Park Wash road have long appeared on USGS maps.
188. The Swallow Park/Park Wash road has appeared on a USGS Deer Spring Point, Utah 7.5 minute
quadrangle map since at least 1966. See Exhibit 14 to
Plaintiff ’s Amended Complaint, incorporated herein.
This attached map to Plaintiff ’s Amended Complaint includes Kane County’s former road numbering designations for the Swallow Park/Park Wash road, which is
#236.
189. The northernmost section of the Swallow Park/
Park Wash road has appeared as a county highway on a
Kane County General Highway map dated 1965.
190. Pre-1976 aerial photography confirms the historical existence of the Swallow Park/Park Wash road
as located on the land and following its historical course.
More recent aerial photography continues to show this
road as it historically existed.

354a
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way Prior to October 21, 1976.

191. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Swallow Park/Park
Wash road on unreserved public lands as set forth
herein. This grant of a right-of-way includes access to
the road.
192. The public highway right-of-way accepted and
perfected for the Swallow Park/Park Wash road includes the road as claimed herein. See Exhibit 5A to
Plaintiff ’s Amended Complaint.
193. The scope of the public highway right-of-way
accepted and perfected for the Swallow Park/Park Wash
road includes that which is reasonable and necessary to
ensure safe travel and passage of vehicles on a two lane
road according to applicable AASHTO standards. This
includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
194. The northernmost portion of the Swallow Park/
Park Wash road was officially designated as a Kane
County highway on Kane County’s General Highway
map as early as 1965.
195. Kane County’s designation of the northernmost
portion of the Swallow Park/Park Wash road as a county
road as early as 1965 confirmed that this segment of the
road was accepted “as [a] county road[] . . . under
the jurisdiction and control of the county commissioners” of Kane County. UTAH CODE ANN. § 27-12-22
(1963).
196. Kane County designated and accepted the northernmost segment of the Swallow Park/Park Wash road

355a
as a county road and its R.S. 2477 right-of-way no later
than 1965, and thereafter continued to construct, maintain and improve that portion of the Swallow Park/Park
Wash road using public funds pursuant to the governmental authority of the Kane County Commission.
197. From at least the mid-1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the northernmost segment of the Swallow
Park/Park Wash road using public funds. From at least
the mid-1960’s and continuing past 1976, Kane County
road crews conducted routine maintenance of this road
segment generally twice a year.
198. Kane County’s designation of the Swallow
Park/Park Wash road as a Kane County road (General
Highways) and expenditure of public funds on this road
on or before 1965 constituted formal acceptance of the
congressional grant of R.S. 2477 rights-of-way for this
public highway pursuant to State law codified in UTAH
CODE ANN. § 27-12-22 (1963).
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way By Public Use Prior to 1976.

199. The entire length of the Swallow Park/Park Wash
road has long served as a public highway providing access across public lands and to land conveyed into private ownership.
200. Witnesses with personal knowledge of the history of the Swallow Park/Park Wash road confirm public
use on a continuous basis for more than ten years prior
to October 21, 1976 and dating back as early as the late
1940’s consisting of general public travel for purposes of
road maintenance, hiking, hunting, to access private

356a
property, installation and maintenance of a water pipeline, livestock operations, logging, wood gathering, trapping, post cutting, sightseeing, camping, and recreation.
The road was also traveled by government employees.
201. Witnesses with personal knowledge of the history of the Swallow Park/Park Wash road confirm public
use of the road on a continuous basis for more than ten
years prior to October 21, 1976 by means of mountain
bikes, horse, truck, camping trailers, logging equipment, road maintenance equipment, recreational vehicles, automobiles, pickup trucks, cattle trucks, Kane
County road equipment, i.e. trucks and graders.
202. The reputation in the community is that the
Swallow Park/Park Wash road was open for all to come
and go as they please since as early as the 1900’s. Upon
information and belief, public travel on this road continued or continues, despite this road being designated as
a road available for BLM administrative purposes in the
Plan in 2000.
203. The Swallow Park/Park Wash road was used on
a continuous and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
204. The Swallow Park/Park Wash road traverses a
valid and perfected R.S.2477 public highway right-ofway sufficient in scope for vehicle travel and includes
that which is reasonable and necessary to meet the exigencies of these types of travel according to safe engineering practices that protect the public, the road, and
prevent undue degradation of the adjacent land.
205. Public motor vehicle use of the Swallow Park/
Park Wash road as a public thoroughfare traversing unreserved public lands on a continuous basis for a period

357a
in excess of ten years prior to October 21, 1976 confirms
acceptance of the grant of an R.S. 2477 public highway
right-of-way for the Swallow Park/Park Wash road.
206. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Swallow Park/Park
Wash road described herein.
SEVENTH CAUSE OF ACTION — QUIET TITLE
NORTH SWAG ROAD

207. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 206.
Description of North Swag Road R.S. 2477 Right-of-Way

208. The North Swag road is designated as Kane
County road number K4370.
209. The North Swag road K4370 commences at the
intersection of the Kitchen Corral road, Kane County
road number 4200, in the SWNW section 30, Township
40 South, Range 2 West, S.L.M., and proceeds in a
northwesterly direction to where it ends upon intersecting the Swallow Park/Park Wash road in the NE of section 10, Township 40 South, Range 3 West, S.L.M.
210. The specific right-of-way for the North Swag
road claimed herein is shown in red on the centerline
map of the Swallow Park/Park Wash and North Swag
road. See Exhibit 5A to Plaintiff ’s Amended Complaint,
incorporated by reference herein (The North Swag road
is the southern section of the road, RD130626, shown on
Exhibit 5A). The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the North
Swag road is attached as Exhibit 5C to Plaintiff ’s

358a
Amended Complaint and incorporated by reference
herein.
211. The right-of-way for the North Swag road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the North Swag Road R.S. 2477 Right-ofWay

212. The specific length, course and location of Kane
County’s North Swag road have long appeared on USGS
maps.
213. The North Swag road has appeared on a USGS
Deer Range Point, Utah 7.5 minute quadrangle map
since at least 1966. A copy of this map is attached as
Exhibit 21 and incorporated herein. This attached
map includes Kane County’s former road numbering
designations for the North Swag road, which is #236.
214. Pre-1976 aerial photography confirms the historical existence of the North Swag road as located on
the land and following its historical course. More recent aerial photography continues to show this road as
it historically existed.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

215. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the North Swag road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.

359a
216. The public highway right-of-way accepted and
perfected for the North Swag road includes the road as
claimed herein. See Exhibits 5A and 5C to Plaintiff ’s
Amended Complaint.
217. The scope of the public highway right-of-way
accepted and perfected for the North Swag road includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
218. From at least the late 1940’s and prior to 1976,
the North Swag road received periodic mechanical construction and maintenance by bulldozer and grader.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

219. The North Swag road has long served as a public highway providing access across public lands, to provide access to other Kane County roads, and to access
land conveyed into private ownership.
220. Witnesses with personal knowledge of the history of the North Swag road confirm public use on a continuous basis for more than ten years prior to October
21, 1976 and dating back as early as the late 1940’s consisting of general public travel for purposes of road maintenance, hiking, hunting, to access private property, installation and maintenance of a water pipeline, livestock
operations, logging, wood gathering, trapping, post cutting, sightseeing, camping, and recreation continuing
through 1976. The road was also traveled by government employees. Upon information and belief, several

360a
of these uses continue through the present even though
this road does not appear on Map 2 of the Plan.
221. Witnesses with personal knowledge of the history of the North Swag road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of mountain bikes, horse,
truck, camping trailers, logging equipment, road maintenance equipment, recreational vehicles, automobiles,
and pickup trucks.
222. The reputation in the community is that the
North Swag road has been open for all to come and go
as they please since as early as the 1900’s and continuing
through the present.
223. The North Swag road was used on a continuous
and nonexclusive basis as a public thoroughfare for decades prior to October 21, 1976.
224. The North Swag road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
225. Public motor vehicle use of the North Swag
road as a public thoroughfare traversing unreserved
public lands on a continuous basis for a period in excess
of ten years prior to October 21, 1976 confirms acceptance of the grant of an R.S. 2477 public highway
right-of-way for the North Swag road.
226. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477

361a
public highway right-of-way for the North Swag road
described herein.
EIGHTH CAUSE OF ACTION — QUIET TITLE
NIPPLE LAKE ROAD

227. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 226.
Description of the Nipple Lake Road R.S. 2477 Right-ofWay

228. The Nipple Lake road is designated as Kane
County road number K4290. See Exhibit 6 to Kane
County’s Amended Complaint, incorporated herein by
reference.
229. The Nipple Lake road K4290 commences in the
NESW of section 30, Township 40 South, Range 2 West,
S.L.M., and proceeds in a northeasterly direction, approximately .4 miles, to where it ends at the intersection
of the North Swag road and Kane County’s Kitchen Corral road (K4200) in the SWNW section 30, Township 40
South, Range 2 West, S.L.M. See Attachment 1, 3 and
4 of Exhibit 6 to Plaintiff ’s Amended Complaint.
230. The specific right-of-way for the Nipple Lake
road on public lands claimed herein is fully described in
Appendix A to Attachment 4 of Exhibit 6 to Plaintiff ’s
Amended Complaint.
231. The right-of-way for the Nipple Lake road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).

362a
Maps Depicting the Nipple Lake Road R.S. 2477 Right-ofWay

232. The specific length, course and location of Kane
County’s Nipple Lake road have long appeared on USGS
maps.
233. The Nipple Lake road has appeared on a USGS
Deer Range Point, Utah 7.5 minute quadrangle map
since at least 1966. See Exhibit 21 o Plaintiff ’s Amended
Complaint, incorporated herein. This map includes Kane
County’s former road numbering designation for the
Nipple Lake road, which is #610.
234. The Nipple Lake road has also appeared on a
Kane County General Highway map dated 1975 as a
county highway.
235. Pre-1976 aerial photography confirms the historical existence of the Nipple Lake road as located on
the land and following its historical course. More recent aerial photography continues to show this road as
it historically existed.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

236. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the Nipple Lake road on
unreserved public lands as set forth herein. This grant
of a right-of-way includes access to the road.
237. The public highway right-of-way accepted and
perfected for the Nipple lake road includes the road as
claimed herein. See Exhibit 6 to Plaintiff ’s Amended
Complaint.

363a
238. The scope of the public highway right-of-way
accepted and perfected for the Nipple Lake road includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
239. The entire Nipple Lake road was officially designated as a Kane County highway on Kane County’s
General Highway map as early as 1975.
240. Kane County’s designation of the Nipple Lake
road as a county road as early as 1975 confirmed that
this road was accepted “as [a] county road[] . . . under the jurisdiction and control of the county commissioners” of Kane County. See e.g. UTAH CODE ANN.
§ 27-12-22 (1963).
241. Kane County designated and accepted the Nipple Lake road as a county road and its R.S. 2477 rightof-way no later than 1975, and thereafter continued to
construct, maintain and improve the Nipple Lake road
using public funds pursuant to the governmental authority of the Kane County Commission.
242. From at least the late 1960’s and prior to 1976,
Kane County road personnel constructed, maintained,
and improved the Nipple Lake road using public funds.
From at least 1975 and continuing past 1976, Kane
County road crews conducted routine maintenance of
this road.
243. Kane County’s designation of the Nipple Lake
road as a Kane County road (General Highways) and expenditure of public funds on this road on or before 1975
constituted formal acceptance of the congressional

364a
grant of R.S. 2477 rights-of-way for these public highways pursuant to State law. See e.g. UTAH CODE ANN.
§ 27-12-22 (1963).
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

244. The Nipple Lake road has long served as a public highway providing access across public lands and to
land conveyed into private ownership.
245. Witnesses with personal knowledge of the history of the Nipple Lake road confirm public use on a
continuous basis for more than ten years prior to October 21, 1976 and dating back as early as the mid-1960’s
consisting of general public travel for purposes including road maintenance, hunting, livestock operations,
and recreation continuing through 1976 and to the present. The road was also traveled by government employees.
246. Witnesses with personal knowledge of the history of the Nipple Lake road confirm public use of the
road on a continuous basis for more than ten years prior
to October 21, 1976 by means of road maintenance equipment, four wheel drive vehicles, ATV’s, trucks, jeeps, recreational vehicles, automobiles, and pickup trucks.
247. The reputation in the community is that the
Nipple Lake road has been open for all to come and go
as they please since as early as the early 1900’s and continuing through the present.
248. The Nipple Lake road was used on a continuous
and nonexclusive basis as a public thoroughfare for more
than ten years prior to October 21, 1976.

365a
249. The Nipple Lake road traverses a valid and perfected R.S.2477 public highway right-of-way sufficient
in scope for vehicle travel and includes that which is reasonable and necessary to meet the exigencies of these
types of travel according to safe engineering practices
that protect the public, the road, and prevent undue degradation of the adjacent land.
250. Public motor vehicle use of the Nipple Lake
road as a public thoroughfare traversing unreserved
public lands on a continuous basis for a period in excess
of ten years prior to October 21, 1976 confirms acceptance
of the grant of an R.S. 2477 public highway right-of-way
for the Nipple Lake road.
251. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway right-of-way for the Nipple Lake road
described herein.
NINTH CAUSE OF ACTION — QUIET TITLE
CAVE LAKES ROADS

252. The State of Utah incorporates herein and realleges each of the foregoing paragraphs 1 through 251.
Description of the Cave Lakes Roads R.S. 2477 Rights-ofWay

253. The Cave Lakes roads are designated as Kane
County road numbers K1070, K1075, K1087 and K1088.
See Exhibit 7A to Plaintiff ’s Amended Complaint, incor
porated herein.
254. The Cave Lakes road K1070 commences at the
NWNE of section 2, Township 43 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the

366a
SENE of section 34, Township 42 South, Range 7 West,
S.L.M.
255. The specific right-of-way for the Cave Lakes
K1070 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD130016). See
Exhibit 7A to Plaintiff ’s Amended Complaint. The
specific NAD83 mapping grade GPS data used to plot
the centerline and course of the Cave Lakes K1070 road
is attached as Exhibit 7B to Plaintiff ’s Amended Complaint and incorporated herein.
256. The Cave Lakes road K1075 commences at the
NESE of section 35, Township 42 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the
SENE of section 34, Township 42 South, Range 7 West,
S.L.M.
257. The specific right-of-way for the Cave Lakes
K1075 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD130017). See
Exhibit 7A to Plaintiff ’s Amended Complaint. The
specific NAD83 mapping grade GPS data used to plot
the centerline and course of the Cave Lakes K1075 road
is attached as Exhibit 7C to Plaintiff ’s Amended Complaint and incorporated herein.
258. The Cave Lakes road K1087 commences in the
SESE of section 24, Township 42 South, Range 7 West,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Hancock road in the
NESW of section 34, Township 42 South, Range 7 West,
S.L.M.

367a
259. The specific right-of-way for the Cave Lakes
K1087 road claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD131143). See
Exhibit 7A. The specific NAD83 mapping grade GPS
data used to plot the centerline and course of the Cave
Lakes K1087 road is attached as Exhibit 7D to Plaintiff ’s Amended Complaint and incorporated herein.
260. The Cave Lakes road K1088 commences in the
SWNE of section 25, Township 42 South, Range 7,
S.L.M., and proceeds in a northwesterly direction, to
where it ends upon intersecting the Cave Lakes road
K1087 in the SWSE of section 24, Township 42 South,
Range 7 West, S.L.M.
261. The specific right-of-way for the Cave Lakes
road K1088 claimed herein is shown in red on the centerline map of the Cave Lakes roads (RD131144). See
Exhibit 7A to Plaintiff ’s Amended Complaint. The
specific NAD83 mapping grade GPS data used to plot
the centerline and course of the Cave Lakes K1088 road
is attached as Exhibit 7E to Plaintiff ’s Amended Complaint and incorporated herein.
262. The right-of-way for the four Cave Lakes road
claimed herein on public lands includes that which is
reasonable and necessary to ensure safe travel and passage of vehicles on a two lane road, and including a width
of 66 feet (33 feet from the centerline descriptions provided herein).
Maps Depicting the Cave Lakes Road R.S. 2477 Right-ofWay

263. Portions of Kane County’s Cave Lakes roads
have long appeared on USGS maps.

368a
264. The northernmost segment of Cave Lakes road
K1087 appears on the USGS Kanab, Utah-Ariz. 15 minute topographic map since at least 1957. See Exhibit
18 to Plaintiff ’s Amended Complaint, incorporated herein.
This attached map includes Kane County’s former road
numbering designations for the Cave Lakes road K1087,
which is #789.
265. The Cave Lakes roads K1070 and K1075 appear
on the USGS Kanab, Utah-Arizona 7.5 minute quadrangle since at least 1985. A copy of the USGS Kanab,
Utah-Ariz. 1985 map is attached as Exhibit 22 to Plaintiff ’s Amended Complaint and incorporated herein.
This map includes Kane County’s former road numbering designations for the Cave Lakes roads K1070, which
is #991, and K1075, which is #988.
266. Pre-1976 aerial photography confirms the historical existence of the Cave Lakes roads as located on
the land and following their historical courses. More
recent aerial photography continues to show these roads
as they have historically existed.
Acceptance of the Cave Lakes Roads R.S. 2477 Rights-ofWay By Public Use Prior to 1976.

267. Prior to October 21, 1976, Kane County and the
public accepted the congressional grant of an R.S. 2477
public highway right-of-way for the four Cave Lakes
roads on unreserved public lands as set forth herein.
This grant of a right-of-way includes access to the roads.
268. The public highway rights-of-way accepted and
perfected for the Cave Lakes roads includes the four
roads as claimed herein. See Exhibits 7A - 7E to Plaintiff ’s Amended Complaint.

369a
269. The scope of the public highway right-of-way
accepted and perfected for the Cave Lakes roads includes that which is reasonable and necessary to ensure
safe travel and passage of vehicles on a two lane road
according to applicable AASHTO standards. This includes a right-of-way width of 66 feet (33 feet from the
centerline descriptions provided herein).
270. The Cave Lakes roads have long served as public highways providing access across public lands and to
land conveyed into private ownership.
271. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1070 for more
than ten years prior to October 21, 1976, commencing at
least by 1960, consisting of road maintenance and general public travel for purposes of livestock operations,
wood gathering, cutting posts, hunting, sightseeing,
rock hounding, and recreation continuing through 1976
to the present.
272. Witnesses with personal knowledge of the history of the Cave Lakes road K1070 confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of horses, jeeps,
four-wheel drive vehicles, and pickup trucks.
273. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1075 for more
than ten years prior to October 21, 1976 and dating back
as early as the 1940’s, consisting of general public travel
for purposes hunting, livestock operations, accessing
water and private land, cutting posts, fence building,

370a
wood gathering, sightseeing, and recreation continuing
through 1976 and to the present.
274. Witnesses with personal knowledge of the history of the Cave Lakes K1075 road confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of horses, sheep
wagon pulled by a pickup truck, jeeps, two-ton cattle
truck, bull dozer, tractor and pickup trucks.
275. Witnesses with personal knowledge of the history of the Cave Lakes roads confirm public use on a
continuous basis for Cave Lakes road K1087 for more
than ten years prior to October 21, 1976 and dating back
as early as 1960, consisting of general public travel for
purposes of hunting and recreation continuing through
1976 and to the present.
276. Witnesses with personal knowledge of the history of the Cave Lakes road K1087 confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of pickup trucks.
277. itnesses with personal knowledge of the history
of the Cave Lakes roads confirm public use on a continuous basis for Cave Lakes road K1088 for more than ten
years prior to October 21, 1976, consisting of general
public travel for purposes of recreation, ranching and
wood cutting continuing through 1976 and to the present.
278. Witnesses with personal knowledge of the history of the Cave Lakes road K1088 confirm public use of
the road on a continuous basis for more than ten years
prior to October 21, 1976 by means of pickup trucks.

371a
279. The Cave Lake roads were used on a continuous
and nonexclusive basis as public thoroughfares for more
than ten years prior to October 21, 1976.
280. The Cave Lake roads cross valid and perfected
R.S.2477 public highway rights-of-way sufficient in scope
for vehicle travel and include that which is reasonable
and necessary to meet the exigencies of these types of
travel according to safe engineering practices that protect the public, the road, and prevent undue degradation
of the adjacent land.
281. Public motor vehicle use of the Cave Lakes roads
as public thoroughfares traversing unreserved public
lands on a continuous basis for a period in excess of ten
years prior to October 21, 1976 confirms acceptance of
the grant of R.S. 2477 public highway rights-of-way for
the Cave Lakes roads.
282. Kane County and the State of Utah are entitled
to an order of this Court quieting title to their R.S. 2477
public highway rights-of-way for the Cave Lakes roads
described herein.
PRAYER FOR RELIEF

WHEREFORE, the State of Utah requests relief
against the United States of America as follows:
1. On its First Cause of Action—Mill Creek road, an
order quieting title in and to the R.S. 2477 public highway right-of-way for the Mill Creek road (K4400 Segment 1, K4400 Segment 2, K4410 Segment 3, and K4405
Segment 4, described in Exhibits 1A through 1E to
Plaintiff ’s Amended Complaint) as pleaded herein;
2. On its Second Cause of Action—Bald Knoll road,
an order quieting title in and to the R.S. 2477 public

372a
highway right-of-way for the Bald Knoll road (K3930A
Segment 1, K3935 Segment 2, K3935 Segment 3, and
K3935 Segment 4, described in Exhibits 1A, and 1F
through 1J to Plaintiff ’s Amended Complaint) as pleaded
herein;
3. On its Third Cause of Action—Skutumpah road,
an order quieting title in and to the R.S. 2477 public
highway right-of-way for the Skutumpah road (Segments 1, 3, 5, 7, 9, 11 & 13, described in Exhibit 2 to
Plaintiff ’s Amended Complaint) as pleaded herein;
4. On its Fourth Cause of Action—Sand Dune road,
an order quieting title in and to the R.S. 2477 public
highway right-of-way for the Sand Dune road (Segments 1, 3, 5, 7, 9, 11, 13, 15, 16, & 17, described in Exhibit 3 to Plaintiff ’s Amended Complaint) as pleaded
herein;
5. On its Fifth Cause of Action—Hancock road, an
order quieting title in and to the R.S. 2477 public highway right-of-way for the Hancock road (described in Exhibit 4 to Plaintiff ’s Amended Complaint) as pleaded
herein;
6. On its Sixth Cause of Action—Swallow Park/Park
Wash road, an order quieting title in and to the R.S. 2477
public highway right-of-way for the Swallow Park/Park
Wash road (three segments described in Exhibits 5A
and 5B to Plaintiff ’s Amended Complaint) as pleaded
herein;
7. On its Seventh Cause of Action—North Swag
road, an order quieting title in and to the R.S. 2477 public highway right-of-way for the North Swag road (described in Exhibit 5A and 5C to Plaintiff ’s Amended
Complaint) as pleaded herein;

373a
8. On its Eighth Cause of Action—Nipple Lake
road, an order quieting title in and to the R.S. 2477 public highway right-of-way for the Nipple Lake road (described in Exhibit 6 to Plaintiff ’s Amended Complaint)
as pleaded herein; and
9. On its Ninth Cause of Action—Cave Lakes roads,
an order quieting title in and to the R.S. 2477 public
highway rights-of way for the four Cave Lakes roads
(described in Exhibits 7A through 7E to Plaintiff ’s
Amended Complaint) as pleaded herein.
10. An order awarding costs, fees and attorneys fees
to the extent permitted by law; and
11. An order granting such further and other relief
as may be appropriate.
Respectfully submitted this 29th day of Apr., 2010.
/s/ HARRY H. SOUVALL
Assistant Attorney General

374a
APPENDIX J
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-315-CW
KANE COUNTY, PLAINTIFF
v.
UNITED STATES OF AMERICA, DEFENDANT
Filed:

Aug. 16, 2010

ANSWER OF UNITED STATES TO INTERVENORPLAINTIFF STATE OF UTAH’S COMPLAINT
IN QUIET TITLE

Defendant, the United States of America, by and
through its legal counsel, hereby submits its Answer to
Intervenor’s Complaint to Quiet Title (“Complaint”),
dated and filed by Intervenor-Plaintiff State of Utah
(“State” or “Utah”) on April 29, 2010, and served on Defendant on July 15, 2010. The numbered paragraphs of
the Answer correspond to the numbered paragraphs of
the Complaint.
INTRODUCTION

1. The allegations of Paragraph 1 are a characterization of the State’s action to which no responsive pleading is required. The allegations of Paragraph 1 also refer to a federal statute commonly known as “R.S. 2477,”

375a
which speaks for itself and is the best evidence of its contents and to which no responsive pleading is required.
JURISDICTION AND VENUE

2. The allegations of Paragraph 2 are legal conclusions based on 28 U.S.C. §§ 1346(f ) and 2409a, which
speak for themselves and are the best evidence of their
contents and to which no responsive pleading is required. Defendant admits the allegations of the second
sentence and third sentences of Paragraph 2. The allegations of the fourth sentence of Paragraph 2 are legal
conclusions to which no responsive pleading is required.
3. The United States admits that the lands which
are the subject of this lawsuit are located in Utah. The
remaining allegations of Paragraph 3 are legal conclusions based on 28 U.S.C. § 1391(e), which speaks for itself and is the best evidence of its contents, and to which
no responsive pleading is required.
PARTIES

4. The United States admits that Utah was admitted to the Union on or about January 4, 1896. The remaining allegations in Paragraph 4 constitute legal conclusions to which no responsive pleading is required.
5. The allegations of Paragraph 5 are legal conclusions based on Utah Code Ann. § 72-5-302(2) and
72-5-103(2))(b), which speak for themselves and are the
best evidence of their contents, and to which no responsive pleading is required.
6. With respect to the allegations in Paragraph 6,
the United States admits that it is the federal government and that it is the owner of the federal public land
underlying all or portions of the alleged right-of-ways

376a
that are the subject of the Complaint. The reference
to “highways relevant to this action” is a legal conclusion
to which no responsive pleading is required.
BACKGROUND ALLEGATIONS

7. The allegations of Paragraph 7 refer to and
quote Revised Statute 2477 (hereinafter, “R.S. 2477”)
which speaks for itself and is the best evidence of its contents and to which no responsive pleading is required.
8. The allegations of Paragraph 8 are legal conclusions to which no responsive pleading is required.
9. The allegations of Paragraph 9 are legal conclusions based on certain provisions of the Federal Land
Policy and Management Act (“FLPMA”), which speak
for themselves and are the best evidence of their contents and therefore to which no responsive pleading is
required.
10. The allegations of Paragraph 10 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from S. Utah Wilderness Alliance v. Bureau
of Land Management, 425 F.3d 735 (10th Cir. 2005) and
Sierra Club v. Hodel, 848 F.2d 1068 (10th Cir. 1988),
such decisions speak for themselves and are the best evidence of their contents and no responsive pleading is
required.
11. The allegations of Paragraph 11 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from S. Utah Wilderness Alliance v. Bureau
of Land Management, 425 F.3d 735 (10th Cir. 2005),
such decision speaks for itself and is the best evidence
of its content and no responsive pleading is required.

377a
12. The allegations of Paragraph 12 are legal conclusions to which no responsive pleading is required.
13. The allegations of Paragraph 13 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from S. Utah Wilderness Alliance v. Bureau
of Land Management, 425 F.3d 735 (10th Cir. 2005) and
United States v. Garfield County, 122 F. Supp. 2d 1201,
1229-30 (D. Utah 2000), such decisions speak for themselves and are the best evidence of their contents and no
responsive pleading is required.
14. The allegations of Paragraph 14 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from Sierra Club v. Hodel, 848 F.2d 1068
(10th Cir. 1988), such decision speaks for itself and is the
best evidence of its content and no responsive pleading
is required.
15. The allegations of Paragraph 15 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to set forth
statements from Sierra Club v. Hodel, 848 F.2d 1068
(10th Cir. 1988), such decision speaks for itself and is the
best evidence of its content and no responsive pleading
is required.
16. The allegations of Paragraph 16 are legal conclusions to which no responsive pleading is required. Further, to the extent the allegations purport to describe
the content of provisions of the FLPMA, such provisions
speak for themselves and are the best evidence of their
contents and to which no responsive pleading is required.

378a
17. Paragraph 17 purportedly quotes Section 701(a)
of FLPMA, which speaks for itself and is the best evidence of its contents and to which no responsive pleading is required.
18. Paragraph 18 purportedly quotes Section 701(h)
of FLPMA, which speaks for itself and is the best evidence of its contents and to which no responsive pleading is required.
19. Paragraph 19 purportedly quotes Section 509(a)
of FLPMA, which speaks for itself and is the best evidence of its contents and to which no responsive pleading is required.
20. Paragraph 20 purportedly quotes a 1939 Department of the Interior regulation (43 C.F.R. § 244.55)
(1939), which speaks for itself and is the best evidence
of its contents and to which no responsive pleading is
required.
21. The allegations of Paragraph 21 appear to define
a term for purposes of the Complaint, and to which no
responsive pleading is required. Additionally, to the
extent such definition entails allegations that constitute
legal conclusions, no responsive pleading is required.
Further, to the extent the allegations purport to set
forth statements from Sierra Club v. Hodel, 848 F.2d
1068 (10th Cir. 1988), such decision speaks for itself and
is the best evidence of its content and no responsive
pleading is required.
22. The allegations of Paragraph 22 are overly
broad and without the context necessary to permit a
specific response. In addition, to the extent the term
“Normal Maintenance Activities incorporates a legal
conclusion, no response is required.

379a
23. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 23 and therefore denies the same.
ACCEPTANCE AND SCOPE OF KANE COUNTY AND
THE STATE OF UTAH’S R.S. 2477 RIGHTS-OF-WAY

24. The allegations of Paragraph 24 are legal conclusions to which no responsive pleading is required.
25. The allegations of Paragraph 25 are legal conclusions based on Utah Code Ann. §§ 72-2-103 (current) and
27-12-22 (1963), which speak for themselves and are the
best evidence of their contents and to which no responsive pleading is required.
26. The allegations in Paragraph 26 constitute legal
conclusions to which no responsive pleading is required.
27. The allegations of Paragraph 27 are legal conclusions based on Utah Code Ann. § 72-5-104, which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required.
28. The allegations of Paragraph 28 are legal conclusions to which no responsive pleading is required.
29. The allegations of Paragraph 29 are legal conclusions to which no responsive pleading is required.
30. The allegations of Paragraph 30 are legal conclusions to which no responsive pleading is required. To
the extent a responsive pleading is required, the United
States denies the allegation as to the Old Leach Ranch
road portion of the claimed Bald Knoll right-of-way, and
admits that Kane County did not formally abandon any
interest that it may hold in the remaining claimed
rights-of-way.

380a
THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE, AND CAVE
LAKES ROADS

31. The United States admits that the so-called Mill
Creek and Bald Knoll roads, as described in the Complaint, are located in western Kane County, Utah.
32. The United States denies the first sentence in
Paragraph 32, and admits that the so-called Mill Creek
and Bald Knoll roads collectively cross private and public lands within the following townships: T40S, R4.5W,
SLM; T40S, R5W, SLM; T41S, R4.5W, S.L.M. The
United States denies that there is an Exhibit 1A attached to the Complaint and therefore, denies the allegations of the second sentence of Paragraph 32.
33. The United States admits the allegations in Paragraph 33.
34. The United States denies the allegations of the
first sentence of Paragraph 34 and admits that the Skutumpah Road crosses public and private lands occurring
variously within the following townships: T38S, R2W,
SLM; T38S, R3W, SLM; T39S, R3W, SLM; T39S, R4W,
SLM T40S, R4W, SLM; T40S, R4½W, SLM; T41S,
R4½W, SLM; T41S, R5W, SLM. The United States
admits that Attachment 1 of Exhibit 2 to plaintiff Kane
County’s First Amended Complaint purports to show
the actual course and location of the Skutumpah road,
but lacks sufficient information to form a belief as to
whether Attachment 1 of Exhibit 2 to Kane County’s
First Amended Complaint precisely sets forth the actual
course and location of such road and, therefore, denies
the allegations of the second sentence of Paragraph 34.

381a
35. The United States admits the allegations in Paragraph 35.
36. The United States denies the allegations of the
first sentence of Paragraph 36 and admits that the Sand
Dune road crosses private, Utah School and Institutional Trust Administration (“SITLA”), and public lands
occurring variously within T44S, R9W, SLM; T43S,
R9W, SLM; T43S, R8W, SLM; T43S, R7W, SLM; T42S,
R7W, SLM. The United States admits that Attachment 1 of Exhibit 3 to Kane County’s First Amended
Complaint purports to show the course and location of
the Sand Dune road, but lacks sufficient information to
form a belief as to whether Attachment 1 of Exhibit 3 to
Kane County’s First Amended Complaint precisely sets
forth the actual course and location of such road and,
therefore, denies the allegations of the second sentence
of Paragraph 36.
37. The United States admits the allegations in Paragraph 37.
38. The United States denies the allegations in Paragraph 38, and admits that the Hancock road crosses
public land occurring within T43S, R8W, SLM; T43S,
R7W, SLM; T42S, R7W, SLM; T42S, R6W, SLM. The
United States admits that Attachment 1 of Exhibit 4 to
Kane County’s First Amended Complaint purports to
show the course and location of the Hancock road,
but lacks sufficient information to form a belief as to
whether Attachment 1 of Exhibit 4 to Kane County’s
First Amended Complaint precisely sets forth the actual
course and location of such road and, therefore, denies
the allegations of the second sentence of Paragraph 38.

382a
39. The United States admits that the so-called
Swallow Park/Park Wash, North Swag, and Nipple
Lake routes, as described in the Complaint, are located
in western Kane County, Utah. The United States denies that such routes constitute roads for some or all of
their course.
40. The United States denies the first sentence of
Paragraph 45 and admits that the so-called Swallow
Park/Park Wash route crosses private and public lands
within Township 39 and 40 South, Range 3 West, S.L.M.
The United States denies the second sentence and admits that the so-called North Swag route, as described
in the Complaint, crosses public lands within T40S,
R3W, S.L.M., and that the so-called Nipple Lake route,
as described in the Complaint, crosses public lands
within T40S, R2W, S.L.M. The United States denies
that an Exhibit 5A is attached to the Complaint, and
therefore denies the third sentence of Paragraph 40.
The United States admits that Attachment 1 to Exhibit
6 to Kane County’s First Amended Complaint purports
to show the course and location of the so-called Nipple
Lake route, but lacks sufficient information to form a
belief as to whether Attachment 1 to Exhibit 6 to Kane
County’s First Amended Complaint precisely sets forth
the actual course and location of such route and, therefore denies the allegations of the fourth sentence of Paragraph 40. With respect to the last sentence of Paragraph 40, the United States admits that the so-called
four Cave Lakes routes, as identified in the Complaint,
are located in southwestern Kane County, Utah.
41. The United States denies the first sentence of
Paragraph 41, and admits that the four so-called Cave

383a
Lakes routes, as described in the Complaint, cross public land in T42S, R7W, S.L.M. The United States admits that Exhibit 7A to Kane County’s First Amended
Complaint purports to show the course and location of
the four so-called Cave Lakes routes, but lacks sufficient
information to form a belief as to whether Exhibit 7A to
Kane County’s First Amended Complaint precisely sets
forth the actual course and location of such roads and,
therefore, denies the allegations of the second sentence
of Paragraph 41. With respect to the third sentence of
Paragraph 41, the United States admits that Exhibit 7A
to Kane County’s First Amended Complaint is a map
which includes the following number that appear to designate certain routes: RD130016, RD130017, RD131143,
and RD 1311444 (not RD121144 as alleged), and lacks
sufficient information to form a belief as to the truth of
the remaining allegations of the sentence and therefore
denies the same.
42. The United States denies that maps are attached
as Exhibits 1A, 5A, and 7A. The United States otherwise lacks sufficient information to form a belief as to
the truth of the allegations of Paragraph 42 and therefore denies the same.
43. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 43 and therefore denies the same.
44. The United States denies that Exhibits 1A, 2, 3,
and 5B are attached to the Complaint. The second sentence of Paragraph 44 constitutes a characterization of
the State’s claims, and to which no responsive pleading
is required.

384a
FIRST CAUSE OF ACTION — QUIET TITLE
MILL CREEK

45. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 44.
46. The United States admits that certain Kane
County records identify the Mill Creek road as Kane
County road number K4400. The United States denies
that the Mill Creek road, the Tenny Creek road, and the
Oak Canyon road constitute a single road. The remaining allegations of Paragraph 46 constitute a characterization of the State’s claim to which no responsive pleading is required.
47. The United States admits that Mill Creek road
K4400 commences at its intersection with the Skutumpah
Road on private land in the NW quarter of section 5,
Township 41 South, Range 4.5 West, S.L.M, and that it
generally proceeds in a northerly direction. The United
States lacks sufficient information to form a belief as to
the terminus of the Mill Creek road, and therefore denies the allegations of Paragraph 47 concerning the same.
The United States further denies that the Mill Creek
road has three separate termini. The remaining allegations of Paragraph 47 constitute a characterization of
the State’s claim to which no responsive pleading is required.
48. Paragraph 48 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 48 and therefore denies the same.

385a
49. With respect to Paragraph 49, the United States
admits that the claimed road segments, as described in
the Complaint, appear to be located over certain public
lands, and to connect to certain private lands, identified
as lots 1, 2 and 3, NE1/4, E1/2SW1/4, N1/2SE1/4, and
SW1/4SE1/4, section 34, T. 39 S., R 4.5 W, S.L.M., which
were conveyed out of Federal ownership on June 10,
1937 as Stock Raising Homestead Patent 1090548. The
United States lacks sufficient information to form a belief as to the truth of the remaining allegations of Paragraph 49 and therefore denies the same.
50. With respect to Paragraph 50, the United States
admits that the claimed road segments, as described in
the Complaint, appear to be located over certain public
lands, and to connect to certain private lands, identified
as lot 2, section 5, T. 40 S., R 4.5 W, S.L.M., which were
conveyed out of Federal ownership on May 23, 1923 as
Homestead Patent 900384. The United States lacks
sufficient information to form a belief as to the truth of
the remaining allegations of Paragraph 50 and therefore
denies the same.
51. With respect to Paragraph 51, the United States
admits that the claimed road segments, as described in
the Complaint, appear to be located over certain public
lands, and to connect to certain private lands,, identified
as lots 4, 5, 6, and 7, and E1/2SW1/4, section 6, T. 40 S.,
R. 41/2 W., S.L.M., which were conveyed out of Federal
ownership on August 8, 1957 as Private Exchange Patent 1173972. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations and therefore denies the same.

386a
52. The first sentence in paragraph 52 is not a factual allegation but rather constitutes the State’s description of the scope of its claims, and to which no responsive pleading is required. The United States denies that an enhanced detail map is attached as Exhibit
11.
53. The allegations of Paragraph 53 are legal conclusions to which no responsive pleading is required. Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
54. The use of the phrase “have long appeared” in
the allegations of Paragraph 54 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
55. The United States denies the allegations of the
first sentence in Paragraph 55 and admits that the 1966
Skutumpah Creek, Utah 7.5 minute quadrangle map issued by the United States Geological Survey (“USGS”)
shows unimproved dirt roads in the general vicinity of
the routes described in Paragraph 48. As to the allegations in the second sentence, the United States admits
that a copy of a map entitled “Skutumpah Creek, Utah,”
which appears to be published in its original form by the
USGS, is attached to Kane County’s First Amended
Complaint as Exhibit 12. However, the United States
denies that Exhibit 12 constitutes, in its present form, a
true and correct copy of a USGS map as it contains markings and notations which appear to have been made by
someone other than the USGS. As to the allegations of

387a
the third sentence, the United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.
56. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 56 and therefore denies the same.
57. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 57 and therefore denies the same.
58. The allegations of Paragraph 58 are comprised
of legal conclusions to which no responsive pleading is
required.
59. The allegations of Paragraph 59 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
60. The allegations of Paragraph 60 are legal conclusions to which no responsive pleading is required. Further, the allegations concerning “Kane County’s proposed improvements” are overly vague and general and
without the context necessary to permit a specific response, and the United States denies that the scope of
the claimed right of way, if established, includes a 66
foot right of way.
61. The allegations of Paragraph 61 are legal conclusions to which no responsive pleading is required.
62. With regards to the allegations in the first sentence of Paragraph 62, the United States admits that on
the 1956 Kane County General Highway map unnamed

388a
roads appear in the general vicinity of the claimed Mill
Creek, Tenny Creek, and Oak Canyon routes as described in the Complaint. The United States lacks sufficient information to form a belief as to the truth of the
remaining allegations of the first sentence of Paragraph
62 and therefore denies the same. With respect to the
second sentence of Paragraph 62, the United States admits that on the 1965 General Highway Map, Kane
County, Utah, an unnamed road appears in the general
vicinity of the segments of the Mill Creek road as described in the Complaint. The United States otherwise
lacks sufficient information to form a belief as to the
truth of the allegations of the second sentence of Paragraph 62, and therefore denies the same.
63. The allegations of Paragraph 63 are legal conclusions based on Utah Code Ann. § 27-12-22, which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required.
64. The allegations of Paragraph 64 that the plaintiffs and the general public “designated and accepted
this county road and the R.S. 2477 right-of-way” are legal conclusions to which no responsive pleading is required. Further, the United States lacks sufficient information to form a belief as to the truth of the remaining allegations of Paragraph 64 and therefore denies the
same.
65. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 65 and therefore denies the same.
66. The allegations of Paragraph 66 are legal conclusions based on Utah Code Ann. § 27-12-22 (1963), which

389a
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
67. The United States admits that in July 1977 the
BLM and Kane County signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between
The Bureau of Land Management and the Kane County
Commission,” (hereinafter “MOU”) which speaks for itself and is the best evidence of its contents and to which
no responsive pleading is required. The United States
nonetheless affirmatively denies the allegation that the
MOU confirms that any alleged rights-of-way for the
Mill Creek road included a right-of-way width of 66 feet.
68. The use of the phrase “has long served” in the
allegations of Paragraph 68 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. The allegations regarding access across
public lands and to certain private lands are duplicative
to those in paragraphs 49, 50, and 51, and the United
States’ responses thereto are incorporated by reference.
69. The allegations of Paragraph 69 concerning the
alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 69 characterize testimony of certain
unidentified witnesses, which testimony is the best evidence of its contents and to which no responsive pleading is required, and the allegations do not give sufficient
context to permit a specific response.

390a
70. The allegations of Paragraph 70 concerning the
alleged “public use” on a “continuous basis” of the claimed
route constitute legal conclusions to which no responsive
pleading is required. The remaining allegations of Paragraph 70 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its
contents and to which no responsive pleading is required, and the allegations do not give sufficient context
to permit a specific response.
71. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 71 and therefore denies the same.
72. The allegations of Paragraph 72 constitute legal
conclusions to which no responsive pleading is required.
73. The allegations of Paragraph 73 are legal conclusions to which no responsive pleading is required.
74. The allegations of Paragraph 74 are legal conclusions to which no responsive pleading is required.
75. The allegations of Paragraph 75 are legal conclusions to which no responsive pleading is required.
SECOND CAUSE OF ACTION — QUIET TITLE
BALD KNOLL ROAD

76. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 75.
77. The United States admits that certain Kane
County records identify Bald Knoll Road as road K3935.
78. The United States lacks sufficient information to
form a belief as to the truth of the first sentence of the
allegations of Paragraph 78 and therefore denies the
same. The United States denies that the Bald Knoll

391a
road commences in the NENW of section 3, Township
41 South, Range 5 West, S.L.M., at the boundary of private land, and admits the remaining allegations of the
second sentence of Paragraph 78. The United States
admits the allegations of the third and fourth sentences
of Paragraph 78.
79. Paragraph 79 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 79 and therefore denies the same.
80. With regards to Paragraph 80, the United States
admits that certain private lands, identified as
SE1/4SE1/4, section 15, and NW1/4NE1/4, section 22,
T. 40 S., R 5 W, S.L.M., were conveyed out of Federal
ownership on October 23, 1928 as Homestead Patent
1020257. The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations of Paragraph 80 and therefore denies the
same.
81. Paragraph 81 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 81 and therefore denies the same.
82. The allegations of Paragraph 82 are legal conclusions to which no responsive pleading is required. Further, the United States denies that the scope of the

392a
claimed right of way, if established, includes a 66 foot
right of way.
83. The use of the phrase “have long appeared” in
the allegations of Paragraph 83 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
84. The United States denies the allegations of the
first sentence of Paragraph 84, and admits that the 1966
Skumtumpah Creek, Utah and Bald Knoll, Utah 7.5 minute quadrangle maps issued by the USGS, together
show unimproved dirt roads in the general vicinity of the
roads described in Paragraphs 78 and 79. As to the allegations of the second sentence, the United States admits that a map entitled “Bald Knoll, Utah,” which appears to be published in its original form by the USGS,
is attached to the Kane County’s First Amended Complaint as Exhibit 13. However, the United States denies that Exhibit 13 constitutes, in its present form, a
true and correct copy of a USGS map as it contains
markings and notations which appear to have been made
by someone other than the USGS. As to the allegations of the third sentence, the United States lacks sufficient information to form a belief as to the truth of such
allegations and therefore denies the same.
85. Given the illegibility of Exhibit 13, and given the
markings and notations on it from some unknown source,
the United States lacks sufficient information to form a
belief as to the truth of the allegations of Paragraph 85
and therefore denies the same.

393a
86. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 86 and therefore denies the same.
87. The allegations of Paragraph 87 are comprised
of legal conclusions to which no responsive pleading is
required.
88. The allegations of Paragraph 88 are comprised
of legal conclusions to which no responsive pleading is
required.
89. The allegations of Paragraph 89 are legal conclusions to which no responsive pleading is required. Further, the allegations concerning “Kane County’s proposed improvements” are overly vague and general and
without the context necessary to permit a specific response, and the United States denies that the scope of
the claimed right of way, if established, includes a 66
foot right of way (33 feet from the centerline descriptions provided in the Complaint), and therefore denies
the same.
90. The allegations of Paragraph 90 are legal conclusions to which no responsive pleading is required. As
to the footnote to Paragraph 90, the United States lacks
knowledge sufficient to form a belief as to the truth of
the allegations of the first sentence and denies the same.
The United States denies the allegations of the second
sentence in the footnote.
91. The allegations of Paragraph 91 are legal conclusions based on Utah Code Ann. § 27-12-22, which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required.
92. The allegations of Paragraph 92 that Plaintiff
“accepted this county road and the R.S. 2477 right-of-

394a
way” are legal conclusions to which no responsive pleading is required. Further, the United States lacks sufficient information to form a belief as to the truth of the
allegations of Paragraph 92 and therefore denies the
same.
93. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 93 and therefore denies the same.
94. The allegations of Paragraph 94 are legal conclusions based on Utah Code Ann. § 27-12-22, which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required.
95. The United States admits that in July 1977 the
BLM and Plaintiff signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between The Bureau of Land Management and the Kane
County Commission,” (hereinafter “MOU”) which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required. The United
States nonetheless affirmatively denies the allegation
that the MOU confirms that any alleged rights-of-way
for the Bald Knoll road included a right-of-way width of
66 feet. The United States lacks sufficient information
to form a belief as to the truth of the allegation that the
Bald Knoll road was formerly designated the Thompson
Creek road, and therefore denies the same.
96. The use of the phrase “has long served” in the
allegations of Paragraph 96 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations

395a
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. The allegations regarding access across
public lands and to certain private lands are duplicative
to those in paragraph 80, and the United States’ responses
thereto are incorporated by reference
97. The allegations of Paragraph 97 concerning the
alleged “public use” on a “continuous basis” of the claimed
route constitute legal conclusions to which no responsive
pleading is required. The remaining allegations of
Paragraph 97 characterize testimony of certain unidentified witnesses, which testimony is the best evidence of
its contents and to which no responsive pleading is required, and the allegations do not give sufficient context
to permit a specific response.
98. The allegations of Paragraph 98 concerning the
alleged “public use” on a “continuous basis” of the claimed
route constitute legal conclusions to which no responsive
pleading is required. The remaining allegations of Paragraph 98 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its
contents and to which no responsive pleading is required, and the allegations do not give sufficient context
to permit a specific response.
99. The United States lacks sufficient information to
form a belief as to the truth of the allegations of Paragraph 99 and therefore denies the same.
100. The allegations of Paragraph 100 constitute legal conclusions to which no responsive pleading is required.
101. The allegations of Paragraph 101 are legal conclusions to which no responsive pleading is required.

396a
102. The allegations of Paragraph 102 are legal conclusions to which no responsive pleading is required.
103. The allegations of Paragraph 103 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
THIRD CAUSE OF ACTION — QUIET TITLE
SKUTUMPAH ROAD

104. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 103.
105. The United States admits that certain Kane
County records identify the Skutumpah road as Road
K5000.
106. Assuming that the reference to “Range 5
S.L.M.” in the third line of Paragraph 106 is intended to
refer to “Range 5 West,” the United States generally
admits the allegations of the Paragraph, except for the
mileage allegation, as the United States lacks sufficient
information to form a belief as to the truth of that allegation and therefore denies the same.
107. Paragraph 107 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 107 and therefore denies the same.
108. The allegations of Paragraph 108 are legal conclusions to which no responsive pleading is required.

397a
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way for its entire course.
109. The use of the phrase “have long appeared” in
the allegations of Paragraph 109 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
110. With respect to the allegations of the first and
third sentences of Paragraph 110, the United States admits that the 1966 Skutumpah Creek, Utah 7.5 minute
quadrangle map, the 1966 Deer Springs Point, Utah 7.5
minute quadrangle map, the 1966 Bull Valley Gorge,
Utah 7.5 minute quadrangle map, and the 1966 Cannonville, Utah 7.5 minute quadrangle map, issued by the
USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 106. With respect to the allegations of the fourth sentence, the
United States admits that maps entitled “Skumtumpah
Creek, Utah,” “Deer Springs Point, Utah,” “Bull Valley
Gorge, Utah,” and “Cannonville, Utah,” which appear to
be published in their original forms by the USGS, are
attached to Kane County’s First Amended Complaint as
Exhibits 12 and 14-17. However, the United States denies that Exhibits 12 and 14-17 constitute, in their present form, true and correct copies of USGS maps as they
contains markings and notations which appear to have
been made by someone other than the USGS. With respect to the allegations of the second sentence of Para-

398a
graph 110, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.
111. The United States admits the allegations in paragraph 111.
112. The United States admits the allegations of
Paragraph 112.
113. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 113 and therefore denies the same.
114. The allegations of Paragraph 114 are comprised
of legal conclusions to which no responsive pleading is
required.
115. The allegations of Paragraph 115 are comprised
of legal conclusions to which no responsive pleading is
required.
116. The allegations of Paragraph 116 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
117. The allegations of Paragraph 117 are legal conclusions to which no responsive pleading is required.
118. The allegations of Paragraph 118 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
119. The allegations of Paragraph 119 that Plaintiff
“accepted the Skutumpah road as a county road and the
R.S. 2477 right-of-way” are legal conclusions to which no

399a
responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 119 and
therefore denies the same.
120. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first and second sentences of Paragraph 120 and therefore denies the same. The United States denies the allegations of the third sentence of Paragraph 120, and admits that some sections of the Skutumpah road are
prone to washouts that require periodic repairs.
121. The allegations of Paragraph 121 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
122. The United States admits that in July 1977 the
BLM and Plaintiff signed a document entitled “Memorandum of Understanding to Clarify Road Construction
& Maintenance Responsibilities in Kane County between The Bureau of Land Management and the Kane
County Commission,” (hereinafter “MOU”) which speaks
for itself and is the best evidence of its contents and to
which no responsive pleading is required. The United
States nonetheless affirmatively denies the allegation
that the MOU confirms that any alleged rights-of-way
for the Skutumpah road included a right-of-way width
of 66 feet.
123. The use of the phrase “has long served” in the
allegations of Paragraph 123 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations

400a
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 123 and therefore denies the same.
124. The allegations of Paragraph 124 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 124 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
125. The allegations of Paragraph 125 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 125 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response. e. [sic]
126. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 126 and therefore denies the same.
127. The allegations of Paragraph 127 constitute legal conclusions to which no responsive pleading is required.
128. The allegations of Paragraph 128 are legal conclusions to which no responsive pleading is required.

401a
129. The allegations of Paragraph 129 are legal conclusions to which no responsive pleading is required.
130. The allegations of Paragraph 130 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
FOURTH CAUSE OF ACTION — QUIET TITLE
SAND DUNE ROAD

131. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 130.
132. The United States admits that certain Kane
County records identify the Sand Dune road as Road
K1000.
133. The United States generally admits the allegations of Paragraph 133, except for the mileage allegation, as the United States lacks sufficient information to
form a belief as to the truth of that allegation and therefore denies the same.
134. Paragraph 134 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 134 and therefore denies the same.
135. The allegations of Paragraph 135 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the

402a
claimed right of way, if established, includes a 66 foot
right of way.
136. The use of the phrase “have long appeared” in
the allegations of Paragraph 136 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
137. With respect to the allegations of the first,
third, and fifth sentences of Paragraph 137, the United
States admits that the Kanab, Utah 7.5 minute quadrangle map, the Yellowjacket Canyon, Utah 7.5 minute
quadrangle map, and the Elephant Butte, Utah 7.5 minute quadrangle map, issued by the USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 133. With respect to the allegations of the second, fourth, and sixth sentences of Paragraph 137, the United States admits that maps entitled
“Kanab, Utah,” “Yellowjacket Canyon, Utah,” and “Elephant Butte, Utah,” which appear to be published in
their original forms by the USGS, are attached to Kane
County’s First Amended Complaint as Exhibits 18-20.
However, the United States denies that Exhibits 18-20
constitute, in their present form, true and correct copies
of USGS maps as they contains markings and notations
which appear to have been made by someone other than
the USGS. As to the allegations of the seventh sentence of Paragraph 137, the United States lacks sufficient information to form a belief as to the truth of such
allegations and therefore denies the same.

403a
138. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 138 and therefore denies the same.
139. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 139 and therefore denies the same.
140. The allegations of Paragraph 140 are comprised
of legal conclusions to which no responsive pleading is
required.
141. The allegations of Paragraph 141 are comprised
of legal conclusions to which no responsive pleading is
required.
142. The allegations of Paragraph 142 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
143. The allegations of Paragraph 143 are legal conclusions to which no responsive pleading is required.
144. The allegations of Paragraph 144 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
145. The allegations of Paragraph 145 that Plaintiff
“accepted the Sand Dune road as a country road and its
R.S. 2477 right-of-way” are legal conclusions to which no
responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 145 and
therefore denies the same.

404a
146. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first, second, and third sentences of Paragraph 146 and
therefore denies the same. The use of the phrase “high
speed” in the allegations of the fourth sentence of Paragraph 146 renders the allegations too vague and general
and without the context necessary to permit a specific
response. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
147. The allegations of Paragraph 147 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
148. The use of the phrase “have long appeared” in
the allegations of Paragraph 148 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
149. The allegations of Paragraph 149 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 149 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.

405a
150. The allegations of Paragraph 150 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 150 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
151. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 151 and therefore denies the same.
152. The allegations of Paragraph 72 [sic] constitute legal conclusions to which no responsive pleading is required.
153. The allegations of Paragraph 153 are legal conclusions to which no responsive pleading is required.
154. The allegations of Paragraph 154 are legal conclusions to which no responsive pleading is required.
155. The allegations of Paragraph 155 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
FIFTH CAUSE OF ACTION — QUIET TITLE
HANCOCK ROAD

156. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 155.
157. The United States admits that certain Kane
County records identify the Hancock road as Road
K1100.

406a
158. The United States generally admits the allegations of Paragraph 158, except for the mileage allegation, as the United States lacks sufficient information to
form a belief as to the truth of that allegation and therefore denies the same.
159. Paragraph 159 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 159 and therefore denies the same.
160. The allegations of Paragraph 160 are legal conclusions to which no responsive pleading is required
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
161. The use of the phrase “have long appeared” in
the allegations of Paragraph 161 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
162. The United States admits that the Kanab, Utah
7.5 minute quadrangle map, and the Yellowjacket Canyon, Utah 7.5 minute quadrangle map, issued by the
USGS, show unimproved dirt roads in the general vicinity of the route described in Paragraph 162. The
United States admits that copies of maps entitled
“Kanab, Utah,” and “Yellowjacket Canyon, Utah,”
which appears to have been published in their original

407a
form by the USGS, are attached to Kane County’s First
Amended Complaint as Exhibits 18 and 19. However,
the United States denies that Exhibits 18 and 19 constitute, in their present form, true and correct copies of
USGS maps as they contain markings and notations
which appear to have been made by someone other than
the USGS. As to the allegations of the third sentence of
Paragraph 162, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.
163. The United States admits the allegations of
Paragraph 163.
164. The United States admits the allegations of
Paragraph 164.
165. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 165 and therefore denies the same.
166. The allegations of Paragraph 166 are comprised
of legal conclusions to which no responsive pleading is
required.
167. The allegations of Paragraph 167 are comprised
of legal conclusions to which no responsive pleading is
required.
168. The allegations of Paragraph 168 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
169. The allegations of Paragraph 169 are legal conclusions to which no responsive pleading is required.

408a
170. The allegations of Paragraph 170 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
171. The allegations of Paragraph 171 that Plaintiff
“accepted the Hancock road as a county road crossing
an R.S. 2477 right-of-way” are legal conclusions to which
no responsive pleading is required. The United States
lacks sufficient information to form a belief as to the
truth of the remaining allegations of Paragraph 171 and
therefore denies the same.
172. The United States lacks sufficient information
to form a belief as to the truth of the allegations of the
first and second sentences of Paragraph 172 and therefore denies the same. The United States admits the allegations of the third sentence of Paragraph 172.
173. The allegations of Paragraph 173 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
174. The use of the phrase “has long served” in the
allegations of Paragraph 174 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 174 and therefore denies the same.

409a
175. The allegations in the first sentence of Paragraph 175 concerning the alleged “public use” on a “continuous basis” of the claimed route constitute legal conclusions to which no responsive pleading is required.
The remaining allegations in the first sentence of Paragraph 175 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its
contents and to which no responsive pleading is required, and the allegations do not give sufficient context
to permit a specific response. The use of the phrase
“government employees” and lack of a timeframe in the
allegations of the second sentence of Paragraph 175 renders the allegations too vague and general and without
the context necessary to permit a specific response.
176. The allegations of Paragraph 176 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 176 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
177. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 177 and therefore denies the same.
178. The allegations of Paragraph 178 constitute legal conclusions to which no responsive pleading is required.
179. The allegations of Paragraph 179 are legal conclusions to which no responsive pleading is required.

410a
180. The allegations of Paragraph 180 are legal conclusions to which no responsive pleading is required.
181. The allegations of Paragraph 181 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
SIXTH CAUSE OF ACTION — QUIET TITLE
SWALLOW PARK/PARK WASH ROAD

182. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 181.
183. The United States admits that certain Kane
County records identify the so-called Swallow Park/Park
Wash route as Road K4360.
184. The United States denies the allegations of Paragraph 184 and admits that the so-called Swallow Park/
Park Wash route, as described in the Complaint, commences in section 9, T40S, R3W, S.L.M., at the intersection of the so-called North Swag route, and generally
proceeds in a northwesterly direction to section 19,
T39S, R3W, S.L.M., at the intersection with the Skutumpah road.
185. Paragraph 185 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 185 and therefore denies the same.

411a
186. The allegations of Paragraph 186 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
187. The use of the phrase “have long appeared” in
the allegations of Paragraph 187 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
188. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 184. The
United States admits that a copy of a map entitled “Deer
Spring Point, Utah,” which appears to have been published in its original form by the USGS, is attached to
Kane County’s First Amended Complaint as Exhibit 14.
However, the United States denies that Exhibit 14 constitutes, in its present form, a true and correct copy of a
USGS map as it contains markings and notations which
appear to have been made by someone other than the
USGS. As to the allegations of the second sentence of
Paragraph 188, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.
189. The United States admits that on the 1965 General Highway Map, Kane County, Utah, an unnamed
road appears in the general vicinity of the northernmost
portion of the claimed Swallow Park/Park Wash route
as described in the Complaint.

412a
190. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 190 and therefore denies the same.
191. The allegations of Paragraph 191 are comprised
of legal conclusions to which no responsive pleading is
required.
192. The allegations of Paragraph 192 are comprised
of legal conclusions to which no responsive pleading is
required.
193. The allegations of Paragraph 193 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
194. The allegations of Paragraph 194 are legal conclusions to which no responsive pleading is required.
195. The allegations of Paragraph 195 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
196. The allegations of Paragraph 196 that Plaintiff
“accepted the northernmost segment of the Swallow
Park/Park Wash road as a county road and its R.S. 2477
right-of-way” are legal conclusions to which no responsive pleading is required. The United States lacks sufficient information to form a belief as to the truth of the
remaining allegations of Paragraph 196 and therefore
denies the same.
197. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 197 and therefore denies the same.

413a
198. The allegations of Paragraph 198 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
199. The use of the phrase “has long served” in the
allegations of Paragraph 199 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 280 [sic] and therefore denies the same.
200. The allegations in the first sentence of Paragraph 200 concerning the alleged “public use” on a “continuous basis” of the claimed route constitute legal conclusions to which no responsive pleading is required.
The remaining allegations in the first sentence of Paragraph 200 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its
contents and to which no responsive pleading is required, and the allegations do not give sufficient context
to permit a specific response. The use of the phrase
“government employees” and the lack of a time frame in
the allegations of the second sentence of Paragraph 200
renders the allegations too vague and general and without the context necessary to permit a specific response.
201. The allegations of Paragraph 201 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining alle-

414a
gations of Paragraph 201 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
202. The United States admits that a portion of the
so-called Swallow Park/Park Wash route has been designated for administrative use only in the Grand Staircase Escalante National Monument Management Plan
(“MMP.”) The United States lacks sufficient information to form a belief as to the truth of the remaining
allegations of Paragraph 202 and therefore denies the
same.
203. The allegations of Paragraph 203 constitute legal conclusions to which no responsive pleading is required.
204. The allegations of Paragraph 204 are legal conclusions to which no responsive pleading is required.
205. The allegations of Paragraph 205 are legal conclusions to which no responsive pleading is required.
206. The allegations of Paragraph 206 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same
SEVENTH CAUSE OF ACTION — QUIET TITLE
NORTH SWAG ROAD

207. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 206.

415a
208. The United States admits that certain Kane
County records identify the so-called North Swag route
as Road K4370.
209. The United States denies the allegations of Paragraph 209, and admits that the so-called North Swag
route, as described in the Complaint, commences generally in section 30, T40S, R2W, S.L.M., and generally proceeds in a northwesterly direction, but lacks sufficient
information to form a belief as to the truth of the remaining allegations of Paragraph 209 and therefore denies
the same.
210. Paragraph 210 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 210 and therefore denies the same.
211. The allegations of Paragraph 211 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
212. The use of the phrase “have long appeared” in
the allegations of Paragraph 212 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
213. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the

416a
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 213. The United
States admits that a copy of a map, entitled “Deer Spring
Point, Utah,” which appears to have been published in
its original form by the USGS, is attached to Kane
County’s First Amended Complaint as Exhibit 21.
However, the United States denies that Exhibit 21 constitutes, in its present form, a true and correct copy of a
USGS map as it contains markings and notations which
appear to have been made by someone other than the
USGS. As to the allegations of the third sentence of
Paragraph 213, the United States lacks sufficient information to form a belief as to the truth of such allegations
and therefore denies the same.
214. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 214 and therefore denies the same.
215. The allegations of Paragraph 215 are comprised
of legal conclusions to which no responsive pleading is
required.
216. The allegations of Paragraph 216 are comprised
of legal conclusions to which no responsive pleading is
required.
217. The allegations of Paragraph 217 are legal conclusions to which no responsive pleading is required.
218. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 218 and therefore denies the same.
219. The use of the phrase “has long served” in the
allegations of Paragraph 300 [sic] renders the allegations
too vague and general and without the context necessary
to permit a specific response. The remaining allegations

417a
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 219 and therefore denies the same.
220. The allegations in the first sentence of Paragraph 220 concerning the alleged “public use” on a “continuous basis” of the claimed route constitute legal conclusions to which no responsive pleading is required.
The remaining allegations in the first sentence of Paragraph 220 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its contents and to which no responsive pleading is required, and
the allegations do not give sufficient context to permit a
specific response. The use of the phrase “government
employees” and lack of a time frame in the allegations of
the second sentence of Paragraph 220 renders the allegations too vague and general and without the context
necessary to permit a specific response. The United
States admits the allegations of the third sentence of
Paragraph 220 that the so-called North Swag route does
not appear on Map 2 of the MMP but lacks sufficient information to form a belief as to the truth of the remaining allegations of the sentence and therefore denies the
same.
221. The allegations of Paragraph 221 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 221 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive

418a
pleading is required, and the allegations do not give sufficient context to permit a specific response.
222. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 222 and therefore denies the same.
223. The allegations of Paragraph 223 constitute legal conclusions to which no responsive pleading is required.
224. The allegations of Paragraph 224 are legal conclusions to which no responsive pleading is required.
225. The allegations of Paragraph 225 are legal conclusions to which no responsive pleading is required.
226. The allegations of Paragraph 226 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same.
EIGHTH CAUSE OF ACTION — QUIET TITLE
NIPPLE LAKE ROAD

227. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 226.
228. The United States admits that certain Kane
County records identify the so-called Nipple Lake route,
as described in the Complaint, as Road K4290.
229. The United States denies the allegations of Paragraph 229 and admits that the so-called Nipple Lake
route, as described in the Complaint, occurs in section
30, T40S, R2W.

419a
230. Paragraph 230 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 230 and therefore denies the same.
231. The allegations of Paragraph 231 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
232. The use of the phrase “have long appeared” in
the allegations of Paragraph 232 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
233. The United States admits that the Deer Spring
Point, Utah 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 229. The United
States admits that a copy of a map entitled “Deer Spring,
Utah,” which appears to have been published in its original form by the USGS, is attached to Kane County’s
First Amended Complaint as Exhibit 21. However, the
United States denies that Exhibit 21 constitutes, in its
present form, a true and correct copy of a USGS map as
it contains markings and notations which appear to have
been made by someone other than the USGS. As to the
allegations of the second sentence of Paragraph 233, the

420a
United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.
234. The United States admits the allegations of
Paragraph 234.
235. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 235 and therefore denies the same.
236. The allegations of Paragraph 236 are comprised
of legal conclusions to which no responsive pleading is
required.
237. The allegations of Paragraph 237 are comprised
of legal conclusions to which no responsive pleading is
required.
238. The allegations of Paragraph 238 are legal conclusions to which no responsive pleading is required.
To the extent a responsive pleading is required, the
United States lacks sufficient information to form a belief as to the truth of the allegations and therefore denies the same. Further, the United States denies that
the scope of the claimed right of way, if established, includes a 66 foot right of way.
239. The allegations of Paragraph 239 are legal conclusions to which no responsive pleading is required.
240. The allegations of Paragraph 240 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
241. The allegation in Paragraph 241 that Kane
County “accepted the Nipple Lake road as a county road
and the R.S. 2477 right-of-way” is a legal conclusion to

421a
which no responsive pleading is required. The United
States lacks sufficient information to form a belief as to
the truth of the remaining allegations of Paragraph 241
and therefore denies the same.
242. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 242 and therefore denies the same.
243. The allegations of Paragraph 243 are legal conclusions based on Utah Code Ann. § 27-12-22, which
speaks for itself and is the best evidence of its contents
and to which no responsive pleading is required.
244. The use of the phrase “has long served” in the
allegations of Paragraph 244 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 244 and therefore denies the same.
245. The allegations in the first sentence of Paragraph 245 concerning the alleged “public use” on a “continuous basis” of the claimed route constitute legal conclusions to which no responsive pleading is required.
The remaining allegations in the first sentence of Paragraph 245 characterize testimony of certain unidentified
witnesses, which testimony is the best evidence of its
contents and to which no responsive pleading is required,
and the allegations do not give sufficient context to permit a specific response. The use of the phrase “govern-

422a
ment employees” and the lack of a time frame in the allegations of the second sentence of Paragraph 245 renders the allegations too vague and general and without
the context necessary to permit a specific response.
246. The allegations of Paragraph 246 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 246 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
247. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 247 and therefore denies the same.
248. The allegations of Paragraph 248 constitute legal conclusions to which no responsive pleading is required.
249. The allegations of Paragraph 249 are legal conclusions to which no responsive pleading is required.
250. The allegations of Paragraph 250 are legal conclusions to which no responsive pleading is required.
251. The allegations of Paragraph 251 are comprised
of legal conclusions to which no responsive pleading is
required. To the extent a responsive pleading is required, the United States lacks sufficient information to
form a belief as to the truth of the allegations and therefore denies the same

423a
NINTH CAUSE OF ACTION — QUIET TITLE
CAVE LAKES ROADS

252. The United States incorporates by reference its
responses to the allegations of Paragraphs 1 to 251.
253. The United States admits that certain Kane
County records identify the so-called Cave Lake routes
as K1070, K1075, K1087, and K1088.
254. The United States denies the allegations in Paragraph 254, and admits that the so-called Cave Lakes
route identified in certain of Kane County’s records as
K1070, as described in the Complaint, is located generally in sections 34 and 35, T42S, R7W, SLM, and intersects the Hancock road in section 34, T42S, R7W, SLM.
The United States lacks sufficient information to form a
belief as to the truth of the remaining allegations of Paragraph 254 and therefore denies the same
255. Paragraph 255 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 255 and therefore denies the same.
256. The United States denies the allegations in Paragraph 256 and admits that the so-called Cave Lakes
route identified in certain of Kane County’s records as
K1075, and as described in the Complaint, is located
generally in sections 34 and 35, T42S, R7W, SLM, and
intersects the Hancock road in section 34, T42S, R7W,
SLM. The United States lacks sufficient information
to form a belief as to the truth of the remaining allegations of Paragraph 256 and therefore denies the same.

424a
257. Paragraph 257 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 257 and therefore denies the same.
258. The United States admits that the so-called
Cave Lakes route K1087 as described in the Complaint
is located generally in sections 24, T42S, R7W, SLM,
and denies that it connects to Hancock Road in section
34, T42S, R7W, SLM.
259. Paragraph 259 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 259 and therefore denies the same.
260. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 260 and therefore denies the same.
261. Paragraph 261 is not a factual allegation but rather constitutes Plaintiff ’s description of its claims, and
to which no responsive pleading is required. To the extent the paragraph incorporates or implies factual allegations, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 261 and therefore denies the same.
262. The allegations of Paragraph 262 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the

425a
claimed right of way, if established, includes a 66 foot
right of way.
263. The use of the phrase “have long appeared” in
the allegations of Paragraph 263 renders the allegations
too vague and general and without the context necessary
to permit a specific response. To the extent a responsive pleading is required, the United States lacks sufficient information to form a belief as to the truth of the
allegations and therefore denies the same.
264. The United States admits that the Kanab,
Utah-Arizona 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the route described in Paragraph 264. The United
States admits that a copy of a map entitled “Kanab,
Utah-Arizona,” which appears to have been published in
its original form by the USGS, is attached to Kane
County’s First Amended Complaint as part of Exhibit
22. However, the United States denies that such map
constitutes, in its present form, a true and correct copy
of a USGS map as it contains markings and notations
which appear to have been made by someone other than
the USGS. As to the allegations of the second sentence
of Paragraph 264, the United States lacks sufficient information to form a belief as to the truth of such allegations and therefore denies the same.
265. The United States admits that the Kanab,
Utah-Arizona 7.5 minute quadrangle map issued by the
USGS shows unimproved dirt roads in the general vicinity of the routes described in Paragraphs 254 and 256.
The United States admits that a copy of a map entitled
“Kanab, Utah-Arizona,” which appears to have been
published in its original form by the USGS, is attached
to Kane County’s First Amended Complaint as part of

426a
Exhibit 22. However, the United States denies that
such map constitutes, in its present form, a true and correct copy of a USGS map as it contains markings and
notations which appear to have been made by someone
other than the USGS. As to the allegations of the second sentence of Paragraph 265, the United States lacks
sufficient information to form a belief as to the truth of
such allegations and therefore denies the same.
266. The United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 266 and therefore denies the same.
267. The allegations of Paragraph 267 are comprised
of legal conclusions to which no responsive pleading is
required.
268. The allegations of Paragraph 268 are comprised
of legal conclusions to which no responsive pleading is
required.
269. The allegations of Paragraph 269 are legal conclusions to which no responsive pleading is required.
Further, the United States denies that the scope of the
claimed right of way, if established, includes a 66 foot
right of way.
270. The use of the phrase “has long served” in the
allegations of Paragraph 270 renders the allegations too
vague and general and without the context necessary to
permit a specific response. The remaining allegations
concerning the alleged status as a public highway constitutes a legal conclusion to which no responsive pleading is required. To the extent a responsive pleading is
required, the United States lacks sufficient information
to form a belief as to the truth of the allegations of Paragraph 270 and therefore denies the same.

427a
271. The allegations of Paragraph 271 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 271 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
272. The allegations of Paragraph 272 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 272 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
273. The allegations of Paragraph 273 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 273 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
274. The allegations of Paragraph 274 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 274 characterize testimony of certain unidentified witnesses, which testimony is the best

428a
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
275. The allegations of Paragraph 275 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 275 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
276. The allegations of Paragraph 276 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 276 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive pleading is required, and the allegations do not give sufficient
context to permit a specific response.
277. The allegations of Paragraph 277 concerning
the alleged “public use” on a “continuous basis” of the
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 277 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive pleading is required, and the allegations do not give sufficient
context to permit a specific response.
278. The allegations of Paragraph 278 concerning
the alleged “public use” on a “continuous basis” of the

429a
claimed route constitute legal conclusions to which no
responsive pleading is required. The remaining allegations of Paragraph 278 characterize testimony of certain unidentified witnesses, which testimony is the best
evidence of its contents and to which no responsive
pleading is required, and the allegations do not give sufficient context to permit a specific response.
279. The allegations of Paragraph 279 constitute legal conclusions to which no responsive pleading is required.
280. The allegations of Paragraph 2801 [sic] are legal
conclusions to which no responsive pleading is required.
281. The allegations of Paragraph 281 are legal conclusions to which no responsive pleading is required.
282. The allegations of Paragraph 282 are comprised
of legal conclusions to which no responsive pleading is
required.
REQUEST FOR RELIEF

The allegations set forth in paragraphs 1 to 11 of this
section are requests for relief to which no responses are
required.
GENERAL DENIAL

To the extent that any allegations of the Complaint
have not been admitted or specifically responded to, the
United States denies such allegations.
FIRST DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff State of Utah’s failure to
allege facts sufficient to show that it can satisfy the statute of limitations set forth in the Quiet Title Act.

430a
SECOND DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to the lack of a justiciable case or controversy between the parties with respect to certain of
Plaintiff State of Utah’s claims.
THIRD DEFENSE

The Court lacks jurisdiction over the subject matter
of this action due to Plaintiff ’s failure to satisfy the requirement that it demonstrate a disputed title to real
property with respect to certain of Plaintiff State of
Utah’s claims under the Quiet Title Act and thereby invoke a waiver of the United States’ sovereign immunity
under the Act.
FOURTH DEFENSE

Plaintiff State of Utah has failed to state a claim upon
which relief can be granted.
FIFTH DEFENSE

Plaintiff State of Utah has failed to join indispensable
parties under Rule 19 of the Federal Rules of Civil Procedure, including with respect to the claimed rights-ofway that cross private land.
SIXTH DEFENSE

Plaintiff State of Utah’s claims may be barred by the
statute of limitations.
SEVENTH DEFENSE

The Court lacks jurisdiction over Plaintiff State of
Utah’s Ninth Claim to the extent it failed to satisfy the
180-day notice requirement set forth in the Quiet Title
Act with respect to one of the Cave Lakes roads.

431a
WHEREFORE, having fully answered, the United
States prays that this action be dismissed, that judgment be entered for the United States, and that the
Court grant such other and further relief as it may deem
just and appropriate.
RESPECTFULLY SUBMITTED this 16th day of
Aug., 2010.
IGNACIA S. MORENO
Assistant Attorney General
/s/

ROMNEY S. PHILPOTT
ROMNEY S. PHILPOTT
Trial Attorney
U.S. Department of Justice
Environment & Natural Resources Division
Natural Resources Section
CARLIE CHRISTENSEN,
United States Attorney , District of Utah
JOHN K. MANGUM
Assistant United States Attorney
ATTORNEYS FOR THE UNITED STATES

OF COUNSEL:
JAMES E. KARKUT
Attorney/Advisor
Office of the Regional Solicitor
Department of the Interior
125 South State Street, Suite 6201
Salt Lake City, UT 84138

432a
APPENDIX K
UNITED STATES JUDICIAL DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, UTAH AND STATE OF UTAH, PLAINTIFFS
v.
UNITED STATES OF AMERICA, DEFENDANT
AND

SOUTHERN UTAH WILDERNESS ALLIANCE, AND
THE WILDERNESS SOCIETY,
PROPOSED INTERVENOR-DEFENDANTS
Filed:

Dec. 27, 2017

MOTION TO INTERVENE AS DEFENDANTS AND
MEMORANDUM IN SUPPORT

TABLE OF CONTENTS
RELIEF SOUGHT AND GROUNDS FOR MOTION ....... 1
INTRODUCTION ................................................................. 2
APPLICANTS FOR INTERVENTION ............................. 3
BACKGROUND .................................................................... 4
ARGUMENT ......................................................................... 8
I. SUWA IS ENTITLED TO INTERVENTION AS OF RIGHT ................................................ 8
A. SUWA’s Interest in the Lands at Issue
Support Intervention as of Right ............................... 8

433a
B. The Outcome of This Action, By Settlement or Otherwise, Regarding the Scope of the
State and County’s R.S. 2477 Rights-of-Way
May Impair SUWA’s Interests ................................. 10
C. The United States May Not Adequately
Represent SUWA’s Interests ................................... 11
D. SUWA’s Motion for Intervention Is Timely ..... 16
CONCLUSION .................................................................... 17

*

*

*

*

*

Pursuant to Rule 24 of the Federal Rules of Civil Procedure, the Southern Utah Wilderness Alliance and The
Wilderness Society (collectively, “SUWA”), by and
through undersigned counsel, respectfully submit this
Motion to Intervene as Defendants and Memorandum in
Support. Pursuant to Rule 24(c), proposed Answers to
Plaintiffs’ operative Complaints are attached hereto as
Exhibits A and B.
RELIEF SOUGHT AND GROUNDS FOR MOTION

SUWA hereby moves to intervene as of right in this
action under Rule 24(a) of the Federal Rules of Civil
Procedure. SUWA more than adequately satisfies the
legal requirements for intervention as of right. SUWA’s
interests are not likely to be adequately represented by
the United States in this litigation, particularly given
the recent change in administration and the fact that the
United States has entered into active settlement discussions in this case (but has not responded to SUWA’s requests for information about and involvement in such
discussions). The landscape has thus changed significantly since SUWA last moved to intervene, and as a result of those changes SUWA should be granted full intervenor status. SUWA respectfully requests that the

434a
Court grant this Motion and recognize SUWA as an
intervenor-defendant as of right.
INTRODUCTION

SUWA moved to intervene at the outset of this case
to protect its undisputed interest in federal public lands
threatened by R.S. 2477 rights-of-way in Kane County.
This Court denied the motion, and the Tenth Circuit affirmed solely on the ground that SUWA had “failed to
establish, at [that] stage of the litigation, that the federal government will not adequately protect its interest.” Kane Cnty. v. United States, 597 F.3d 1129, 1135
(10th Cir. 2010). 1 The appeals court explained that
“the federal government ‘ha[d] displayed no reluctance
[in these proceedings], at least so far as the record before [it] show[ed], to claim full title to’ the roads at issue.” Id. (quoting San Juan Cnty. Utah v. United
States, 503 F.3d 1163, 1206 (10th Cir. 2007) (en banc)
(opinion of Hartz, J.)). Moreover, the Tenth Circuit
presumed that the proceeding would determine only title, and not “a ‘nuanced’ determination encompassing
‘not only whether there w[as] any right-of-way, but also
the nature and scope of that right-of-way if it d[id] exist.’ ” Id. at 1134 (quoting San Juan Cnty., 503 F.3d at
1228 (opinion of Ebel, J.)). Since this Court and the
Tenth Circuit previously considered the issue of intervention, the nature of this proceeding, as well as the
United States’ litigation position, have both changed.
The case has been remanded for this Court to reconsider
its scope determinations for the Skutumpah, Swallow
Park, and North Swag roads. Further, the United
The Tenth Circuit also summarily denied a later motion to intervene on appeal. See Order, Appeal Nos. 13-4108, 13-4109 & 13-4110
(10th Cir. Sept. 2, 2014).
1

435a
States, the State of Utah (the “State”), and Kane County
(the “County”) have begun settlement discussions to resolve these scope issues. These changes in circumstance have eliminated the bases for previous denials of
SUWA’s intervention. As explained more fully below,
SUWA is now entitled to intervene as of right.
APPLICANTS FOR INTERVENTION

The Southern Utah Wilderness Alliance is a nonprofit corporation with thousands of members throughout the United States, many of whom live and recreate
in Utah. The Alliance is dedicated to preserving the
outstanding wilderness and other sensitive public lands
at the heart of the Colorado Plateau, as well as encouraging management and preservation of those lands in
their natural state. See Decl. of Ray Bloxham ¶ 6 (attached as Exhibit C) (hereinafter “Bloxham Decl.”);
Decl. of Kya Marienfeld ¶ 3 (attached as Exhibit D)
(hereinafter “Marienfeld Decl.”). SUWA has undertaken many efforts to protect the lands at issue in this
litigation, such as aiding the Utah Wilderness Coalition
in its efforts to pass America’s Red Rock Wilderness
Act, which would designate as wilderness approximately
nine million acres of Utah lands managed by the U.S.
Bureau of Land Management (“BLM lands”), including
the areas bordering or containing the alleged R.S. 2477
rights-of-way at issue here, Bloxham Decl. ¶¶ 6-7. And
it has worked for decades to eliminate damage from motor vehicle use in Kane County. See, e.g., S. Utah Wilderness All. v. Bureau of Land Mgmt., 425 F.3d 735, 742
(10th Cir. 2005), as amended on denial of reh'g (Jan. 6,
2006) (discussing SUWA’s efforts to stop damage from
Kane County’s road maintenance and construction of al-

436a
leged R.S. 2477 rights-of-way). Furthermore, Southern Utah Wilderness Alliance members and staff use
and enjoy BLM lands in Kane County—including the
particular federal public lands at issue in this case—for
a variety of purposes, including photography, recreation, and aesthetic appreciation. Bloxham Decl. ¶ 12;
Marienfeld Decl. ¶ 6.
The Wilderness Society (“TWS”) is a non-profit national membership organization founded in 1935. Through
public education and advocacy, TWS works to protect
America’s wilderness and to develop a nationwide network of wild lands. Bloxham Decl. ¶ 8. TWS plays an
active role in the conservation community’s efforts to
protect Utah’s remaining wilderness character lands.
Id. It also conducts public education campaigns about
the value of America’s remaining wild lands, the threats
to those lands, and the public’s opportunity to take part
in the management decisions by the BLM and others
that will decide the fate of those lands. Id.
BACKGROUND

Kane County brought this action under the Quiet Title Act (“QTA”), 28 U.S.C. § 2409a, seeking to adjudicate
title and determine scope to fifteen routes traversing or
bordering BLM-managed federal public lands in southern Utah under R.S. 2477. The three R.S. 2477 rightsof-way subject to the Tenth Circuit’s remand order implicate four categories of federal public lands in which
SUWA has a particular interest: (1) wilderness study
areas (“WSAs”), which are lands recognized by BLM in
the 1980s as having wilderness values and are protected
by law and the agency’s own management plans; 2 (2)
2

See 43 U.S.C. § 1782.

437a
Utah Wilderness Coalition-proposed wilderness areas
(“UWC areas”), which are lands inventoried by the Utah
Wilderness Coalition and determined by conservationists to have wilderness character; (3) lands with wilderness characteristics (“LWCs”), which are lands the BLM
has determined to have wilderness character, apart
from WSAs; and (4) lands designated as part of the Grand
Staircase-Escalante National Monument, 3 including those
closed to motor vehicles by a 1999 Management Plan. 4
The use and maintenance of R.S. 2477 rights-of-way
have potentially damaging impacts on public resources
and land management. In a 1993 report to Congress, the
U.S. Department of the Interior (“DOI”) acknowledged
that “[r]ecognition and use of R.S. 2477 rights-of-way
could interfere with and prevent effective management
of the individual and common objectives of the affected
[land management] agencies.” Dep’t of the Interior, Report to Congress on R.S. 2477 at 35 (June 1993) (hereinafter “DOI Report”; attached as Exhibit E). DOI further concluded that “road-widening may directly impact
natural resources contiguous to the right-of-way.” Id.
Additionally, road improvements “could lead to direct
impacts resulting from better access to, and increased
use of, sensitive locations.” Id. The report stated
that these concerns are heightened when wilderness values are impacted by R.S. 2477 right-of-way claims. Id.
at 38.

See Proclamation 6920: Establishment of the Grand StaircaseEscalante National Monument, 61 Fed. Reg. 50, 223 (Sept. 18, 1996),
4
Notice of Availability: Grand Staircase-Escalante National Monument Approved Management Plan and Record of Decision, 65 Fed.
Reg. 10,819 (Feb. 29, 2000).
3

438a
To defend its interests in these lands against the
County’s claimed R.S. 2477 rights-of-way, SUWA moved
to intervene at the outset of this case. See Kane Cnty.
v. United States, Case No. 2:08-CV-315, 2009 WL 959804
(D. Utah Apr. 6, 2009). The Court denied SUWA’s motion on the grounds that (1) “the only issue in this case
is whether Kane County can establish that it holds title
to the roads at issue,” and SUWA is not a title-holder,
and (2) the United States’ assertion that “it has been and
will be vigorous in defending its claim to the legitimate
title to the roads.” Id. at *2 to *3. The Tenth Circuit
affirmed on only the second basis—that the United
States would adequately represent SUWA’s interests.
Consistent with the majority conclusion in San Juan
County, the Tenth Circuit assumed that SUWA had a
valid interest that may be impaired by the disposition of
the County’s claims; but it nonetheless held that SUWA
had “failed to establish, at [that] stage of the litigation,
that the federal government will not adequately protect
its interest.” Kane Cnty., 597 F.3d at 1135. The court
noted that, “as was the case in San Juan County, the
federal government ‘ha[d] displayed no reluctance [in
these proceedings], at least so far as the record before
[it] show[ed], to claim full title to’ the roads at issue, and
‘SUWA ha[d] provided no basis to predict that the [federal government] will fail to present . . . an argument on the merits that SUWA would make.” Id.
(quoting San Juan Cnty., 503 F.3d at 1206). 5
In the district court proceedings that followed the denial of intervention, the Court found that the State and
As explained infra, the Tenth Circuit concluded that for purposes of that motion to intervene SUWA had waived the issue of
the scope of the rights-of-way.
5

439a
County held title to twelve of the fifteen claims, including the claims for the Skutumpah, Swallow Park, and
North Swag roads. See Mem. Decision & Order, Kane
Cnty. v. United States, Case No. 2:08-cv-00315-CW (D.
Utah June 21, 2011), ECF No. 160; Kane Cnty. v. United
States, Case No. 2:08-cv-00315, 2013 WL 1180764 (D.
Utah Mar. 20, 2013). The United States and the State
and County cross-appealed the final orders to the Tenth
Circuit, which affirmed in part and reversed in part.
Kane Cnty. v. United States, 772 F.3d 1205, 1225 (10th
Cir. 2014). Relevant here, the Tenth Circuit reversed
this Court’s determination of the scope of the Skutumpah, Swallow Park, and North Swag roads for two
reasons: (1) the width determinations were not based
on what was reasonable and necessary based on proven
pre-1976 uses, and (2) the width determinations allowed
for unspecified future improvements. Id. at 1223-25.
The Tenth Circuit remanded the width determinations
to this Court, where they remain the final unresolved issue in the case. Id. at 1225.
On September 5, 2017, this Court ordered “supplemental briefing informing the court of the effect of the
Tenth Circuit’s decision in this case,” and to “inform the
court of the issues that remain to be resolved and
whether those issues can be decided on the existing record or if further fact finding is necessary.” Order,
Kane Cnty. (1) v. United States, 2:08-cv-00315-CW (D.
Utah Sept. 5, 2017), ECF No. 293. On September 15,
2017, the State, County, and United States filed a Joint
Motion to Stay the September 5 Order for supplemental
briefing because the parties are currently engaged in
settlement discussions “regarding the scope of the R.S.
2477 rights-of-way for the North Swag, Swallow Park,
and Skutumpah Roads.” Joint Mot. for Stay at 2, Kane

440a
Cnty. v. United States, 2:08-cv-003150-CW (D. Utah
Sept. 15, 2017), ECF No. 294. The Joint Motion indicated that settlement discussions had already begun,
and that the parties “are optimistic that they may be
able to reach agreement regarding the effect of the
Tenth Circuit Court’s decision in this case and resolve
the issues that remain before the Court.” Id. On September 18, 2017, this Court granted the Joint Motion,
and stayed proceedings until January 5, 2018. Order,
Kane Cnty. v. United States, 2:08-cv-00315-CW (D.
Utah Sept. 18, 2017), ECF No. 296.
On November 30, 2017, counsel for SUWA sent a letter to counsel for each of the parties asking for reasonable notice of any settlement discussions and an opportunity to attend and participate in such discussions.
See Letter from S. Bloch, SUWA, to A. Rampton et al.
(attached as Exhibit F ). SUWA asked that the parties
respond by December 7 whether they would mutually
agree to this request. As of the date of this filing, no
response has been received.
ARGUMENT
I.

SUWA IS ENTITLED TO INTERVENTION AS OF
RIGHT.

A party is entitled to intervene as of right when it can
establish the following four factors:
(1) the application is “timely;” (2) “the applicant
claims an interest relating to the property or transaction which is the subject of the action;” (3) the applicant’s interest “may as a practical matter” be “impair[ed] or impede[d];” and (4) “the applicant’s interest is not adequately represented by existing parties.”

441a
Coal. of Ariz./N.M. Counties for Stable Econ. Growth v.
U.S. Dep’t of Interior, 100 F.3d 837, 840 (10th Cir. 1996)
[hereinafter “Coalition of Counties”] (quoting Fed. R.
Civ. P. 24(a)(2)).
The intervention standards “are not rigid, technical
requirements,” San Juan Cnty., 503 F.3d at 1195, and
should be viewed in light of the Tenth Circuit’s “somewhat liberal line in allowing intervention.” Nat’l Farm
Lines v. Interstate Commerce Comm’n, 564 F.2d 381,
384 (10th Cir. 1977). The Court’s focus should be on
the “practical” effect the litigation would have on the
proposed intervenor, and consider the factors in a
“blended” fashion. San Juan Cnty., 503 F.3d at 118889, 1193, 1195-96. The “requirements for intervention
may be relaxed in cases raising significant public interests,” and the environmental concerns involved in this
case have been recognized as warranting such relaxed
treatment. Id. at 1201 (citing Cascade Natural Gas
Corp. v. El Paso Natural Gas Corp., 386 U.S. 129, 136
(1967)).
A.

SUWA’s Interests in the Lands at Issue Support
Intervention as of Right.

An applicant for intervention must establish “an interest relating to the property . . . which is the subject of the action.” Utah Ass’n of Counties v. Clinton,
255 F.3d 1246, 1249 (10th Cir. 2001) (quoting Fed. R.
Civ. P. 24(a)(2)). The applicant need not claim a legal
interest in the disputed property itself; rather, it need
only claim an interest relating to that property. See
San Juan Cnty., 503 F.3d at 1200; Utah Ass’n of Counties, 255 F.3d at 1252. SUWA’s interests clearly relate
to the property at issue on remand.

442a
The Tenth Circuit has acknowledged that “organizations whose purpose is the protection and conservation
of wildlife and its habitat have a protectable interest in
litigation that threatens those goals.” Utah Ass’n of
Counties, 255 F.3d at 1252; see also W. Energy Alliance
v. Zinke, Case No. 17-2005, slip op. at 12 (10th Cir. Dec.
18, 2017) (attached as Exhibit G) (acknowledging as sufficient interest for intervention as of right SUWA’s and
other conservation groups’ “record of advocacy for the
protection of public lands”). Consistent with this view,
in San Juan County, the court declared “it indisputable
that SUWA’s environmental concern is a legally protectable interest.” 503 F.3d at 1199. In reaching this conclusion, the San Juan County court noted that SUWA
members regularly visited the property at issue “for
conservation, aesthetic, scientific and recreational purposes”; that SUWA “ha[d] been a determined advocate
for restricting vehicular access to” the land at issue; and
that SUWA’s prior advocacy had played a role in the
protection the land enjoyed at that time. 503 F.3d at
1199. The court further noted that SUWA did not
claim title to the right-of-way at issue, but it held this
fact to be immaterial, as Rule 24(a)(2) required only that
SUWA claim an interest relating to that property. Id.
at 1200. In other words, the “interest” factor of the intervention standard does not require that SUWA stand
in the same position as the United States and be able to
assert the same legal interests; instead, this factor is applied flexibly, and is satisfied by interests SUWA undisputedly has.
Specifically, SUWA’s environmental concern is the
same here as it was in San Juan County: “the potential damage to the environment arising from vehicular
traffic” in the BLM lands surrounding the County’s

443a
claimed rights-of-way. 503 F.3d at 1199. Similar efforts on the part of SUWA and its members substantiate
this concern. SUWA’s members regularly visit the BLM
lands surrounding the County’s claimed rights-of-way
for aesthetic, health, and recreational purposes. See,
e.g., Bloxham Decl. ¶ 12. And for years SUWA has actively advocated for federal and other protections for
these lands. See, e.g., id. ¶¶ 2-8. SUWA has legally
protectable interests relating to the County’s R.S. 2477
rights-of-way over these lands, which are more than adequate to satisfy this factor and support SUWA’s request for intervention as of right.
B.

The Outcome of This Action, By Settlement or
Otherwise, Regarding the Scope of the State and
County’s R.S. 2477 Rights-of-Way May Impair
SUWA’s Interests.

To intervene as of right, SUWA must also “demonstrate that the disposition of this action may as a practical matter impair or impede [its] ability to protect [its]
interest.” Utah Ass’n of Counties, 255 F.3d at 1253.
Yet “[a] would-be intervenor must show only that impairment of its substantial legal interest is possible if intervention is denied.” Id. (emphasis added).
SUWA’s interests, including its interest in the scope
of the rights-of-way being limited to pre-1976 uses and
widths that do not exceed the disturbed roadbed, may
be impaired if SUWA is denied intervention. Any scope
settlement that is not tightly correlated with reliable evidence as to pre-1976 uses and widths necessarily impairs SUWA’s interests and expands the scope of the
State and County’s rights-of-way beyond their legal entitlement.

444a
Further, a settlement regarding the scope of the
State and County’s three R.S. 2477 rights-of-way could
irreparably impair SUWA’s conservation interests in at
least three significant ways. First, any settlement outcome that provides the County or State with rights to
use or maintain any of the three routes beyond their current footprint would almost certainly result in damage
to natural resources (i.e., soils and vegetation) and the
environment within the Grand Staircase-Escalante National Monument, the Paria-Hackberry WSA, and other
lands with wilderness characteristics. Bloxham Decl.
¶¶ 12-14. Second, an adverse settlement could encourage or at the very least open the door for illegal off-route
vehicle use by making vehicle access to remote, sensitive
areas easier. This would be particularly so for the
North Swag Road because it extends deep into the
Paria-Hackberry WSA. Such use would degrade the
surrounding wilderness, wildlife, and other resources
that SUWA has long fought to protect. Id. ¶¶ 2-8, 1215; see, e.g., DOI Report at 35, 38. Third, a settlement
regarding scope could impede SUWA’s ability to secure
wilderness protection of the surrounding lands from
Congress—one of SUWA’s most fundamental goals.
The BLM manages WSAs in part to protect their roadless nature; by introducing wider, maintained roads in
these areas, the County could undermine the management goals SUWA has already achieved, as well as for
other non-WSA lands with wilderness characteristics it
continues to strive for through the passage of America’s
Red Rock Wilderness Act. See Bloxham Decl. ¶¶ 3, 6,
15; see Utah v. United States, No. 05-cv-714, 2008 WL
4170017, at *4 (D. Utah Sept. 3, 2008) (“A ruling on the
merits favoring plaintiffs . . . would change the land
management ability of the federal agency as to those

445a
routes, and may reduce the chance that the federal land
would retain its wilderness characteristics.”). For these
reasons, a settlement threatens to impair SUWA’s legally protectable interest in the lands burdened by the
Skutumpah, Swallow Park, and North Swag rights-ofway.
C.

The United States May Not Adequately Represent
SUWA’s Interests.

Once a movant establishes possible impairment of an
interest relating to the property at issue, the movant is
entitled to intervene on a timely motion “unless existing
parties adequately represent that interest.” Fed. R.
Civ. P. 24(a)(2). The inadequate representation requirement “is satisfied if the applicant shows that the
representation of his interest ‘may be’ inadequate; and
the burden of making that showing should be treated as
minimal.” Trbovich v. United Mine Workers of Am.,
404 U.S. 528, 538 n.10 (1972); see also WildEarth Guardians, 604 F.3d at 1200. To satisfy this minimal burden,
“[t]he possibility that the interests of the applicant and
the parties may diverge ‘need not be great.’ ” Utah
Ass’n of Counties, 255 F.3d at 1254 (quoting Nat. Res.
Def. Council v. U.S. Nuclear Reg. Comm’n, 578 F.2d
1341, 1346 (10th Cir. 1978)).
When SUWA sought to intervene at the outset of this
case in 2008, its sole barrier to doing so was the finding
that the United States would adequately represent its
interests. This Court based its denial on the assumption that “the only issue to be resolved” was whether the
United States or the County held title to the claims.
Kane Cnty., 2009 WL 959804, at *3. The Tenth Circuit,
after concluding for purposes of that motion that SUWA
had waived issues regarding scope, determined that the

446a
United States had shown “no reluctance” to claim full
title to the roads, and that SUWA had provided “no basis to predict that the [federal government] will fail to
present . . . an argument on the merits that SUWA
would make.” Kane Cnty., 597 F.3d at 1135 (quoting
San Juan Cnty., 503 F.3d at 1206). These predicates
against intervention are all now gone.
The current proceedings center exclusively on the
scope of R.S. 2477 rights-of-way, not a binary determination of their title. And the United States is actively
seeking to settle the matter of scope with the State and
County, a reversal from its prior position of vigorously
defending against the claims.
For these reasons,
SUWA can no longer rely on the United States to adequately represent its conservation interest in these remanded proceedings.
1. The Current Proceedings Involve the Scope and
Nature of the Skutumpah, Swallow Park, and North
Swag Rights-of-Way, Not Binary Determinations
of Title.
The Tenth Circuit has repeatedly recognized that the
United States’ role in representing the broad interests
of the general public may preclude it from adequately
representing a prospective intervenor’s narrower interest, such as SUWA’s conservation interest here. See
San Juan Cnty., 503 F.3d at 1204, 1227; Utahns for Better Transp., 295 F.3d at 1117; Utah Ass’n of Counties,
255 F.3d at 1255-56; Coalition of Counties, 100 F.3d at
845-46; Nat’l Farm Lines, 564 F.2d at 383-84. This is
especially true with respect to these remand proceedings to determine the scope and nature of adjudicated
R.S. 2477 rights-of-way. Judge Ebel, writing for a
four-judge plurality in San Juan County, recognized

447a
that R.S. 2477 cases necessitate a “nuanced” determination of “not only whether there is any right of way, but
also the nature and scope of that right of way if it did
exist.” 503 F.3d at 1228. Conservation groups will always “want any right of way that does exist to be drawn
as narrowly as possible,” and the interests of the United
States “will involve a much broader range of interests.”
Id. at 1228-29. Thus, the “potential and even likelihood
of a conflict between the positions of the United States
and [conservation groups] cannot be avoided” at the
scope phase of this case. Id. at 1229.
Neither this Court nor the Tenth Circuit has yet had
an opportunity to address Judge Ebel’s concurrence or
the inevitable conflict regarding the scope of rights-ofway. This Court’s earlier decision relied on “SUWA’s
concession at oral argument” on its prior motion to intervene “that the only issue to be resolved” in the original proceeding was “whether the United States or Kane
County holds title.” Kane Cnty., 2009 WL 959804, at
*2 to *3. The Tenth Circuit likewise relied on this concession for its holding that the United States would adequately represent SUWA’s interests:
“any argument” regarding potential scope “has, for the purposes
of this appeal, been waived.” Kane Cnty., 597 F.3d at
1135. This is no longer the case.
Now, the proceedings focus exclusively on matters of
scope, and require precisely the “nuanced” determination warranting intervention. On remand, and in accordance with its interest in the conservation and protective management of the servient estate, SUWA would
seek the narrowest possible determination of width of
the adjudicated roads, as well as the most restrictive
conditions on the allowable maintenance and use within

448a
the rights-of-way, that is consistent with reliable evidence concerning pre-1976 uses and widths. The United
States, on the other hand, will be required to weigh various considerations, including “competing policy, economic, political, legal and environmental factors.” San
Juan Cnty., 503 F.3d at 1229. These factors will go far
beyond, and may directly conflict with, SUWA’s focused
conservation interest.
2. Ongoing Settlement Discussions Between the
Parties Indicate that the United States Will Not
Adequately Represent SUWA’s Interests.
The United States’ entry into settlement discussions
with the State and County regarding the scope of these
three rights-of-way further undercuts any argument
that it adequately represents SUWA’s interests. “If
[a] case is disposed of by settlement rather than by litigation, what the [defendant] perceives as being in its interest may diverge substantially from the [intervenors’]
interests.” Mille Lacs Band of Chippewa Indians v.
State of Minn., 989 F.2d 994, 1001 (8th Cir. 1993). Accordingly, courts have allowed conservation groups to
intervene in R.S. 2477 cases specifically to participate in
settlement proceedings. See, e.g., United States v.
Carpenter, 526 F.3d 1237, 1241 (9th Cir. 2008).
The United States has put itself in a position to make
further concessions to the Plaintiffs beyond “competing
policy, economic, political, legal and environmental factors” that preclude adequate representation of SUWA’s
conservation interests. San Juan Cnty., 503 F.3d at
1229. SUWA is entitled to intervene as of right in
these proceedings to protect from the threat of settlement its “requisite interest in seeing that the wilderness

449a
area be preserved for the use and enjoyment of [its]
members.” Carpenter, 526 F.3d at 1240.
3. The United States’ Recent Policy Shifts in the
Statewide R.S. 2477 Cases Shows that the United
States Will Not Defend SUWA’s Conservation Interest.
When the United States is a party, “it is not realistic
to assume that the agency’s programs will remain static
or unaffected by unanticipated policy shifts.” Utah
Ass’n of Counties, 255 F.3d at 1256 (quotation omitted)).
Indeed, the Tenth Circuit recently reversed a district
court’s denial of SUWA’s and other conservation groups’
motion to intervene in a lawsuit against the Trump Administration based in part on “the change in the Administration[, which] raises the possibility of divergence of
interest or a shift during the litigation.” W. Energy Alliance, Case No. 17-2005, slip op. at 20-21 (internal citations and quotations omitted) (noting “[t]his possibility
has already manifested itself in other arenas,” and citing
examples of the Trump Administration’s shifts on conservation issues). Such a policy shift has happened
here since remand, as reflected in other related R.S.
2477 cases. Spurred by the change in presidential administrations, the State and United States began unilateral 6 settlement discussions in April 2017 in the statewide
R.S. 2477 cases, which involve more than 14,000 claimed
rights-of-way. See Memo. To Acting Solicitor at 2, Settlement considerations in the Utah Quiet Title Act/R.S.
2477 cases (April 2017) (attached as Exhibit H) (discussing the State and United States’ agreement “to begin a
Earlier settlement discussions focusing specifically on Iron
County included SUWA and The Wilderness Society as participants.
See Exhibit H at 2.
6

450a
dialogue to explore potential resolutions to the R.S. 2477
issue under this administration”). The United States’
position change in these cases matches its change here
—from defending R.S. 2477 claims to bargaining them
without SUWA’s involvement or participation. SUWA
cannot rely on the United States to defend its focused
interest in land protection at the same time the United
States is scaling back its defense of thousands of R.S.
2477 claims.
D.

SUWA’s Motion for Intervention Is Timely.

“The timeliness of a motion to intervene is assessed
in light of all the circumstances, including the length of
time since the applicant knew of his interest in the case,
prejudice to the existing parties, prejudice to the applicant, and the existence of any unusual circumstances.”
Elliott Indus. Ltd. Partnership v. BP America Prod.
Co., 407 F.3d 1091, 1103 (10th Cir. 2005) (quoting Utah
Ass’n of Counties, 255 F.3d at 1250). This requirement
“is not a tool of retribution to punish the tardy would-be
intervenor, but rather a guard against prejudicing the
original parties by the failure to apply sooner.” Utah
Ass’n of Counties, 255 F.3d at 1250 (quoting Sierra Club
v. Espy, 18 F.3d 1202, 1205 (5th Cir. 1994)). Accordingly, “courts should allow intervention ‘where no one
would be hurt and greater justice could be attained.’ ”
Id. (quoting Sierra Club, 18 F.3d at 1205).
Under this standard, SUWA’s motion is timely. As
Judge Hartz recognized in San Juan County, the previous denial of intervention “does not forever foreclose
SUWA from intervention.” 503 F.3d at 1207. “If developments after the original application undermine the
presumption that the Federal Defendants would ade-

451a
quately represent its interest, the matter may be revisited.” Id. As discussed above, the proceedings have
changed—from a binary determination of title, the basis
of previous denials of intervention, 7 to scope determinations that directly threaten SUWA’s interests. Additionally, the United States’ shift to settlement of the remanded questions undercuts any assertion that it will
adequately represent SUWA’s interests.
SUWA’s motion is also timely because it only learned
that the United States and the State and County began
settlement discussions in this case in September 2017,
upon the filing of the Joint Motion for Stay. Cf. United
States v. Carpenter, 298 F.3d 1122, 1125 (9th Cir. 2002).
It has since sought informal involvement in those discussions, but has received no response from the United
States, State or County. Moreover, the parties will not
be prejudiced by SUWA’s intervention. They have not
yet entered into a settlement or otherwise resolved the
remanded questions. And SUWA is filing this Motion
in advance of January 5, 2018, the date the Court’s stay
on these proceedings ends. See ECF No. 296. SUWA’s
Motion is timely, and it is entitled to intervene as of
right.

SUWA does not concede that previously in these proceedings the
United States adequately represented its interests. Rather, as explained herein, recent settlement discussions between the United
States and the Plaintiffs have made perfectly clear that at this point
in time the United States may not—and likely does not—adequately
represent SUWA’s interests.
7

452a
CONCLUSION

For the reasons set forth above, SUWA respectfully
requests that this Court enter an order granting them
intervention as of right as Defendants in this action.
DATED this 27th day of Dec., 2017.
/s/

JESS M. KRANNICH
JESS. M. KRANNICH
MANNING CURTIS
BRADSHAW & BEDNAR PLLC
Brent V. Manning (# 2075)
Jess M. Krannich (#14398)
Mitch M. Longson (#15661)
136 East South Temple, Suite 1300
Salt Lake City, Utah 84111
Telephone: (801) 363-5678
Facsimile: (801) 364-5678
SOUTHERN UTAH WILDERNESS
ALLIANCE
Stephen H.M. Bloch, # 7813
Joseph J. Bushyhead, # 15046
425 East 100 South
Salt Lake City, UT 84111
Telephone: (801) 486-3161
Facsimile: (801) 486-4233
Attorneys for Proposed IntervenorDefendants
Southern Utah Wilderness Alliance, et al

453a

Exhibit A

454a
UNITED STATES JUDICIAL DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, UTAH AND STATE OF UTAH, PLAINTIFFS
v.
UNITED STATES OF AMERICA, DEFENDANT
AND

SOUTHERN UTAH WILDERNESS ALLIANCE AND
THE WILDERNESS SOCIETY,
PROPOSED INTERVENOR-DEFENDANTS
Filed:

Dec. 27, 2017

PROPOSED INTERVENOR-DEFENDANT
SOUTHERN UTAH WILDERNESS ALLIANCE’S
ANSWER TO FIRST AMENDED COMPLAINT

The Court has previously quieted title to several of
the claimed R.S. 2477 routes in Plaintiff ’s First Amended
Complaint, including the Skutumpah, North Swag, and
Swallow Park routes. The Tenth Circuit affirmed the
Court’s decision as to title of these routes, but remanded
for reconsideration of the routes’ scope, i.e., the disturbed area width of each route. Thus, on remand, the
only issue SUWA believes requires adjudication is the
scope of the Skutumpah, North Swag, and Swallow Park
routes, and SUWA answers only the allegations in the
First Amended Complaint related to that issue and
those routes. To the extent SUWA does not specifically
answer any allegation herein that remains at issue on

455a
remand, SUWA lacks information sufficient to admit or
deny such allegation(s) and therefore denies the same.
JURISDICTION AND VENUE

In response to the specific allegations of the Complaint, Proposed Intervenor-Defendant alleges as follows:
1.

See explanation above.

2.

See explanation above.

3.

See explanation above.

4.

See explanation above.
PARTIES AND INTEREST

5.

See explanation above.

6.

See explanation above.

7.

See explanation above.

CONGRESSIONAL GRANT OF RIGHTS-OF-WAY FOR
PUBLIC HIGHWAYS CROSSING PUBLIC LAND

8.

See explanation above.

9.

See explanation above.

10. See explanation above.
11. Paragraph 11 states a legal conclusion to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
12. See explanation above.
13. See explanation above.

456a
14. Paragraph 14 states a legal conclusion to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
15. Paragraph 15 states a legal conclusion to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
16. Paragraph 16 states a legal conclusion to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
17. See explanation above.
18. See explanation above.
19. See explanation above.
20. See explanation above.
LONG-STANDING DEPARTMENT OF INTERIOR INTERPRETATION OF R.S. 2477

21. SUWA admits that the U.S. Department of Interior has promulgated past regulations related to R.S.
2477, and denies the remaining allegations in Paragraph
21.
22. See explanation above.
23. See explanation above.
24. See explanation above.
25. See explanation above.
26. See explanation above.
27. Paragraph 27 states a legal conclusion to which
no response is required. To the extent a response is

457a
required, SUWA denies these allegations. SUWA further denies that the scope of any right-of-way at issue is
66 feet in width.
28. Paragraph 28 states a legal conclusion to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
ACCEPTANCE AND SCOPE OF KANE COUNTY’S R.S.
2477 RIGHTS-OF-WAY

29.

See explanation above.

30.

See explanation above.

31.

See explanation above.

32.

See explanation above.

33.

See explanation above.

34.

See explanation above.

35.

See explanation above.

THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE AND
CAVE LAKES ROADS

36.

See explanation above.

37.

See explanation above.

38.

See explanation above.

39.

See explanation above.

40.

See explanation above.

41.

See explanation above.

42.

See explanation above.

458a
43.

See explanation above.

44.

See explanation above.

45.

See explanation above.

46.

See explanation above.

47.

See explanation above.

48.

See explanation above.

49.

See explanation above.

50.

See explanation above.
THE CASE OR CONTROVERSY

The Mill Creek and Bald Knoll Roads

51.

See explanation above.

52.

See explanation above.

53.

See explanation above.

54.

See explanation above.

55.

See explanation above.

56.

See explanation above.

57.

See explanation above.

58.

See explanation above.

59.

See explanation above.

60.

See explanation above.

61.

See explanation above.

62.

See explanation above.

63.

See explanation above.

64.

See explanation above.

459a
65.

See explanation above.

66.

See explanation above.

67.

See explanation above.

68.

See explanation above.

69.

See explanation above.

70.

See explanation above.

71.

See explanation above.

72.

See explanation above.

73.

See explanation above.

74.

See explanation above.

75.

See explanation above.

76.

See explanation above.

77.

See explanation above.

78.

See explanation above.

79.

See explanation above.

The Skutumpah Road

80.

See explanation above.

81.

See explanation above.

82.

See explanation above.

83.

See explanation above.

84.

See explanation above.

85.

See explanation above.

86.

See explanation above.

87.

See explanation above.

460a
88.

See explanation above.

89.

See explanation above.

90.

See explanation above.

The Sand Dune and Hancock Roads

91.

See explanation above.

92.

See explanation above.

93.

See explanation above.

94.

See explanation above.

95.

See explanation above.

96.

See explanation above.

97.

See explanation above.

98.

See explanation above.

The Swallow Park/Park Wash, North Swag, and Nipple
Lake Roads

99.

See explanation above.

100. See explanation above.
101. See explanation above.
102. See explanation above.
103. See explanation above.
104. See explanation above.
105. See explanation above.
106. See explanation above.
107. See explanation above.
108. See explanation above.

461a
109. See explanation above.
The Cave Lakes Roads

110. See explanation above.
111. See explanation above.
112. See explanation above.
113. See explanation above.
114. See explanation above.
115. See explanation above.
116. See explanation above.
117. See explanation above.
118. See explanation above.
FIRST CAUSE OF ACTION — QUIET TITLE
MILL CREEK ROAD

119. See explanation above.
Description of Mill Creek Road R.S. 2477 Right-of-Way

120. See explanation above.
121. See explanation above.
122. See explanation above.
123. See explanation above.
124. See explanation above.
125. See explanation above.
126. See explanation above.
127. See explanation above.

462a
Maps Depicting Mill Creek Road R.S. 2477 Right-of-Way

128. See explanation above.
129. See explanation above.
130. See explanation above.
131. See explanation above.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

132. See explanation above.
133. See explanation above.
134. See explanation above.
135. See explanation above.
136. See explanation above.
137. See explanation above.
138. See explanation above.
139. See explanation above.
140. See explanation above.
141. See explanation above.
142. See explanation above.
143. See explanation above.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

144. See explanation above.
145. See explanation above.
146. See explanation above.
147. See explanation above.

463a
148. See explanation above.
149. See explanation above.
150. See explanation above.
151. See explanation above.
SECOND CAUSE OF ACTION — QUIET TITLE
BALD KNOLL ROAD

152. See explanation above.
Description of Bald Knoll Road R.S. 2477 Right-of-Way

153. See explanation above.
154. See explanation above.
155. See explanation above.
156. See explanation above.
157. See explanation above.
158. See explanation above.
Maps Depicting the Bald Knoll Road R.S. 2477 Right-ofWay

159. See explanation above.
160. See explanation above.
161. See explanation above.
162. See explanation above.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

163. See explanation above.
164. See explanation above.
165. See explanation above.

464a
166. See explanation above.
167. See explanation above.
168. See explanation above.
169. See explanation above.
170. See explanation above.
171. See explanation above.
172. See explanation above.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

173. See explanation above.
174. See explanation above.
175. See explanation above.
176. See explanation above.
177. See explanation above.
178. See explanation above.
179. See explanation above.
180. See explanation above.
THIRD CAUSE OF ACTION — QUIET TITLE
SKUTUMPAH ROAD

181. See explanation above.
Description of Skutumpah Road R.S. 2477 Right-of-Way

182. See explanation above.
183. See explanation above.
184. See explanation above.

465a
185. Paragraph 185 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
Maps Depicting the Skutumpah Road R.S. 2477 Right-ofWay

186. See explanation above.
187. See explanation above.
188. See explanation above.
189. See explanation above.
190. See explanation above.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

191. See explanation above.
192. See explanation above.
193. Paragraph 193 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations. SUWA further
denies that the scope of the right-of-way is 66 feet in
width.
194. See explanation above.
195. See explanation above.
196. See explanation above.
197. See explanation above.
198. See explanation above.
199. See explanation above.

466a
200. SUWA lacks information sufficient to admit or
deny the allegations in paragraph 200, and therefore denies the same.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

201. See explanation above.
202. See explanation above.
203. See explanation above.
204. See explanation above.
205. See explanation above.
206. Paragraph 206 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
207. See explanation above.
208. See explanation above.
FOURTH CAUSE OF ACTION — QUIET TITLE
SAND DUNE ROAD

209. See explanation above.
Description of Sand Dune Road R.S. 2477 Right-of-Way

210. See explanation above.
211. See explanation above.
212. See explanation above.
213. See explanation above.
Maps Depicting the Sand Dune Road R.S. 2477 Right-ofWay

214. See explanation above.

467a
215. See explanation above.
216. See explanation above.
217. See explanation above.
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

218. See explanation above.
219. See explanation above.
220. See explanation above.
221. See explanation above.
222. See explanation above.
223. See explanation above.
224. See explanation above.
225. See explanation above.
226. See explanation above.
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

227. See explanation above.
228. See explanation above.
229. See explanation above.
230. See explanation above.
231. See explanation above.
232. See explanation above.
233. See explanation above.
234. See explanation above.

468a
FIFTH CAUSE OF ACTION — QUIET TITLE
HANCOCK ROAD

235. See explanation above.
Description of Hancock Road R.S. 2477 Right-of-Way

236. See explanation above.
237. See explanation above.
238. See explanation above.
239. See explanation above.
Maps Depicting the Hancock Road R.S. 2477 Right-of-Way

240. See explanation above.
241. See explanation above.
242. See explanation above.
243. See explanation above.
244. See explanation above.
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
Prior to October 21, 1976.

245. See explanation above.
246. See explanation above.
247. See explanation above.
above. [sic]
248. See explanation above.
249. See explanation above.
250. See explanation above.
251. See explanation above.
252. See explanation above.

See explanation

469a
253. See explanation above.
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
By Public Use Prior to 1976.

254. See explanation above.
255. See explanation above.
256. See explanation above.
257. See explanation above.
258. See explanation above.
259. See explanation above.
260. See explanation above.
261. See explanation above.
SIXTH CAUSE OF ACTION — QUIET TITLE
SWALLOW PARK/PARK WASH ROAD

262. See explanation above.
Description of Swallow Park/Park Wash Road R.S. 2477
Right-of-Way

263. See explanation above.
264. See explanation above.
265. See explanation above.
266. Paragraph 266 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations. SUWA further
denies that the scope of the right-of-way is 66 feet in
width.

470a
Maps Depicting the Swallow Park/Park Wash R.S. 2477
Right-of-Way

267. See explanation above.
268. See explanation above.
269. See explanation above.
270. See explanation above.
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way Prior to October 21, 1976.

271. See explanation above.
272. See explanation above.
273. Paragraph 273 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
274. See explanation above.
275. See explanation above.
276. See explanation above.
277. See explanation above.
278. See explanation above.
279. See explanation above.
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way By Public Use Prior to 1976.

280. See explanation above.
281. See explanation above.
282. See explanation above.

471a
283. See explanation above.
284. See explanation above.
285. Paragraph 285 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
286. See explanation above.
287. See explanation above.
SEVENTH CAUSE OF ACTION — QUIET TITLE
NORTH SWAG ROAD

288. See explanation above.
Description of North Swag Road R.S. 2477 Right-of-Way

289. See explanation above.
290. See explanation above.
291. See explanation above.
292. Paragraph 292 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
Maps Depicting the North Swag Road R.S. 2477 Right-ofWay

293. See explanation above.
294. See explanation above.
295. See explanation above.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

296. See explanation above.

472a
297. See explanation above.
298. Paragraph 298 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
299. See explanation above.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

300. See explanation above.
301. See explanation above.
302. See explanation above.
303. See explanation above.
304. See explanation above.
305. Paragraph 305 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
306. See explanation above.
307. See explanation above.
EIGHTH CAUSE OF ACTION — QUIET TITLE
NIPPLE LAKE ROAD

308. See explanation above.
Description of the Nipple Lake Road R.S. 2477 Right-ofWay

309. See explanation above.
310. See explanation above.
311. See explanation above.

473a
312. See explanation above.
Maps Depicting the Nipple Lake Road R.S. 2477 Right-ofWay

313. See explanation above.
314. See explanation above.
315. See explanation above.
316. See explanation above.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

317. See explanation above.
318. See explanation above.
319. See explanation above.
320. See explanation above.
321. See explanation above.
322. See explanation above.
323. See explanation above.
324. See explanation above.
325. See explanation above.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

326. See explanation above.
327. See explanation above.
328. See explanation above.
329. See explanation above.
330. See explanation above.

474a
331. See explanation above.
332. See explanation above.
333. See explanation above.
NINTH CAUSE OF ACTION — QUIET TITLE
CAVE LAKES ROADS

334. See explanation above.
Description of the Cave Lakes Roads R.S. 2477 Rights-ofWay

335. See explanation above.
336. See explanation above.
337. See explanation above.
338. See explanation above.
339. See explanation above.
340. See explanation above.
341. See explanation above.
342. See explanation above.
343. See explanation above.
344. See explanation above.
Maps Depicting the Cave Lakes Roads R.S. 2477 Right-ofWay

345. See explanation above.
346. See explanation above.
347. See explanation above.
348. See explanation above.

475a
Acceptance of the Cave Lakes Roads R.S. 2477 Rights-ofWay By Public Use Prior to 1976.

349. See explanation above.
350. See explanation above.
351. See explanation above.
352. See explanation above.
353. See explanation above.
354. See explanation above.
355. See explanation above.
356. See explanation above.
357. See explanation above.
358. See explanation above.
359. See explanation above.
360. See explanation above.
361. See explanation above.
362. See explanation above.
363. See explanation above.
364. See explanation above.
RESPONSE TO PLAINTIFF ’S PRAYER FOR RELIEF

Proposed Intervenor-Defendant denies that Plaintiff
is entitled to any of the remedies requested regarding
scope of rights-of-way on any grounds, whether at law
or in equity. Proposed Intervenor-Defendant denies
any other allegations of the First Amended Complaint
not specifically admitted herein, consistent with the explanation set forth above.

476a
DATED this _____ day of Dec., 2017.
MANNING CURTIS BRADSHAW & BEDNAR PLLC

Brent V. Manning
Jess M. Krannich
Mitch M. Longson
SOUTHERN UTAH WILDERNESS ALLIANCE
Stephen H.M. Bloch
Joseph J. Bushyhead
Attorneys for Proposed Intervenor-Defendant
Southern Utah Wilderness Alliance

477a

Exhibit B

478a
UNITED STATES JUDICIAL DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, UTAH, AND STATE OF UTAH, PLAINTIFFS
v.
UNITED STATES OF AMERICA, DEFENDANT
AND

SOUTHERN UTAH WILDERNESS ALLIANCE, AND
THE WILDERNESS SOCIETY,
PROPOSED INTERVENOR-DEFENDANTS
Filed:

Dec. 27, 2017

PROPOSED INTERVENOR-DEFENDANT
SOUTHERN UTAH WILDERNESS ALLIANCE’S
ANSWER TO INTEVENOR’S COMPLAINT TO
QUIET TITLE

The Court has previously quieted title to several of
the claimed R.S. 2477 routes in Intervenor State of Utah’s
Complaint, including the Skutumpah, North Swag, and
Swallow Park routes. The Tenth Circuit affirmed the
Court’s decision as to title of these routes, but remanded
for reconsideration of the routes’ scope, i.e., the disturbed area width of each route. Thus, on remand, the
only issue SUWA believes requires adjudication is the
scope of the Skutumpah, North Swag, and Swallow Park
routes, and SUWA answers only the allegations in Intervenor’s Complaint related to that issue and those

479a
routes. To the extent SUWA does not specifically answer any allegation herein that remains at issue on remand, SUWA lacks information sufficient to admit or
deny such allegation(s) and therefore denies the same.
INTRODUCTION

In response to the specific allegations of the Complaint, Defendant alleges as follows:
1.

See explanation above.
JURISDICTION AND VENUE

2.

See explanation above.

3.

See explanation above.
PARTIES

4.

See explanation above.

5.

See explanation above.

6.

See explanation above.

BACKGROUND AND ALLEGATIONS REGARDING
R.S. 2477 HIGHWAYS WITHIN THE STATE OF UTAH

7.

See explanation above.

8.

See explanation above.

9.

See explanation above.

10. See explanation above.
11. Paragraph 11 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
12. See explanation above.

480a
13. Paragraph 13 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations.
14. Paragraph 14 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations.
15. Paragraph 15 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations.
16. See explanation above.
17. See explanation above.
18. See explanation above.
19. See explanation above.
20. See explanation above.
21. See explanation above.
22. See explanation above.
23. See explanation above.
ACCEPTANCE AND SCOPE OF KANE COUNTY AND
THE STATE OF UTAH’S R.S. 2477 RIGHTS-OF-WAY

24. See explanation above.
25. See explanation above.
26. See explanation above.
27. See explanation above.
28. See explanation above.
29. See explanation above.
30. See explanation above.

481a
THE MILL CREEK, BALD KNOLL, SKUTUMPAH,
SAND DUNE, HANCOCK, SWALLOW PARK/PARK
WASH, NORTH SWAG, NIPPLE LAKE AND CAVE
LAKES ROADS

31. See explanation above.
32. See explanation above.
33. See explanation above.
34. See explanation above.
35. See explanation above.
36. See explanation above.
37. See explanation above.
38. See explanation above.
39. See explanation above.
40. See explanation above.
41. See explanation above.
42. See explanation above.
43. See explanation above.
44. See explanation above.
FIRST CAUSE OF ACTION — QUIET TITLE
MILL CREEK ROAD

45. See explanation above.
Description of Mill Creek Road R.S. 2477 Right-of-Way

46. See explanation above.
47. See explanation above.
48. See explanation above.

482a
49. See explanation above.
50. See explanation above.
51. See explanation above.
52. See explanation above.
53. See explanation above.
Maps Depicting Mill Creek Road R.S. 2477 Right-of-Way

54. See explanation above.
55. See explanation above.
56. See explanation above.
57. See explanation above.
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

58. See explanation above.
59. See explanation above.
60. See explanation above.
61. See explanation above.
62. See explanation above.
63. See explanation above.
64. See explanation above.
65. See explanation above.
66. See explanation above.
67. SUWA lacks information sufficient to admit or
deny the allegations in paragraph 67, and therefore denies the same.

483a
Acceptance of the Mill Creek Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

68. See explanation above.
69. See explanation above.
70. See explanation above.
71. See explanation above.
72. See explanation above.
73. See explanation above.
74. See explanation above.
75. See explanation above.
SECOND CAUSE OF ACTION — QUIET TITLE
BALD KNOLL ROAD

76. See explanation above.
Description of Bald Knoll Road R.S. 2477 Right-of-Way

77. See explanation above.
78. See explanation above.
79. See explanation above.
80. See explanation above.
81. See explanation above.
82. See explanation above.
Maps Depicting the Bald Knoll Road R.S. 2477 Right-ofWay

83. See explanation above.
84. See explanation above.
85. See explanation above.

484a
86. See explanation above.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

87. See explanation above.
88. See explanation above.
89. See explanation above.
90. See explanation above.
91. See explanation above.
92. See explanation above.
93. See explanation above.
94. See explanation above.
95. SUWA lacks information sufficient to admit or
deny the allegations in paragraph 95, and therefore denies the same.
Acceptance of the Bald Knoll Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

96.

See explanation above.

97.

See explanation above.

98.

See explanation above.

99.

See explanation above.

100. See explanation above.
101. See explanation above.
102. See explanation above.
103. See explanation above.

485a
THIRD CAUSE OF ACTION — QUIET TITLE
SKUTUMPAH ROAD

104. See explanation above.
Description of Skutumpah Road R.S. 2477 Right-of-Way

105. See explanation above.
106. See explanation above.
107. See explanation above.
108. Paragraph 108 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
Maps Depicting the Skutumpah Road R.S. 2477 Right-ofWay

109. See explanation above.
110. See explanation above.
111. See explanation above.
112. See explanation above.
113. See explanation above.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

114. See explanation above.
115. See explanation above.
116. Paragraph 116 states legal conclusions to which
no response is required. To the extent a response is

486a
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
117. See explanation above.
118. See explanation above.
119. See explanation above.
120. See explanation above.
121. See explanation above.
122. SUWA lacks information sufficient to admit or
deny the allegations in paragraph 122, and therefore denies the same.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

123. See explanation above.
124. See explanation above.
125. See explanation above.
126. See explanation above.
127. See explanation above.
128. Paragraph 128 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
129. See explanation above.
130. See explanation above.
FOURTH CAUSE OF ACTION — QUIET TITLE
SAND DUNE ROAD

131. See explanation above.

487a
Description of Sand Dune Road R.S. 2477 Right-of-Way

132. See explanation above.
133. See explanation above.
134. See explanation above.
135. See explanation above.
Maps Depicting the Sand Dune Road R.S. 2477 Right-ofWay

136. See explanation above.
137. See explanation above.
138. See explanation above.
139. See explanation above.
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

140. See explanation above.
141. See explanation above.
142. See explanation above.
143. See explanation above.
144. See explanation above.
145. See explanation above.
146. See explanation above.
147. See explanation above.
Acceptance of the Sand Dune Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

148. See explanation above.
149. See explanation above.

488a
150. See explanation above.
151. See explanation above.
152. See explanation above.
153. See explanation above.
154. See explanation above.
155. See explanation above.
FIFTH CAUSE OF ACTION — QUIET TITLE
HANCOCK ROAD

156. See explanation above.
Description of Hancock Road R.S. 2477 Right-of-Way

157. See explanation above.
158. See explanation above.
159. See explanation above.
160. See explanation above.
Maps Depicting the Hancock Road R.S. 2477 Right-ofWay

161. See explanation above.
162. See explanation above.
163. See explanation above.
164. See explanation above.
165. See explanation above.
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
Prior to October 21, 1976.

166. See explanation above.
167. See explanation above.

489a
168. See explanation above.
169. See explanation above.
170. See explanation above.
171. See explanation above.
172. See explanation above.
173. See explanation above.
Acceptance of the Hancock Road R.S. 2477 Right-of-Way
By Public Use Prior to 1976.

174. See explanation above.
175. See explanation above.
176. See explanation above.
177. See explanation above.
178. See explanation above.
179. See explanation above.
180. See explanation above.
181. See explanation above.
SIXTH CAUSE OF ACTION — QUIET TITLE
SWALLOW PARK/PARK WASH ROAD

182. See explanation above.
Description of Swallow Park/Park Wash Road R.S. 2477
Right-of-Way

183. See explanation above.
184. See explanation above.
185. See explanation above.

490a
186. Paragraph 186 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
Maps Depicting the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way

187. See explanation above.
188. See explanation above.
189. See explanation above
190. See explanation above.
Acceptance of the Skutumpah Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

191. See explanation above.
192. See explanation above.
193. Paragraph 193 states legal conclusions to which
no response is required. To the extent a response is required, SUWA denies these allegations. SUWA further
denies that the scope of the right-of-way is 66 feet in
width.
194. See explanation above.
195. See explanation above.
196. See explanation above.
197. See explanation above.
198. See explanation above.

491a
Acceptance of the Swallow Park/Park Wash Road R.S.
2477 Right-of-Way By Public Use Prior to 1976.

199. See explanation above.
200. See explanation above.
201. See explanation above.
202. See explanation above.
203. See explanation above.
204. Paragraph 204 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
205. See explanation above.
206. See explanation above.
SEVENTH CAUSE OF ACTION — QUIET TITLE
NORTH SWAG ROAD

207. See explanation above.
Description of North Swag Road R.S. 2477 Right-of-Way

208. See explanation above.
209. See explanation above.
210. See explanation above.
211. Paragraph 211 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
Maps Depicting the North Swag Road R.S. 2477 Right-ofWay

212. See explanation above.

492a
213. See explanation above.
214. See explanation above.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

215. See explanation above.
216. See explanation above.
217. Paragraph 217 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations. SUWA further denies that the scope of the right-of-way is 66 feet
in width.
218. See explanation above.
Acceptance of the North Swag Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

219. See explanation above.
220. See explanation above.
221. See explanation above.
222. See explanation above.
223. See explanation above.
224. Paragraph 224 states legal conclusions to which
no response is required. To the extent a response is
required, SUWA denies these allegations.
225. See explanation above.
226. See explanation above.
EIGTH CAUSE OF ACTION — QUIET TITLE
NIPPLE LAKE ROAD

227. See explanation above

493a
Description of Nipple Lake Road R.S. 2477 Right-of-Way

228. See explanation above.
229. See explanation above.
230. See explanation above.
231. See explanation above.
Maps Depicting the Nipple Lake Road R.S. 2477 Right-ofWay

232. See explanation above.
233. See explanation above.
234. See explanation above.
235. See explanation above.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay Prior to October 21, 1976.

236. See explanation above.
237. See explanation above.
238. See explanation above.
239. See explanation above.
240. See explanation above.
241. See explanation above.
242. See explanation above.
243. See explanation above.
Acceptance of the Nipple Lake Road R.S. 2477 Right-ofWay By Public Use Prior to 1976.

244. See explanation above.
245. See explanation above.

494a
246. See explanation above.
247. See explanation above.
248. See explanation above.
249. See explanation above.
250. See explanation above.
251. See explanation above.
NINTH CAUSE OF ACTION — QUIET TITLE
CAVE LAKES ROADS

252. See explanation above.
Description of the Cave Lakes Roads R.S. 2477 Right-ofWay

253. See explanation above.
254. See explanation above.
255. See explanation above.
256. See explanation above.
257. See explanation above.
258. See explanation above.
259. See explanation above.
260. See explanation above.
261. See explanation above.
262. See explanation above.
Maps Depicting the Caves Lakes Roads R.S. 2477 Rightof-Way

263. See explanation above.
264. See explanation above.

495a
265. See explanation above.
266. See explanation above.
Acceptance of the Caves Lakes Roads R.S. 2477 Right-ofWay By Public Use Prior to 1976.

267. See explanation above.
268. See explanation above.
269. See explanation above.
270. See explanation above.
271. See explanation above.
272. See explanation above.
273. See explanation above.
274. See explanation above.
275. See explanation above.
276. See explanation above.
277. See explanation above.
278. See explanation above.
279. See explanation above.
280. See explanation above.
281. See explanation above.
282. See explanation above.
RESPONSE TO PLAINTIFF ’S PRAYER FOR RELIEF

Proposed Intervenor-Defendant denies that IntervenorPlaintiff is entitled to any of the remedies requested regarding scope of rights-of-way on any grounds, whether
at law or in equity. Proposed Intervenor-Defendant de-

496a
nies any other allegations of the Complaint not specifically admitted herein, consistent with the explanation
set forth above.
DATED this _____ day of Dec., 2017.
MANNING CURTIS BRADSHAW & BEDNAR PLLC

Brent V. Manning
Jess M. Krannich
Mitch M. Longson
SOUTHERN UTAH WILDERNESS ALLIANCE
Stephen H.M. Bloch
Joseph J. Bushyhead
Attorneys for Proposed Intervenor-Defendant
Southern Utah Wilderness Alliance

497a

Exhibit C

498a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, UTAH, AND STATE OF UTAH,
PLAINTIFFS

v.
UNITED STATES OF AMERICA, DEFENDANTS
AND

SOUTHERN UTAH WILDERNESS ALLIANCE AND
THE WILDERNESS SOCIETY,
PROPOSED INTERVENOR-PLAINTIFF
DECLARATION OF RAY BLOXHAM

I, Ray Bloxham, declare under penalty of perjury as
follows:
1. I have personal knowledge of each of the facts set
forth below, and if called upon to do so, could and would
testify regarding the following. This declaration is
filed in support of the Southern Utah Wilderness Alliance’s and The Wilderness Society’s Motion to Intervene
and Memorandum in Support in the above-captioned
matter.
Background and Expertise

2. I am the Utah Field Director for the Southern
Utah Wilderness Alliance (“SUWA”) and have served in
this and similar positions since 1999. I have also been
an active member of SUWA since 1999. Prior to taking
this position, from 1997-98, I surveyed lands managed
by the federal Bureau of Land Management (“BLM”) on

499a
behalf of SUWA and the Utah Wilderness Coalition
(“UWC”), a group of local, regional and national conservation organizations formed to promote the protection
of Utah’s last remaining wild lands through legislation
and advocacy work.
3. My survey and documentation work on BLM
lands, together with similar work conducted by other
volunteers and staff of the UWC organizations, was and
continues to be used by SUWA and the UWC to evaluate
the eligibility of areas for wilderness designation and inclusion in federal legislation known as America’s Red
Rock Wilderness Act (“ARRWA”), H.R. 2044, S. 948,
115th Cong. (2017). This legislation would permanently protect from roads and development approximately nine million acres of BLM lands in Utah as part
of the National Wilderness Preservation System, including BLM land in Kane County bounded and traversed
by the Skutumpah, Swallow Park, and North Swag
rights-of-way. This survey and documentation work
identifies how these lands in ARRWA merit protection
and satisfy the requirements of the National Wilderness
Preservation System (defined roughly as tracts of land
5,000 acres or more in size, possessing outstanding opportunities for solitude, and/or primitive and unconfined
opportunities for recreation and an essentially undeveloped and roadless condition). This work includes extensive photographs, maps, and narrative descriptions
of these qualities as well documentation as any faint human incursions in these areas. This information is
maintained in the SUWA offices in Salt Lake City and
Moab, Utah.
4. My current work involves site visits to identify
and document the characteristics of certain tracts of

500a
BLM lands to determine whether the areas qualify for
wilderness protection or are suitable for other types of
protection. I also frequently meet with BLM staff to
gather information about the resources present on the
land and to gather information relating to the impacts of
various proposals for use of the land. I spend considerable time on the ground documenting intrusions such
as roads, road maintenance and expansion, and off road
vehicle (“ORV”) impacts on lands considered by the
BLM and/or the UWC to have wilderness characteristics. I have expertise in map reading, route finding,
and land navigation using both paper and electronic
maps. With this information, I actively urge BLM to
protect wilderness quality lands from various impacts
like roads and ORV use. I engage in advocacy work in
connection with specific proposals for activities like road
work (such as maintenance or improvements) or ORV
events and trail proposals, as well as in connection with
broader BLM planning efforts. Through this work, I
am very familiar with the federal public lands encompassed by the Grand Staircase-Escalante National Monument, as well as the Monument management plan and
travel plan. I am also familiar with the lands outside
the Monument managed by the Kanab field Office, and
governed by the Kanab Resource Management Plan
(“RMP), issued in 2008. This plan is the master plan
governing which activities may take place in Kanab field
office, along with where and when they may take place.
The RMP also included a travel plan which identifies
certain unpaved routes where motorized vehicle use is
allowed on BLM lands. In the course of my work, I have
become very familiar with this management plan and
travel plan, as well as the conditions of BLM lands

501a
within the Kanab Field Office. I have personally visited the federal public lands immediately surrounding
the Skutumpah, Swallow Park, and North Swag rightsof-way on numerous occasions, most recently in October
2016.
5. From 2006-2012, I was an active member of the
BLM’s Utah Resource Advisory Council, a 15-member
advisory panel appointed by the Secretary of Interior to
provide advice and recommendations to the BLM on
land use planning and management. The members of
the council represent a cross section of public lands stakeholders including energy, tourism, and commercial recreation interests; environmental, archeological or historic interests; elected officials; and the public at large.
The Council periodically conducted its meetings at various sites throughout the state, including areas where
roads and ORV impacts had damaged the public lands
and required more intensive regulation, and heard presentations about the resource impacts of such use.
Based on that information, the council would deliberate
and make recommendations to the BLM about how to
resolve various resource and management issues.
Through this experience I gained expertise about the
destructive impacts roads and ORV use can cause on a
range of natural resources.
SUWA’s Organizational Interest

6. The Southern Utah Wilderness Alliance is a Utah
non-profit membership organization. SUWA, based in
Salt Lake City, Utah, has more than 15,000 members,
many of whom reside and recreate in Utah. SUWA’s
mission is the preservation of the outstanding wilderness and other sensitive public lands at the heart of the
Colorado Plateau, and advocacy for the protection of

502a
these lands in their natural state for the benefit of all
Americans. SUWA promotes local and national recognition of the region’s unique character through research
and public education. SUWA supports both administrative and legislative initiatives to protect federal public lands and it advocates for the permanent protection
of BLM lands throughout the state in the National Wilderness Preservation System. SUWA works to ensure
that areas already designated as wilderness, or which
are proposed for such designation, are managed appropriately. SUWA seeks to ensure that the wild federal
public lands at issue in this case are managed to preserve their natural and cultural values. SUWA also advocates for other protective designations, for example,
in resource management plan development or in connection with individual agency decisions regarding specific
project proposals. SUWA is an outspoken advocate for
the protection of all Utah’s federally-managed wildernessquality lands and is widely recognized as a leader in the
national effort to designate, through proposed legislation entitled the “America’s Red Rock Wilderness Act,”
approximately nine million acres of Utah BLM lands as
protected wilderness, including the lands traversed by
or bordered by the Skutumpah, Swallow Park, and North
Swag roads. The BLM frequently solicits SUWA’s input and participation in the land use planning process
for a variety of resource decisions, and SUWA actively
participates in all levels of the BLM’s decision-making
process regarding the management of public lands.
7. SUWA has a particular interest in federallymanaged wilderness quality lands and the threats to their
wilderness character, including lands affected by the three
R.S. 2477 rights-of-way at issue in this suit. SUWA’s
concerns include but are not limited to: damage from

503a
ORV use; the effectiveness and lawfulness of BLM’s
proposed land management strategies; the need for enforcement of existing rules and regulations; and the impacts of motorized vehicles and roads on lands managed
by the BLM. SUWA has provided the BLM with detailed photographic and written documentation regarding the impacts of roads and ORVs on federal public
lands throughout the State of Utah, including Kane
County, where the R.S. 2477 rights-of-way at issue in
this action are located.
The Wilderness Society’s Organizational Interest

8. I am also a member of The Wilderness Society
(TWS). TWS is a non-profit national membership organization founded in 1935. TWS works to protect America’s wilderness and to develop a network of wild lands
through public education, scientific analysis, and advocacy. TWS’ priority is to ensure that future generations will enjoy the clean air, water, wildlife, beauty, and
opportunities for recreation and renewal that pristine
deserts, mountain forests, and rivers provide. Protecting Utah’s wilderness quality lands is a priority for TWS.
Since 1935, TWS has worked to protect wildernessquality lands across the United States. It was instrumental in advocating for and achieving passage of the
Wilderness Act of 1964, and in the designation of millions of acres of wilderness across the Nation since then.
TWS also has a continuing interest in ensuring the protection of wilderness-quality lands under the jurisdiction of the BLM, through the agency’s land management
planning processes. TWS actively supports passage of
America’s Red Rock Wilderness Act. TWS and SUWA
work closely together to achieve these priorities.

504a
Primitive and Wild Values of Kane County

9. The federal public lands within the original boundaries of the Grand Staircase-Escalante National Monument comprise a massive, remote, and undeveloped area.
The BLM currently manages the bulk of this land first
and foremost to protect its primitive, frontier state and
pursuant to the 1999 Grand Staircase-Escalante National
Monument Management Plan.
10. In addition to this management regime for the
Monument, the BLM lands underlying or adjacent to
the three rights-of-way at issue in this case include three
categories of wilderness quality lands: (1) the Paria
Hackberry wilderness study area (“WSA”)—land recognized by BLM in the 1980s as having wilderness values
and are protected by law and the agency’s own management plans; (2) lands with wilderness characteristics
(“LWCs”)—lands the BLM has determined to have wilderness character; and (3) Utah Wilderness Coalitionproposed wilderness areas (“UWC areas”)—lands inventoried by the Utah Wilderness Coalition and determined by conservationists to have wilderness character.
While BLM manages WSAs to preserve their wild character, it does not manage its LWCs in the vicinity of the
three rights-of-way for this same purpose. Likewise,
UWC areas do not receive any special recognition or
protections from the BLM. Lands within the original
boundaries of the Grand Staircase-Escalante National
Monument that are not proposed for wilderness or do
not contain wilderness character are still primitive in
nature and are protected from most forms of development.
11. The three rights-of-way still at issue in this case
are within the boundaries of the Grand Staircase-

505a
Escalante National Monument. Additionally, the Skutumpah Road borders portions of the Paria-Hackberry
WSA and BLM-identified LWC, as well as additional
lands proposed for wilderness designation by the UWC.
The Swallow Park route is cherry-stemmed within the
Paria-Hackberry WSA and also borders BLM-identified
LWC. The North Swag route is located inside the
Paria-Hackberry Wilderness Study Area, borders BLMidentified LWC, and is closed to public motorized use by
the Monument management plan.
Impact on Conservation Interests

12. I enjoy hiking, camping, backpacking, climbing,
viewing cultural resources (pre-historic and historic),
bird watching, studying, contemplating solitude, photography, and other activities on lands within the Monument as well as on lands proposed for wilderness designation in ARRWA. In the course of these activities, I
have visited the Skutumpah, Swallow Park, and North
Swag routes, as well as the wilderness-quality BLM lands
surrounding these routes. I use and enjoy the specific areas within the original boundaries of the Grand StaircaseEscalante National Monument, the Paria-Hackberry WSA,
and lands proposed for wilderness designation over
which, or adjacent to which, the three routes run for
health, recreational, spiritual, educational, aesthetic,
and other purposes. I take great pleasure from my visits
to this area—which occurred most recently in October
of 2016—and intend to return as often as possible, but
certainly within the next year. My enjoyment of these
activities is dependent on quiet, natural settings without
the sights, sounds and impacts associated with roads
and off-road vehicle use. If the Skutumpah, Swallow
Park, and North Swag routes are improved, widened or

506a
graded beyond their current disturbed width, the federal public lands they traverse and/or border will be degraded and my enjoyment of these areas will be significantly reduced or eliminated.
13. I believe a determination on the nature and
scope of the North Swag rights-of-way will almost certainly lead to the re-opening of fragile public lands within the Monument and the Paria-Hackberry wilderness
study area to motorized vehicle use and damage. I believe a determination of the nature and scope of the Skutumpah and Swallow Park rights-of-way will increase motorized vehicle use of the roads and encourage illegal
motorized vehicle use on adjacent lands. Such determinations and use will destroy the solitude, quiet, and
natural and cultural resources in these areas. Further,
my observation is that once routes are formally mapped,
graded, graveled, paved, or otherwise improved, traffic
dramatically increases, diminishing the area’s primitive
and wild character. I have also observed negative, indirect impacts from newly designated or improved roads
including the proliferation of motorized vehicle trails,
erosion, the spread of weeds, airborne dust, and damage
to archaeological sites. All of these effects detract from
and degrade the natural beauty and wilderness character of the public lands.
14. Further, a settlement agreement or judicial determination regarding the scope of these three rightsof-way in Kane County, which would permit Kane County
to undertake road maintenance activities such as widening or rerouting, would result in the intrusion and expansion of road-related impacts into areas which are proposed for wilderness designation or which are currently
protected as WSAs, and cause unavoidable resource

507a
damage to the vegetation, soils, and other resources in
newly-disturbed areas. Such an agreement or determination would also dramatically impact the primitive,
remote character of the surrounding lands, where public
lands are characterized by the lack of roads, ORV use,
and other impacts, and which I prize for their primitive
nature.
15. My interests would also be harmed by an agreement or judicial determination regarding the scope of
these three rights-of-way because it would disqualify
large areas of BLM lands from permanent wilderness
protection, a goal that SUWA has sought to achieve for
over thirty years.
Pursuant to 28 U.S.C. § 1746, I DECLARE, under
penalty of perjury, that the foregoing is true and correct.
Signed this 21st day of Dec., 2017, in Salt Lake City,
Utah.
/s/ RAY BLOXHAM
RAY BLOXHAM

508a

Exhibit D

509a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH, CENTRAL DIVISION

Case No. 2:08-cv-00315-CW
KANE COUNTY, UTAH, AND STATE OF UTAH,
PLAINTIFFS

v.
UNITED STATES OF AMERICA, DEFENDANTS
AND

SOUTHERN UTAH WILDERNESS ALLIANCE AND
THE WILDERNESS SOCIETY,
PROPOSED INTERVENOR-DEFENDANTS
DECLARATION OF KYA MARIENFELD

I, Kya Marienfeld, declare under penalty of perjury
as follows:
1. I have personal knowledge of each of the facts
set forth below, and if called upon to do so, could
and would testify regarding the following. This declaration is filed in support of the Southern Utah Wilderness Alliance’s and The Wilderness Society’s Motion to
Intervene and Memorandum in Support in the abovecaptioned matter.
2. I am a Wildlands Attorney for the Southern
Utah Wilderness Alliance (SUWA) and have served in this
position since 2015. This position requires me to spend
considerable time on the ground documenting intrusions
into lands recognized by both the Bureau of Land Management (BLM) and the Utah Wilderness Coalition
(UWC) as having wilderness characteristics, as well as

510a
lands currently proposed only by the UWC as having such
wilderness qualities and other spectacular and sensitive
public lands. I am also an active member of SUWA and
have been a member since 2016.
3. SUWA, based in Salt Lake City, Utah, has approximately 15,000 members, many of whom reside in
Utah. SUWA’s mission is the preservation of the outstanding wilderness and other sensitive public lands at
the heart of the Colorado Plateau, and the management
of these lands in their natural state for the benefit of all
Americans. SUWA seeks to protect the public lands of
Utah and is a founding member of the UWC. SUWA
promotes local and national recognition of the region’s
unique character through research and public education; supports both administrative and legislative initiatives to permanently protect Utah’s wild places within
the National Park and National Wilderness Preservation System or by other protective designations where
appropriate; builds support for such initiatives on both
the local and national level; and provides leadership
within the conservation movement through uncompromising advocacy for wilderness preservation.
4. SUWA members and staff have a welldemonstrated interest in the preservation and protection
of Utah’s remarkable BLM-managed wilderness-quality
public lands in Kane County, including those lands bordered and traversed by the Skutumpah, Swallow Park,
and North Swag rights-of-way. SUWA’s concerns include but are not limited to: damage from off-road vehicle (ORV) use; the effectiveness and lawfulness of
BLM’s proposed land management strategies; the need
for enforcement of existing rules and regulations; and
the impacts of motorized vehicles and roads on lands

511a
managed by the BLM. SUWA is actively involved in
protecting BLM lands, including those underlying and
adjacent to the Skutumpah, Swallow Park, and North
Swag rights-of-way, from such threats.
5. As a Wildlands Attorney, I routinely review various types of project and planning proposals under consideration by federal agencies, including the Bureau of
Land Management (BLM), many of which affect BLMmanaged public lands in Kane County with wilderness
values. I am also the lead SUWA staff member for motorized vehicle issues in Kane County and spend considerable time in the field observing and documenting the
impacts of motorized vehicle use on public lands. These
impacts include soil erosion, loss of native plant and animal
habitat, disturbance or destruction of archaeological artifacts, noise, airborne dust, damage to streams and water
quality, and the creation of pioneered trails off of existing routes, all of which reduce the natural beauty and
wilderness values prized by myself and SUWA members. SUWA has and continues to actively advocate for
limitations on motorized use and trails where they conflict with wilderness values.
6. I have personally travelled on the Skutumpah
Road and the BLM-managed public lands with wilderness character adjacent to it. I take great pleasure from
my visits to this area which occurred most recently in
March 2017—and intend to return as often as possible,
and certainly within the next year. Along with other
SUWA members and staff, I enjoy hiking, camping,
birdwatching, study, contemplation, solitude, photography, and other activities on these lands. I use and
enjoy these lands for health, recreational, spiritual, ed-

512a
ucational, aesthetic, and other purposes. My enjoyment of these activities is dependent on quiet, natural
settings. If the Skutumpah Road is widened and improved beyond its current disturbed width, I believe the
wilderness areas it traverses and borders will be degraded and my enjoyment of these lands will be significantly reduced or eliminated.
Pursuant to 28 U.S.C. § 1764, I DECLARE, under
penalty of perjury, that the foregoing is true and correct.
Signed this 20th day of Dec., 2017, in Moab, Utah.
/s/ KYA MARIENFELD
KYA MARIENFELD

513a

Exhibit F

514a

Nov. 30, 2017
VIA ELECTRONIC MAIL

Anthony Rampton
Kathy A. F. Davis
Roger Fairbanks
Utah
Attorney General’s Office
5110 State Office Building
P.O. Box 142477
Salt Lake City, Utah 84111
arampton@utah.gov
kdavis@utah.gov
rfairbanks@utah.gov
Shawn T. Welch
Richard D. Flint
Holland & Hart LLP
222 S. Main Street, Suite 2200
Salt Lake City, Utah 84101
stwelch@hollandhart.com
rdflint@hollandhart.com

515a
John K. Mangum
United States Attorney’s Office
111 Main St. # 1800
Salt Lake City, Utah 84111
john.mangum@usdoj.gov
Rob Van Dyke
Deputy Kane County Attorney
76 N. Main Street
Kanab, Utah 84741
rvandyke@kane.utah.gov
Joseph H. Kim
Joanna K. Brinkman
United States Department of
Justice Environment
& Natural Resources Division
Natural Resources Section
Environmental Enforcement Section
601 D. Street, NW
Washington, D.C. 20044
joseph.kim@usdoj.gov
joanna.brinkman@usdoj.gov
Re:

Kane County (1) v. United States, Case No.
2:08cv315-CW

Dear Counsel:
I write on behalf of Southern Utah Wilderness Alliance and The Wilderness Society (collectively, “SUWA”)
to request that, in the event the parties in this matter decide to engage in any formal or informal settlement discussions regarding the scope of the Skutumpah, SwallowPark/Park Wash, and North Swag R.S. 2477 rights-of-

516a
way, SUWA and their undersigned counsel be provided
reasonable advance notice of such discussions and the
opportunity to attend and participate in such discussions. As you are well aware, SUWA has a significant,
well-established and long-term interest in this matter.
Please let me know by December 7, 2017, whether or not
the parties will mutually agree to this request. Feel
free to contact me if you have questions or would like to
discuss this issue further.
Very Truly Yours,
SOUTHERN UTAH WILDERNESS ALLIANCE
/s/

STEPHEN BLOCH
STEPHEN BLOCH
Attorney for Southern Utah Wilderness Alliance
and The Wilderness Society

CC: Brent Manning
Jess Krannich

517a

Exhibit H

518a
Protected from disclosure: attorney work product,
deliberative process
Memorandum
To:

Acting Solicitor

From:

Associate Solicitor, Division of Land Resources Regional Solicitor, Intermountain
Region

Date:

April

Subject:

Settlement considerations in the Utah Quiet
Title Act/R.S. 2477 cases

, 2017

This follows up on our meeting regarding the Quiet Title
Act (QTA) cases pending in Utah federal court in which
the State of Utah and 22 counties seek to quiet title to
rights-of-way under R.S. 2477 for about 12,000 roads.
This memorandum provides further background on the
litigation and associated negotiations that have taken
place in Utah to date, and summarizes various factors
that should be considered in developing a potential settlement framework.
Background

Between 2005 and 2012, the State and counties filed 29
lawsuits under the QTA seeking title to R.S. 2477 rightsof-way throughout the state. The vast majority of the
claims are on BLM-administered lands; approximately
60 claims are within NPS units. Two of these suits
have been resolved, Juab County 1, which involved
three claims on BLM land and was resolved in 2013 by
negotiations recognizing parts of the claims, and San
Juan County (often referred to as the Salt Creek case),
which involved one claim in Canyonlands National Park

519a
that was ultimately rejected by the Tenth Circuit in
2014.
Six cases in the Utah litigation are active, known as Kane
County 1, 2, 3 and 4, and Garfield County 1 and 2. Pursuant to case management orders (CMOs), all remaining
cases are currently stayed. However, as authorized by
the CMOs, “preservation” depositions are currently being conducted in these cases throughout the state. The
six active cases include approximately 1,520 road claims,
a number of which are in the Grand Staircase Escalante
National Monument, Wilderness Study Areas (WSAs),
and the NPS­managed Capitol Reef National Park and
Glen Canyon National Recreation Area.
During May-July 2015, the three judges assigned to the
active cases collectively issued orders establishing a
“bellwether” process to litigate a limited number of claims
from Kane 2, 3, and 4 and Garfield 1 and 2 that involve
unsettled legal issues to be identified by the court. The
court indicated that its intent is to establish precedent
that might allow for resolution of other claims without
protracted litigation. In September 2015, After the
parties submitted memoranda identifying their respective views as to the unsettled legal issues in September
2015, but the court has taken no further action to pursue
the process.
Meanwhile, in April 2015, the three judges certified a
question to the Utah Supreme Court asking whether a
state law constituted a statute of limitations or statute
ofr repose and indicating that, if the state law is a statute of repose, “then the R.S. 2477 Road cases pending
before this court would be barred.” The Utah Supreme
Court accepted the question and the matter was briefed,
argued, and taken under advisement in April 2016. In

520a
March 2017, the Utah Supreme Court asked for supplemental briefing, which was completed in April, and further oral argument is set for May 10.
There have been several attempts to settle some part of
the R.S. 2477 litigation. The two efforts that have gotten
the furthest are the Juab County 1 negotiations mentioned above and the Iron County Pilot Project negotiations. The negotiations in Juab County 1 began in February 2010 after intensive fact discovery (e.g., 23 depositions were undertaken). After 2½ years of intense
discussions, plaintiffs (the State and Juab County), intervenors represented by Earthjustice (Southern Utah
Wilderness Alliance (SUWA). The Wilderness Society
(TWS), and Sierra Club), and BLM entered into a consent decree that recognized parts of three roads in and
bordering a WSA as R.S. 2477 rights-of-way and established standards for maintenance and use. In exchange,
plaintiffs relinquished other R.S. 2477 claims within the
WSA and nearby areas and stipulated to a final judgement.
The Iron County Pilot Project negotiations began in December 2010 among BLM, Iron County, the Utah Association of Counties (UAC), the State of Utah, and an environmental coalition (led by SUWA and TWS). At
that time, the County (or the State) had not filed its QTA
complaint, but the parties agreed to attempt to create a
process to settle the County’s approximately 1,420 R.S.
2477 claims and, if successful, apply that process to
other counties’ claims. The parties jointly engaged a
professional mediator and through sustained negotiations reached a conceptual agreement in August 2012,
called the “Track 1” agreement, which identified the
roads that the County would control consistent with its

521a
R.S. 2477 claims on an “as is, where is” basis and the
roads for which the County and State would be willing
to drop their claims. Over the next two years the parties attempted to identify the legal mechanisms, or
“tools,” that could be used to implement the “Track 1”
agreement, a process referred to as “Track 2.” Although
the parties tentatively agreed to use certain judicial and
administrative tools, the negotiations broke down in
January 2015 over details such as the relationship with
on-going travel planning and the timing of the relinquishment of R.S. 2477 claims the County was willing to
give up.
There were several subsequent communications during
the previous administration between the State, UAC,
and BLM regarding resuming negotiations, but they did
not prove fruitful. On April 10, 2017, the Director of
the Public Land Policy Coordination Office (PLPCO) of
the State of Utah and the Utah State Director of BLM
agreed to begin a dialogue to explore potential resolutions to the R.S. 2477 issue under this administration.

522a

523a

524a
APPENDIX L

1. 28 U.S.C. 2072 provides in pertinent part:
Rules of procedure and evidence; power to prescribe

(a) The Supreme Court shall have the power to prescribe general rules of practice and procedure and rules
of evidence for cases in the United States district courts
(including proceedings before magistrate judges there
of ) and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify
any substantive right. All laws in conflict with such
rules shall be of no further force or effect after such
rules have taken effect.
*

*

*

*

*

2. The Rules Enabling Act, ch. 651, 48 Stat. 1064 (1934),
provided:
Be it enacted * * * That the Supreme Court of
the United States shall have the power to prescribe, by
general rules, for the district courts of the United States
and for the courts of the District of Columbia, the forms
of process, writs, pleadings, and motions, and the practice and procedure in civil actions at law. Said rules
shall neither abridge, enlarge, nor modify the substantive rights of any litigant. They shall take effect six
months after their promulgation, and thereafter all laws
in conflict therewith shall be of no further force or effect.
SEC. 2. The court may at any time unite the general rules prescribed by it for cases in equity with those
in actions at law so as to secure one form of civil action
and procedure for both: Provided, however, That in such
union of rules the right of trial by jury as at common law

525a
and declared by the seventh amendment to the Constitution shall be preserved to the parties inviolate. Such
united rules shall not take effect until they shall have
been reported to Congress by the Attorney General at
the beginning of a regular session thereof and until after
the close of such session.
3. Rule 8 of the Federal Rules of Civil Procedure provides in pertinent part:
General Rules of Pleading

(a) CLAIM FOR RELIEF. A pleading that states a
claim for relief must contain:
(1) a short and plain statement of the grounds
for the court’s jurisdiction, unless the court already
has jurisdiction and the claim needs no new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include relief in the alternative or different types of relief.
(b) DEFENSES; ADMISSIONS AND DENIALS.
(1) In General.
party must:

In responding to a pleading, a

(A) state in short and plain terms its defenses to each claim asserted against it; and
(B) admit or deny the allegations asserted
against it by an opposing party.
*

*

*

*

*

526a
4. Rule 17 of the Federal Rules of Civil Procedure provides in pertinent part:
Plaintiff and Defendant; Capacity; Public Officers

(a) REAL PARTY IN INTEREST.
(1) Designation in General. An action must be
prosecuted in the name of the real party in interest.
The following may sue in their own names without joining the person for whose benefit the action is brought:
(A) an executor;
(B) an administrator;
(C) a guardian;
(D) a bailee;
(E) a trustee of an express trust;
(F) a party with whom or in whose name a
contract has been made for another’s benefit; and
(G) a party authorized by statute.
*

*

*

*

*

5. Rule 19 of the Federal Rules of Civil Procedure provides in pertinent part:
Required Joinder of Parties

(a) PERSONS REQUIRED TO BE JOINED IF FEASIBLE.
(1) Required Party. A person who is subject to
service of process and whose joinder will not deprive
the court of subject-matter jurisdiction must be
joined as a party if:
(A) in that person’s absence, the court cannot
accord complete relief among existing parties; or

527a
(B) that person claims an interest relating to
the subject of the action and is so situated that disposing of the action in the person’s absence may:
(i) as a practical matter impair or impede
the person’s ability to protect the interest; or
(ii) leave an existing party subject to a
substantial risk of incurring double, multiple,
or otherwise inconsistent obligations because
of the interest.
(2) Joinder by Court Order. If a person has not
been joined as required, the court must order that
the person be made a party. A person who refuses
to join as a plaintiff may be made either a defendant
or, in a proper case, an involuntary plaintiff.
(3) Venue. If a joined party objects to venue
and the joinder would make venue improper, the
court must dismiss that party.
(b) WHEN JOINDER IS NOT FEASIBLE. If a person
who is required to be joined if feasible cannot be joined,
the court must determine whether, in equity and good
conscience, the action should proceed among the existing parties or should be dismissed. * * * .
*

*

*

*

*

(c) PLEADING THE REASONS FOR NONJOINDER.
When asserting a claim for relief, a party must state:
(1) the name, if known, of any person who is required to be joined if feasible but is not joined; and
(2) the reasons for not joining that person.
(d) EXCEPTION
subject to Rule 23.

FOR

CLASS ACTIONS.

This rule is

528a
6. Rule 19 of the Federal Rules of Civil Procedure,
28 U.S.C. Appendix (1970), provided in pertinent part:
JOINDER OF PERSONS NEEDED FOR JUST ADJUDICATION
(a) Persons to be joined if feasible.
A person who is subject to service of process and
whose joinder will not deprive the court of jurisdiction
over the subject matter of the action shall be joined as a
party in the action if (1) in his absence complete relief
cannot be accorded among those already parties, or
(2) he claims an interest relating to the subject of the
action and is so situated that the disposition of the action
in his absence may (i) as a practical matter impair or impede his ability to protect that interest or (ii) leave any
of the persons already parties subject to a substantial
risk of incurring double, multiple, or otherwise inconsistent obligations by reason of his claimed interest. If
he has not been so joined, the court shall order that he
be made a party. If he should join as a plaintiff but refuses to do so, he may be made a defendant, or, in a
proper case, an involuntary plaintiff. If the joined
party objects to venue and his joinder would render the
venue of the action improper, he shall be dismissed from
the action.
*

*

*

*

*

7. Rule 20 of the Federal Rules of Civil Procedure provides:
Permissive Joinder of Parties

(a) PERSONS WHO MAY JOIN OR BE JOINED.
(1) Plaintiffs.
as plaintiffs if:

Persons may join in one action

529a
(A) they assert any right to relief jointly,
severally, or in the alternative with respect to or
arising out of the same transaction, occurrence,
or series of transactions or occurrences; and
(B) any question of law or fact common to all
plaintiffs will arise in the action.
(2) Defendants. Persons—as well as a vessel,
cargo, or other property subject to admiralty process in rem—may be joined in one action as defendants if:
(A) any right to relief is asserted against
them jointly, severally, or in the alternative with
respect to or arising out of the same transaction,
occurrence, or series of transactions or occurrences; and
(B) any question of law or fact common to all
defendants will arise in the action.
(3) Extent of Relief. Neither a plaintiff nor a
defendant need be interested in obtaining or defending against all the relief demanded. The court may
grant judgment to one or more plaintiffs according
to their rights, and against one or more defendants
according to their liabilities.
(b) PROTECTIVE MEASURES. The court may issue
orders—including an order for separate trials—to protect a party against embarrassment, delay, expense, or
other prejudice that arises from including a person
against whom the party asserts no claim and who asserts no claim against the party.

530a
8. Rule 24 of the Federal Rules of Civil Procedure provides:
Intervention

(a) INTERVENTION OF RIGHT. On timely motion,
the court must permit anyone to intervene who:
(1) is given an unconditional right to intervene
by a federal statute; or
(2) claims an interest relating to the property or
transaction that is the subject of the action, and is so
situated that disposing of the action may as a practical matter impair or impede the movant’s ability to
protect its interest, unless existing parties adequately represent that interest.
(b) PERMISSIVE INTERVENTION.
(1) In General. On timely motion, the court
may permit anyone to intervene who:
(A) is given a conditional right to intervene
by a federal statute; or
(B) has a claim or defense that shares with
the main action a common question of law or fact.
(2) By a Government Officer or Agency. On
timely motion, the court may permit a federal or
state governmental officer or agency to intervene if
a party’s claim or defense is based on:
(A) a statute or executive order administered by the officer or agency; or
(B) any regulation, order, requirement, or
agreement issued or made under the statute or
executive order.

531a
(3) Delay or Prejudice. In exercising its discretion, the court must consider whether the intervention will unduly delay or prejudice the adjudication of the original parties’ rights.
(c) NOTICE AND PLEADING REQUIRED. A motion
to intervene must be served on the parties as provided
in Rule 5. The motion must state the grounds for intervention and be accompanied by a pleading that sets out
the claim or defense for which intervention is sought.
9. Rule 24 of the Federal Rules of Civil Procedure,
28 U.S.C. Appendix (1970), provided:
(a) Intervention of right.

Upon timely application anyone shall be permitted
to intervene in an action: (1) when a statute of the
United States confers an unconditional right to intervene; or (2) when the applicant claims an interest relating to the property or transaction which is the subject
of the action and he is so situated that the disposition of
the action may as a practical matter impair or impede
his ability to protect that interest, unless the applicant’s
interest is adequately represented by existing parties.
(b) Permissive intervention.

Upon timely application anyone may be permitted to
intervene in an action: (1) when a statute of the
United States confers a conditional right to intervene;
or (2) when an applicant’s claim or defense and the main
action have a question of law or fact in common. When
a party to an action relies for ground of claim or defense
upon any statute or executive order administered by a
federal or state governmental officer or agency or upon

532a
any regulation, order, requirement, or agreement issued or made pursuant to the statute or executive order, the officer or agency upon timely application may
be permitted to intervene in the action. In exercising
its discretion the court shall consider whether the intervention will unduly delay or prejudice the adjudication
of the rights of the original parties.
(c) Procedure.

A person desiring to intervene shall serve a motion
to intervene upon the parties as provided in Rule 5.
The motion shall state the grounds therefor and shall
be accompanied by a pleading setting forth the claim or
defense for which intervention is sought. The same
procedure shall be followed when a statute of the
United States gives a right to intervene. When the
constitutionality of an act of Congress affecting the
public interest is drawn in question in any action to
which the United States or an officer, agency, or employee thereof is not a party, the court shall notify the
Attorney General of the United States as provided in
Title 28, U.S.C., § 2403.
10. Rule 24 of the Federal Rules of Civil Procedure,
28 U.S.C. Appendix (1964), provided:
INTERVENTION
(a) Intervention of right.

Upon timely application anyone shall be permitted
to intervene in an action: (1) when a statute of the
United States confers an unconditional right to intervene; or (2) when the representation of the applicant’s
interest by existing parties is or may be inadequate and

533a
the applicant is or may be bound by a judgment in the
action; or (3) when the applicant is so situated as to be
adversely affected by a distribution or other disposition
of property which is in the custody or subject to the control or disposition of the court or an officer thereof.
(b) Permissive Intervention.

Upon timely application anyone may be permitted to
intervene in an action: (1) when a statute of the United
States confers a conditional right to intervene; or (2)
when an applicant’s claim or defense and the main action have a question of law or fact in common. When a
party to an action relies for ground of claim or defense
upon any statute or executive order administered by a
federal or state governmental officer or agency or upon
any regulation, order, requirement, or agreement issued or made pursuant to the statute or executive order, the officer or agency upon timely application may
be permitted to intervene in the action. In exercising
its discretion the court shall consider whether the intervention will unduly delay or prejudice the adjudication
of the rights of the original parties.
(c) Procedure.

A person desiring to intervene shall serve a motion
to intervene upon the parties as provided in Rule 5.
The motion shall state the grounds therefor and shall
be accompanied by a pleading setting forth the claim or
defense for which intervention is sought. The same
procedure shall be followed when a statute of the
United States gives a right to intervene. When the
constitutionality of an act of Congress affecting the
public interest is drawn in question in any action to

534a
which the United States or an officer, agency, or employee thereof is not a party, the court shall notify the
Attorney General of the United States as provided in
Title 28, U.S.C, § 2403.
11. Rule 24 of the Federal Rules of Civil Procedure,
308 U.S. 690 (1937), provided:
Intervention

(a) INTERVENTION OF RIGHT. Upon timely application anyone shall be permitted to intervene in an action: (1) when a statute of the United States confers
an unconditional right to intervene; or (2) when the representation of the applicant’s interest by existing parties is or may be inadequate and the applicant is or may
be bound by a judgment in the action; or (3) when the
applicant is so situated as to be adversely affected by a
distribution or other disposition of property in the custody of the court or of an officer thereof.
(b) PERMISSIVE INTERVENTION. Upon timely application anyone may be permitted to intervene in an
action: (1) when a statute of the United States confers
a conditional right to intervene; or (2) when an applicant’s claim or defense and the main action have a question of law or fact in common. In exercising its discretion the court shall consider whether the intervention
will unduly delay or prejudice the adjudication of the
rights of the original parties.
(c) PROCEDURE. A person desiring to intervene
shall serve a motion to intervene upon all parties affected thereby. The motion shall state the grounds
therefor and shall be accompanied by a pleading setting
forth the claim or defense for which intervention is

535a
sought. The same procedure shall be followed when a
statute of the United States gives a right to intervene.
When the constitutionality of an act of Congress affecting the public interest is drawn in question in any action
to which the United States or an officer, agency, or employee thereof is not a party, the court shall notify the
Attorney General of the United States as provided in
the Act of August 24, 1937, c. 754, § 1.
12. Rule 25 of the Federal Rules of Civil Procedure
provides in pertinent part:
Substitution of Parties

(a) DEATH.
*

*

(b) INCOMPETENCY.

*

*

*

* * *

.

If an interest is
(c) TRANSFER OF INTEREST.
transferred, the action may be continued by or against
the original party unless the court, on motion, orders
the transferee to be substituted in the action or joined
with the original party. The motion must be served as
provided in Rule 25(a)(3).
*

*

*

*

*

